<html>
<title> - ELEMENTARY AND SECONDARY ACT REAUTHORIZATION: IMPROVING NCLB TO CLOSE THE ACHIEVEMENT GAP</title>
<body><pre>[Joint House and Senate Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-13
 
                      ELEMENTARY AND SECONDARY ACT
                    REAUTHORIZATION: IMPROVING NCLB
                      TO CLOSE THE ACHIEVEMENT GAP
=======================================================================


                             JOINT HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                          COMMITTEE ON HEALTH,
                     EDUCATION, LABOR AND PENSIONS

                              U.S. Senate

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 13, 2007

                               __________

                            Serial No. 110-9

                               __________

   Printed for the use of the House Committee on Education and Labor
   and the Senate Committee on Health, Education, Labor and Pensions


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

33-757 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                              ----------                              

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel
           Katherine Brunett McGuire, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 13, 2007...................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............   113
    Andrews, Hon. Robert E., a Representative in Congress from 
      the State of Representative in Congress from the State of 
      New Jersey, insertion for the record:
        The Health Report to the American People as included in 
          the Working Group's Final Recommendations, released 
          September 29, 2006, ``Health Care That Works for All 
          Americans,'' Internet URL..............................   117
    Ehlers, Hon. Vernon, a Representative in Congress from the 
      State of Michigan, prepared statement of...................   113
    Enzi, Hon. Michael B., Ranking Minority Member, Senate 
      Committee on Health, Education, Labor and Pensions, 
      prepared statement of......................................     6
        Insertion for the record: Letter submitted by Dr. McBride   125
    Hare, Hon. Phil, a Representative in Congress from the State 
      of Illinois, prepared statement of.........................   115
    Kennedy, Hon. Edward M., Chairman, Senate Committee on 
      Health, Education, Labor and Pensions......................     5
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     3
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     2
        Insertions for the record:
            The prepared statement of Dr. Linda Blumberg.........   119
            The prepared statement of David Griffith.............   128
            The prepared statement of the National Association of 
              Secondary School Principals (NASSP)................   133
            Internet address to ``NASSP Legislative 
              Recommendations for High School Reform''...........   136
            Internet address to NASSP Policy Recommendations for 
              Middle Level Reform................................   136
            NASSP NCLB recommendations...........................   136
            Letter from the National School Boards Association 
              (NSBA).............................................   141
            NSBA Quick Reference Guide...........................   143
            Letter from the National Parents and Teachers 
              Association (PTA)..................................   147

Statement of Witnesses:
    Barnes, Roy, Aspen Institute Commission on No Child Left 
      Behind, former Governor of Georgia.........................     9
        Prepared statement of....................................    11
    Burmaster, Elizabeth, president, Council of Chief State 
      School Officers............................................    82
        Prepared statement of....................................    84
    Casserly, Michael, Council of Great City Schools.............    29
        Prepared statement of....................................    32
    Henderson, Wade J., president and CEO, Leadership Conference 
      on Civil Rights............................................    20
        Prepared statement of....................................    23
    McElroy, Edward J., president, American Federation of 
      Teachers...................................................    44
        Prepared statement of....................................    46
        AFT report, ``Building Minds, Minding Buildings'' 
          Internet address.......................................   116
    Rothkopf, Arthur J., Business Coalition for Student 
      Achievement (BCSA).........................................    25
        Prepared statement of....................................    26
        Recommendations from BCSA................................   117
        Endorsements from BCSA...................................   118
    Weaver, Reg, president, the National Education Association...    48
        Prepared statement of....................................    50


                      ELEMENTARY AND SECONDARY ACT
                    REAUTHORIZATION: IMPROVING NCLB


                      TO CLOSE THE ACHIEVEMENT GAP

                              ----------                              


                        Tuesday, March 13, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                              U.S. Senate

           Committee on Health, Education, Labor and Pensions

                             Washington, DC

                              ----------                              

    The committees met, pursuant to call, at 9:34 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the Committee on Education and Labor] presiding.
    Present from the Committee on Education and Labor: 
Representatives Miller, Kildee, Payne, Andrews, Scott, Woolsey, 
Hinojosa, Tierney, Kucinich, Wu, Holt, Davis of California, 
Davis of Illinois, Grijalva, Bishop of New York, Sanchez, 
Sarbanes, Sestak, Loebsack, Hirono, Altmire, Yarmuth, Hare, 
Clarke, Courtney, Shea-Porter, McKeon, Petri, Hoekstra, Castle, 
Ehlers, Biggert, Keller, Kline, McMorris Rodgers, Price, 
Fortuno, Boustany, Foxx, Kuhl, and Walberg.
    Present from the Committee on Health, Education, Labor and 
Pensions: Senators Kennedy, Clinton, Brown, Alexander, Burr, 
Isakson, and Murkowski.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Alice Cain, Senior Education Policy 
Advisor (K-12); Molly Carter, Legal Intern, Education; Adrienne 
Dunbar, Legislative Fellow, Education; Amy Elverum, Legislative 
Fellow, Education; Denise Forte, Director of Education Policy; 
Michael Gaffin, Staff Assistant, Labor; Lloyd Horwich, Policy 
Advisor for Subcommittee on Early Childhood, Elementary and 
Secretary Education; Lamont Ivey, Staff Assistant, Education; 
Thomas Kiley, Communications Director; Ann-Frances Lambert, 
Administrative Assistant to Director of Education Policy; 
Stephanie Moore, General Counsel; Alex Nock, Deputy Staff 
Director; Joe Novotny, Chief Clerk; Lisette Partelow, Staff 
Assistant, Education; Rachel Racusen, Deputy Communications 
Director; Theda Zawaiza, Senior Disability Policy Advisor; Mark 
Zuckerman, Staff Director; James Bergeron, Deputy Director of 
Education and Human Resources Policy; Robert Borden, General 
Counsel; Kathryn Bruns, Legislative Assistant; Jessica Gross, 
Deputy Press Secretary; Taylor Hansen, Legislative Assistant; 
Victor Klatt, Staff Director; Lindsey Mask, Director of 
Outreach; Chad Miller, Professional Staff; Susan Ross, Director 
of Education and Human Resources Policy; Linda Stevens, Chief 
Clerk/Assistant to the General Counsel; Sally Stroup, Deputy 
Staff Director; and Brad Thomas, Professional Staff Member.
    Chairman Miller [presiding]. The Committee on Education and 
Labor will come to order for the purposes of conducting a joint 
hearing along with members of the Senate from the Health, 
Employment, Labor and Pensions Committee.
    And I would like to welcome and recognize the gentleman 
from California, Mr. McKeon, the ranking member of the House 
Education and Labor Committee, and also Senator Kennedy, the 
chair of the Senate committee, and the Senator John Isakson 
from Georgia will be filling in for Mr. Enzi. Mr. Enzi is 
detained in Wyoming this morning.
    Each of these members will present an opening statement, 
without objection. All other members may submit their opening 
statements for the record.
    When the Supreme Court said in its Brown v. Board of 
Education decision over 50 years ago that segregated schools 
cannot be equal, it affirmed the right of every child to an 
education on equal terms.
    But despite that decision, and although many children have 
received a first-rate education, many others have not. Far too 
many children still do not have the educational opportunities 
that they deserve.
    Instead, there has been a persistent academic achievement 
gap and a persistent education gap. Our nation has become too 
complacent about both. For far too long these problems were 
relegated to the backburner here in Washington, despite the 
harm to our children and our country.
    The No Child Left Behind law brought these gaps to the 
forefront again, and most supporters and opponents of the law 
will agree that we must make the closing of these gaps a 
national priority. That is the point of No Child Left Behind.
    At its essence, the law boils down to a very simple goal: 
making sure all children across the country can read and do 
math and science at grade level so they can have the brightest 
possible future. No child should be denied the same chance as 
another because of low expectations, systemic neglect, 
inadequate resources or the failure of a vision about what we 
can do to move all children forward.
    In fact, closing these gaps is the least that we should 
expect from our wealthy and powerful nation. It is not too much 
to ask if we are to have any hope of retaining our nation's 
position of global leadership and our moral credibility.
    While it is critical that we remain faithful to the goals 
of No Child Left Behind, it is equally important that 5 years 
after its enactment we seek out new and better ideas for how 
best to achieve these goals.
    This hearing is a formal hearing of which will be a 
bipartisan, comprehensive and inclusive process to improve the 
No Child Left Behind law. We will hear a broad range of 
opinions on which provisions of the law are working well and 
which are not for our schools and for our children.
    There will be some disagreement, both today and in the 
coming months, but by listening to each other and hearing a 
broad range of views and concerns, Congress will be better able 
to help address these concerns when we begin re-writing the law 
later this year.
    The discussion about No Child Left Behind has, at times, 
been heated, but it has also been healthy and much-needed. 
After all, these are the most sweeping education reforms since 
the 1960s when the original Elementary and Secondary Education 
Act was passed as part of the War on Poverty.
    I am confident that the discussion that formally begins 
today will lead us, in the end, to enact legislation that will 
be responsive to the legitimate concerns that have been raised 
about the law and its implementation. We have a lot of ground 
to cover, from how we best promote and measure student progress 
to how we attract the highest-quality teachers and principals 
to every school. These and other topics will be subjects of 
future hearings.
    I believe I speak for all of the members of this committee 
in thanking our witnesses and the coalitions and organizations 
they represent for their extraordinary time and thought and 
care that have gone into their recommendations. Your expertise 
will be enormously helpful today as we move forward with the 
reauthorization process in the months to come.
    Lastly, I want to emphasize that I come to this process 
with an open mind, and I am eager to hear from, and work 
together with, both supporters and critics of the law. There is 
no question that we need to improve the law and properly fund 
it, but the bottom line is that we cannot afford to return to 
the status quo that existed before No Child Left Behind.
    We must remain dedicated to the principle that every child 
deserves a first-rate education because we know that every 
child, if given the opportunity, can learn and succeed. Helping 
our nation's children and families is what this committee is 
all about. I look forward to working with all of you as we 
intensify our efforts on their behalf.
    And I would like now to yield to the senior Republican on 
the Committee on Education and Labor, Mr. McKeon, for his 
opening statement.
    Mr. McKeon. Thank you, Chairman Miller.
    And thank you to our friends from the Senate for joining us 
this morning.
    Today, as we begin the process to reauthorize the No Child 
Left Behind Act, we have an opportunity to reflect back upon 
some of the progress we have made over the past 5 years. Here 
are just a few.
    After nearly 4 decades of seeing it widen, the achievement 
gap in our schools is finally starting to close. The 
conversation over how best to educate every child it taking 
place, not just in Congress and the state houses, but at 
kitchen tables, boardrooms and schools all across America, 
representing the first time that our nation truly has committed 
to leaving no child behind.
    Federal funding for elementary and secondary schools has 
reached record levels. Consider this chart on the screen, which 
shows that federal funding for elementary and secondary 
programs has risen by more than a third since NCLB became law. 
And Title 1 funding for the most needy schools has risen even 
more sharply.
    The Title 1 commitment is particularly noteworthy because, 
as you can see on this second chart, the Title 1 commitment 
under NCLB far exceeds funding for the same programs before the 
law was enacted.
    In short, while we are expecting more, we are also 
providing more resources to schools with the hope that they 
will deliver.
    And, finally, parents have become empowered with more 
educational options under NCLB than ever before. For example, 
the law has made it possible for students in underperforming 
schools to transfer to better performing public schools, 
including charter schools, or receive additional educational 
services, such as private tutoring.
    Still, challenges remain. Yes, the achievement gap is 
closing, but it is not closing quickly enough. Yes, there is an 
ongoing discussion about how best to educate every child, but 
within that discussion are some voices in Congress and in the 
educational establishment urging us to back away from holding 
schools accountable for the education they are or are not 
providing our children. And, yes, parents do have more options 
when it comes to giving their child the best possible 
education, but there still aren't enough options available or 
utilized.
    On this last challenge, in particular, I believe Congress 
has an obligation to act. At its heart, No Child Left Behind is 
parental choice law, and, indeed, if we are truly serious about 
strengthening NCLB, then we must get truly serious about giving 
parents more tools so their children can thrive under it. And 
that starts by empowering them with more choice.
    That is why today I am introducing the Empowering Parents 
through Choice Act, legislation that would provide expanded 
choice for parents whose children are trapped in schools that 
have consistently underperformed.
    Specifically, the bill will authorize opportunity 
scholarships to students attending schools in need of 
restructuring under NCLB. In short, if a child's school 
underperforms for 5 consecutive years, then why any parent 
should be forced to send him or her there for a 6th year?
    Mr. Chairman, I enter the reauthorization process with is 
single goal: Improving No Child Left Behind so it can continue 
the positive impact in our schools that we are beginning to see 
that it has had for the past few years. And I believe that 
empowering parents with more options, more choices is essential 
to reaching that goal.
    I remain open-minded about all the potential changes to the 
NCLB that our committee and our colleagues in the Senate may 
consider over the next several months. For example, I believe 
we need to look for new and innovative ways to get the best 
teachers possible into our nation's classrooms, and I believe 
we need to work together to find the appropriate balance 
between accountability and flexibility, where appropriate.
    At a roundtable in my congressional district several weeks 
ago, this balance was brought up on several occasions by 
education stakeholders in attendance, and their comments placed 
a particular emphasis on English language learners and special 
education students. I look forward to pursuing these and other 
matters in this hearing, as well as those hearings we will hold 
over the next several weeks and months.
    Indeed, we have a long road ahead of us, but ending in an 
agreement to strengthen this law and empower more parents will 
make it all worthwhile.
    I thank the witnesses for being here, and I look forward to 
their testimony.
    Chairman Miller. Thank you very much.
    Senator Kennedy?
    Senator Kennedy. Thank you, Mr. Chairman, and I join in 
welcoming our witnesses to the joint hearing on the 
reauthorization of the Elementary and Secondary Education Act. 
Our committees worked closely together on the No Child Left 
Behind Act, and we look forward to continuing our partnership 
on this reauthorization.
    Our goal in the No Child Left Behind Act was to set high 
standards, close achievement gaps, strengthen public schools 
and enable every child to receive a good education. Our 
priority this year is to make the improvements in the act 
needed to deliver on the commitment made in 2002. Schools 
obviously need greater help in achieving the act's goals, and 
this is no time to retreat.
    The act is based on the fundamental principle that every 
child counts--black or white, native-born or immigrant, 
disabled or non-disabled. We cannot allow the great hope of 
Brown v. Board of Education to provide a quality education for 
all children to go unrealized. We cannot allow rampant 
inequality to undermine the opportunity and progress in our 
schools.
    The No Child Left Behind Act has already enabled schools 
around the nation to make unprecedented progress toward those 
goals. All 50 states now have standards, assessments and 
systems of accountability to track the achievement of students, 
based not on the performance of its overall student population, 
but on its progress in closing achievement gaps and enabling 
all students to meet specific standards. Schools throughout 
America now are using data from the act to develop better ways 
to improve instruction and meet the needs of individual 
students.
    Our Senate committee has heard in recent weeks about some 
of these changes. At the Achievable Dream Academy in Newport 
News, Virginia, longer school days and a more rigorous 
curriculum have enabled African-American students to pass the 
Virginia state assessment at rates equal or almost equal to 
white students. A public-private partnership in Boston has 
improved the recruitment, preparation, training and retention 
of teachers through an intensive, year-long residency program.
    We know, however, that we have only just begun. At this 
stage of the reauthorization, we look forward to hearing a 
range of ideas to build on the initial success of the act and 
deal with its problems.
    We need more effective ways to measure student growth 
toward standards and to recognize schools for that progress. 
Our goal is to focus on the lowest-performing schools, instead 
of simply classifying so many as failures.
    We can't just label schools. We must help them improve. 
Over 9,000 low-income schools are confronting their weaknesses 
as they develop and implement the improvement plans required by 
law. The federal role in assisting these schools may be our 
greatest challenge, and it is a top priority for this 
reauthorization.
    We must improve the quality of assessments, so that they 
better reflect what is taught in the classroom and are more 
useful in making decisions about teaching and learning. English 
language learners and students with disabilities deserve the 
full benefits of the act, and that requires fair, accurate, 
reliable ways to measure their performance.
    We must strengthen the workforce of teachers and close the 
gap in teacher distribution in high-poverty and high-minority 
schools. The best way to close the achievement gap for students 
is to see that they all have good teachers.
    We must give students the support and services they need to 
come to school ready to learn. We must reengage parents and 
whole communities in the process, and make them stronger 
partners in the education of their children.
    And we must help states develop high standards that are 
aligned to rigorous curriculums, so that students who graduate 
from school are ready to compete in the workforce or do well in 
college.
    Most of all, we must use this reauthorization to give 
schools the resources they need to implement these essential 
reforms. We can talk about the increase in resources, but we 
still have to recognize what the appropriations committees 
under Republicans and Democrats have recognized, and that is 
some 3.2 million children are left out and left behind.
    If we shortchange our schools, we are shortchanging 
America. Time and again, I have heard from teachers, principals 
and administrators desperate for financial help to carry out 
these reforms, especially in low-performing schools. We know we 
can do better. All we need is the will to do it.
    I look forward to hearing our witnesses' recommendations 
and ideas on all of these issues.
    I thank this extraordinary panel that we have here today, 
Mr. Chairman, and we here in the Senate thank you very much for 
your invitation to join with you in this important hearing.
    Chairman Miller. Thank you, Senator Kennedy.
    And now I would like to turn to Senator Isakson.
    Senator Isakson. Well, Chairman Miller and Ranking Member 
McKeon, it is good to be home again. I spent many a long hour 
in this committee room back in 2001 working with you on No 
Child Left Behind, and I am delighted to be here.
    Rather than make the opening statement for Senator Enzi, I 
would like to ask unanimous consent that his written statement 
be submitted for the record.
    Chairman Miller. So ordered.
    [The statement of Senator Enzi follows:]

 Prepared Statement of Hon. Michael B. Enzi, Ranking Minority Member, 
       Senate Committee on Health, Education, Labor and Pensions

    I would like to thank Senator Kennedy and Congressman Miller for 
hosting this hearing today. This will allow all of us to start with a 
common set of recommendations as we begin work on the reauthorization 
of No Child Left Behind.
    As we move forward with this important process I want to make it 
very clear that I support the four core principles of the No Child Left 
Behind Act: all students at grade level in reading and math by 2014; 
annual assessments and disaggregation of data; qualified teachers in 
core academic subjects in every classroom; and timely information and 
options for all parents.
    Support of the four core principles does not infer that changes are 
not needed in the No Child Left Behind Act. Rather, I believe that 
changes need to be made to strengthen the law to better sustain these 
core principles and provide additional supports to schools, 
administrators and teachers to meet the principles.
    As we move forward with this process I will be focused on the 
impact this law has had on rural schools and students. Schools in rural 
areas face obstacles and issues that are unique and very different from 
other areas. We need to make sure that what we do does not have 
unintended negative consequences on schools where there may be only 10 
students and one teacher. These schools should not be penalized, when 
they are working within the law to ensure that all students receive the 
education they need to be successful. No rural school or student should 
be left behind.
    We heard last week in a roundtable in the HELP Committee that 
teachers in Wyoming often travel 150 miles or more on a weekend to meet 
with other teachers to learn from them. Just as teachers don't always 
have easy access to quality professional development, students don't 
have opportunities students in larger cities have. Students don't have 
access to advanced classes or to early college programs--unless they 
are offered on-line.
    I will also focus on the importance of technology and how it can 
better be used in our classrooms. Every school in Wyoming is wired. 
This gives students and teachers access to on-line programs and 
services. However, teachers often need more training and professional 
development so they know how to incorporate technology and services 
available via technology in the classroom. They need to know how to 
match up with teachers across the state, across the country, and across 
the world to enhance their work in the classroom.
    I recently received recommendations from educators in Wyoming that 
detail the changes they would like to see in No Child Left Behind to 
make it work better for Wyoming administrators, teachers, students, and 
parents. These recommendations were compiled from across the state and 
represent a fair and balanced view of changes needed for Wyoming 
schools. I look forward to working with educators, parents and 
administrators in Wyoming to ensure that No Child Left Behind works for 
their students.
    To best serve those students we need to begin focusing on school 
improvement activities to provide help schools and teachers need when 
their school is designated as in need of improvement. It is clear there 
is no silver bullet to fix schools that are falling behind. But, with 
some assistance and knowledge, schools can be turned around and excel. 
The Department of Education must improve the way it disseminates 
positive results and best practices--schools need assistance and 
information in order to implement effective school improvement 
strategies and close the student achievement gap.
    I look forward to working with each of you and your members as we 
move forward with the reauthorization of No Child Left Behind. I 
believe that we all want the same outcome--to make sure that every 
student is prepared to be successful in the global economy. To 
accomplish this we will need a bipartisan, bicameral approach to 
reauthorization.
                                 ______
                                 
    Senator Isakson. And then take the liberal license to the 
introduce the first panelist, if you don't mind, Chairman 
Miller.
    Chairman Miller. That is quite all right.
    Senator Isakson. Governor Roy Barnes and I go back a long 
way. We were elected to the legislature in Georgia back in 
1970s, Roy to the Senate, me to the House. We spent the better 
part of 2 decades there and then both in 1990 ran for governor 
and both of us got a lesson in humility from Zell Miller, 
because he won the Democratic primary and then beat me in the 
general election.
    We returned to the legislature and replaced each other. I 
took his Senate-numbered seat, and he took my House-numbered 
seat. And then Roy went on to bigger and better things and 
became governor of Georgia and did a magnificent job. He and 
his wife, Marie, are dear friends with my wife, Diane, and I.
    And they have three wonderful children and how many 
grandchildren, Governor? Four grandchildren. I have you beat by 
two on that so far.
    Governor Barnes, during his tenure as governor, was a 
remarkable education governor in terms of accountability, in 
terms of class size, in terms of assessment. Roy really 
pioneered what has laid the groundwork for Georgia's ever-
improving educational system.
    I commend him for his effort in his recent report with 
Governor Thompson on NCLB, and I am happy to welcome him today 
to the House-Senate Education Committee hearing.
    Chairman Miller. Thank you very much.
    Governor Barnes, welcome.
    And I want to welcome all of the panelists, and thank you 
again for not just your appearance here this morning but for 
all of the time you have been putting in over the last several 
years to look at No Child Left Behind.
    As was mentioned, Governor Barnes was the co-chair of the 
Aspen Institute's Commission on No Child Left Behind and was 
chair of the National Board of Professional and Teaching 
Standards and chair of the Institute on Education Leadership.
    Wade Henderson is the president and CEO of the Leadership 
Conference on Civil Rights, one of the nation's strongest civil 
rights organizations, founded in 1950, to help end 
discrimination and promote the civil rights movements. Today, 
nearly 200 national organizations are part of that conference.
    Arthur Rothkopf served as the senior vice president of the 
Chamber of Commerce since 2005 and has focused on education and 
workforce development issues. Prior to his work with the 
chamber, Mr. Rothkopf was the president of Lafayette College 
for 12 years and before that was deputy secretary of the U.S. 
Department of Transportation. He is a member of Secretary 
Spellings' Commission on the Future of Higher Education.
    Mike Casserly has been the executive director of the Great 
City Schools since 1992 and has worked as director of 
Legislation and Research prior to that time and has been a 
great resource to this committee.
    Ed McElroy is the president of the AFT since 2004, and he 
started his work on education as a social studies and English 
teacher in Warwick, Rhode Island. Mr. McElroy joined the AFT 
Executive Council in 1974 and served as secretary treasurer for 
12 years.
    Reg Weaver is the president of the National Education 
Association, where he is serving his second term as president. 
He is a member of the board of directors, the National Board of 
Professional Teaching Standards and executive board and the 
National Council on Accreditation and Teaching Education.
    Elizabeth Burmaster is the Wisconsin superintendent of 
Public Construction and current president of the Council of 
Chief State School Officers. She also chairs the council's 
Committee on ESEA Reauthorization. Ms. Burmaster has worked for 
25 years in a public school, teacher and principal, and she is 
a board member of the National Center of Learning and 
Citizenship and a member of the Education Commission of the 
States and the Board of Advisors of the Pre-K Now.
    Welcome to you all of you.
    We will proceed in the order in which you were introduced. 
Governor Barnes, we will begin with you.
    When you start, there will be a green light that will go on 
and then an orange light, which will give you an indication you 
might want to start wrapping up, and then the red light. But we 
want to make sure that you get time to cover those things that 
you think are most important, so we will be a little bit 
liberal on the lights here.
    But, Governor Barnes, thank you again, and welcome.

STATEMENT OF ROY BARNES, ASPEN INSTITUTE COMMISSION ON NO CHILD 
            LEFT BEHIND, FORMER GOVERNOR OF GEORGIA

    Mr. Barnes. Thank you, Chairman Miller and Chairman 
Kennedy. We appreciate, on behalf of Tommy Thompson, my good 
friend who is not here today but away on other business, we 
appreciate the opportunity to come and share with you the 
recommendations of the No Child Left Behind Commission that was 
sponsored by the Aspen Institute and that we have delivered to 
you.
    I commend the chairman and ranking minority members for 
their leadership in taking this unusual step of meeting 
together so that we can make sure that this law receives its 
full consideration and the importance that it deserves.
    This is not about whether children learn Shakespeare more 
or better, even though that is important. This is about whether 
we are a competitive nation over the next 50 years and a nation 
at all over the next 150 years.
    Given that charge of making sure that skills and learning 
are the basis of the new economy that we are all engaged in, 
whether we want to be or not, the Commission on No Child Left 
Behind was charged with conducting an analysis of the law and 
also its implementation.
    Our members were bipartisan. Of course, Secretary Thompson 
and I were governors of different parties but good friends, and 
still are and will remain, and our commission consisted of all 
of the spectrum of Democrats and Republicans and all of the 
spectrum of the different ones that are stakeholders in 
education.
    They spent the last year traveling the nation, hearing 
testimony from all persons that wanted to talk to us or to give 
us testimony. We heard 86 witnesses, including state officials 
and superintendents. We received over 5,000 comments through 
the e-mail of those who wanted to comment.
    I will tell you that, as we travel the nation, there is a 
great concern among our people that we have to improve 
education and raise the standards so that the next generation 
of Americans have a social standing and an income that is at 
least equal to or greater to the present generation, and that 
is a matter of great concern among our people.
    This initial stage of the commission's work culminated in 
the release of Beyond No Child Left Behind, which we have filed 
with the committee and we recommended to your consideration.
    Our report contains specific and actual recommendations, 
about 75, for improving No Child Left Behind, and I hope that 
you will use them as a blueprint for your reauthorization.
    Now, I want to talk about just two of three of these points 
this morning. The most important thing that happens in the 
learning of a child comes from an effective teacher, and I am 
here to tell you that teachers are underpaid, overworked and 
not given the full consideration that they need. But we also 
know that teacher quality has to be examined from a new 
viewpoint.
    The commission, therefore, recommends a sea change in No 
Child Left Behind's teacher quality focus from solely being on 
credentials to being effective. Instead of being evaluated only 
by the requirements for entry into the teaching profession, 
such as certification and licensure, teachers should have the 
opportunity to demonstrate their effectiveness in the 
classroom.
    We recommend that teachers who produce learning gains and 
receive a positive principal evaluation or peer review should 
be recognized as a highly effective teacher. The commission is 
not recommending that student learning gains be the sole and 
only determinant of teacher effectiveness; however, we do 
believe that that is part of the equation.
    Now, this grew out of really our consideration of one of 
the criticisms of No Child Left Behind, and that is that a 
teacher and a classroom and a school could make more than a 
year's progress in a year and still be labeled as not meeting 
AYP, or annual yearly progress. That is unfair. Those teachers 
that go the extra mile and produce more than a year's learning 
in a year's time should be given the break.
    And, in fact, one of the other recommendations we have is 
that we go to a growth model. As long as we have a child on 
grade level within 3 years, that if a child is making more than 
a year's progress and can make grade level within 3 years, then 
they should be found to be making AYP. This requires a data 
system, a student information system, to see where children are 
at the beginning of the year and where they are at the end of 
the year.
    One of the byproducts of that system, which we say should 
be a joint federal-state process in building that data system, 
is that you will be able to determine which teachers are making 
the greatest gains. And the question is, are we going to ignore 
that.
    Now, there are some that criticize this--I am sorry, I am 
over, let me just wrap up on this--there are some that 
criticize this, and I suggest to you that we are not trying to 
punish any teacher. This should be used as a professional 
development tool to improve education.
    And the last point I will make to you is this: It is time--
and we heard this as we went around the nation--that we are 
more concerned about the children and the system of education 
rather than the adults. Let's do whatever is necessary to 
improve education and give our children the hope of America, 
the hope that is the next generation, rather than saying, we 
cannot do that because it might offend some of the adults.
    Thank you, Mr. Chairman.
    [The statement of Mr. Barnes follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Miller. Thank you, Governor Barnes.
    Mr. Henderson?

  STATEMENT OF WADE HENDERSON, LEADERSHIP CONFERENCE ON CIVIL 
                             RIGHTS

    Mr. Henderson. Good morning, and thank you, Mr. Chairman, 
both to you and Chairman Kennedy, to Ranking Member McKeon and 
Enzi and to all members of both committees for the opportunity 
to participate in this important and historic hearing.
    I am Wade Henderson, president and CEO of the Leadership 
Conference on Civil Rights, the nation's oldest, largest and 
most diverse civil and human rights coalition, with nearly 200 
member organizations working to build an America as good as its 
ideals.
    The Leadership Conference is issuing a formal letter to the 
committees today regarding the reauthorization of the No Child 
Left Behind Act that includes both our core principles for 
education reform and policy recommendations for changes to the 
current law. I would ask that it be included along with the 
written version of my testimony in the hearing record.
    I would like to use the remainder of my time before the 
committees today, however, to make a larger point regarding the 
future of No Child Left Behind.
    Now, for almost a century now, the civil rights community 
has recognized that the twin pillars of American democracy have 
been the right to vote and securing equal educational 
opportunity for all Americans. In that regard, No Child Left 
Behind may be one of the most important civil rights laws that 
this Congress will address.
    We urge you to be guided by the following principles as you 
consider reauthorization.
    First, federal education policy must be designed to raise 
academic standards.
    Second, those high standards must apply equally to all 
students, of all backgrounds.
    Third, schools should be held accountable for meeting 
academic standards.
    Fourth, there should be high-quality assessments that are 
linked to academic standards.
    And, finally, all children can learn, and federal and state 
governments must ensure that schools, particularly those in 
neighborhoods of concentrated poverty, have the resources they 
need to give all children the chance to meet those standards.
    Now, by any standard, as you noted, Mr. Chairman, in your 
opening remarks, Brown v. the Board of Education was the most 
important Supreme Court case of the 20th century. In addition 
to ending state-sponsored segregation, in Brown, the court 
promised an equal education to all American children and said 
of education, ``It is the very foundation of good 
citizenship.''
    In these days, it is doubtful that any child may reasonably 
be expected to succeed in life if he is denied the opportunity 
of an education. Such an opportunity, where the state has 
undertaken to provide it, is a right which must be made 
available to all on equal terms.
    Now, access to a high-quality public education is still a 
fundamental right upon which all others depend, and yet 50 
years later, the promise of Brown remains unfulfilled. 
Inequality is rampant by almost every measure. No Child Left 
Behind test scores paint a bleak picture of the achievement 
gap, with virtually every state's white students passing state 
exams at a significantly higher rate than low-income, minority 
and language-minority students.
    According to an Urban Institute study, the national 
graduation rate for white students is 75 percent--which is not 
high enough, I might add--but it is only 50 percent for 
African-Americans, 53 percent for Latinos, and 51 percent for 
Native Americans.
    But the real crime here is the opportunity gap. For 
example, minority students are more than twice as likely to 
have inexperienced teachers. High-poverty schools have a 50 
percent higher rate of low-scoring teachers.
    Low-income, minority and language-minority students attend 
schools with far less funding; they attend larger classes that 
are more likely to be taught by out-of-subject teachers and in 
worse facilities, and have fewer and older books, as well as 
less access to computers, high-speed Internet, and modern 
science labs.
    Now, it was John F. Kennedy, who in 1961 challenged 
Congress and the nation to reach the moon within 10 years. We 
did it in about 8.5. What we need is the same kind of national 
commitment to public education that we gave to the space race.
    There are more than 100 public schools that fail to make 
adequate yearly progress within a couple of miles of this 
Capitol dome. We can accept no excuse for not getting to every 
single one of them too, and every one like them, in every city 
in America.
    Declining literacy levels, changing demographics and 
workplace restructuring are colliding to greatly expand 
inequities in wealth, opportunity and drive Americans further 
apart. Tens of millions of low-skilled adults will be competing 
for jobs, not only with one another, but also with workers with 
equal or better skills in low-wage foreign economies.
    Over the next few decades, as older, better-educated 
workers retire, they will be replaced by younger, less-educated 
workers with fewer skills. If these challenges are not 
adequately addressed, these forces will limit our nation's 
economic potential and threaten our democratic ideals.
    Now, the scope of this problem, Mr. Chairman, as I wrap up, 
the scope of this problem was recently outlined in a report 
issued by the Educational Testing Service last month entitled, 
``America's Perfect Storm: Three Forces Changing Our Nation's 
Future.'' And it detailed the confluence of three trends: 
worsening educational inequities, demographic changes and the 
continuing evolution of the economy. And they documented the 
devastating impact that this convergence would have by 2030 if 
we do not dramatically address the problem.
    Obviously, money is necessary. I won't go into the details 
of how we hope, in addition to a reauthorization, that adequate 
appropriations are offered to No Child Left Behind to target 
those districts that really have the greatest economic need.
    And we can't continue to provide the least education to the 
most rapidly growing segments of our society at exactly the 
moment when the economy will need them most.
    And what we would conclude with is the following: The 
Leadership Conference believes that access to a high-quality 
public education is a civil right for all children. And in the 
tradition of the Civil Rights Act of 1964, the Voting Rights 
Act of 1965 and 2006, I might add, when this Congress 
strengthened the Voting Rights Act, the No Child Left Behind 
Act can play an important role in making that right a reality.
    We look forward to working with this Congress and with 
these committees as you begin tackling these important issues.
    And thank you for the opportunity.
    [The statement of Mr. Henderson follows:]

Prepared Statement of Wade J. Henderson, President and CEO, Leadership 
                       Conference on Civil Rights

    Good morning, I am Wade Henderson, President and CEO of the 
Leadership Conference on Civil Rights (LCCR), the nation's oldest, 
largest, and most diverse civil and human rights coalition, with nearly 
200 member organizations working to build an America as good as its 
ideals.
    I would like to thank Chairman Kennedy and Chairman Miller, Ranking 
Members Enzi and McKeon, and all of the Members of both the House 
Education and Workforce Committee and the Senate Health, Education, 
Labor & Pensions Committee for the opportunity to testify at this 
important joint hearing today.
    The Leadership Conference is issuing a formal letter to the 
committees today regarding the reauthorization of the No Child Left 
Behind Act (NCLB) that includes both our core principles for education 
reform and policy recommendations for changes to the current law. I 
would ask that it be included along with the written version of my 
testimony in the hearing record.
    I would like to use the remainder of my time before the committee 
today, however, to make a larger point regarding the future of NCLB. 
For almost a century now, the civil rights community has recognized 
that the twin pillars of American democracy have been the right to vote 
and securing equal educational opportunity for all Americans. In that 
regard, NCLB may be one of the most important civil rights laws that 
this Congress will address. For example, at its most basic level, its 
Adequate Yearly Progress requirement gives parents, students, teachers, 
and school administrators information on the progress of their schools, 
and ultimately seeks to break the cycle of failure that has continued 
to deny some children access to quality education.
    We urge you to be guided by the following principles as you 
consider reauthorization. First, federal policy must be designed to 
raise academic standards. Second, those high standards must apply 
equally to all students, of all backgrounds. Third, schools should be 
held accountable for meeting academic standards. Fourth, there should 
be high quality assessments that are linked to academic standards. 
Finally, federal and state governments must ensure that schools, 
particularly those in neighborhoods of concentrated poverty, have the 
resources they need to give all children the chance to meet those 
standards.
The Brown Standard
    By any standard, Brown v. Board of Education was the most important 
Supreme Court case of the 20th century. In Brown, the Court promised an 
equal education to all American children, and said of education:
    It is the very foundation of good citizenship. Today it is a 
principal instrument in awakening the child to cultural values, in 
preparing him for later professional training, and in helping him to 
adjust normally to his environment. In these days, it is doubtful that 
any child may reasonably be expected to succeed in life if he is denied 
the opportunity of an education. Such an opportunity, where the state 
has undertaken to provide it, is a right which must be made available 
to all on equal terms. 347 U.S. 483 (1954)
    Access to a high quality public education is still a fundamental 
right upon which all others depend; and yet 50 years later, the promise 
of Brown remains unfulfilled. Inequality is rampant by almost every 
measure. NCLB's test scores paint a bleak picture of the achievement 
gap, with virtually every state's white students passing state exams at 
a significantly higher rate than low income and minority students. 
According to an Urban Institute study, the national graduation rate for 
white students is 75 percent--which is not high enough--but it is only 
50 percent for African-Americans, 53 percent for Latinos, and 51 
percent for Native Americans.
    But the real crime is the opportunity gap. According to the 
National Center for Education Statistics, minority students are more 
than twice as likely to have inexperienced teachers. Research has shown 
that high poverty schools have a 50 percent higher rate of low scoring 
teachers. Low income and minority students attend schools with far less 
funding; they attend larger classes that are more likely to be taught 
by out-of-subject teachers and in worse facilities; and have fewer and 
older books, as well as less access to computers, high-speed internet, 
and modern science labs.
Education Reform: The New National Challenge
    It was President John F. Kennedy, who in 1961 challenged Congress 
and the nation to reach the moon within 10 years. We did it in about 
eight and a half.
    We have only one moon, and at the closest point in its orbit, it is 
still more than 200,000 miles from the Capitol dome. But we got there. 
There are more than 100 public schools within a couple of miles of the 
Capitol dome that failed to meet their proficiency targets under NCLB. 
We can accept no excuse for not getting to every single one of them, 
too--and every one like them in every city in America.
    What we need is the same kind of national commitment to education 
that we gave to the space race. President Kennedy did not call the 
nation to action just to inspire us with a lofty goal. He was motivated 
by a real world challenge posed by a foreign policy threat. While we 
don't have Sputnik and the Soviet Union to galvanize us into action 
this time, we do have a pending social and economic crisis.
    Declining literacy levels, changing demographics, and workplace 
restructuring are colliding to greatly expand inequities in wealth and 
opportunity and drive Americans further apart. Tens of millions of low-
skilled adults will be competing for jobs, not only with one another, 
but also with workers with equal or better skills in low wage foreign 
economies. Over the next few decades, as older, better educated workers 
retire, they will be replaced by younger, less educated workers with 
fewer skills. If these challenges are not adequately addressed, these 
forces will limit our nation's economic potential and threaten our 
democratic ideals.
    The scope of the problem is staggering and the consequences are 
only going to get worse. In a report issued last month called America's 
Perfect Storm: Three Forces Changing Our Nation's Future, the 
Educational Testing Service (ETS) detailed the confluence of the three 
trends--worsening educational inequities, demographic changes, and the 
continuing evolution of the economy--and the devastating impact they 
will have by 2030 if we do not dramatically change course.
    Congress has found that virtually all children can learn at high 
levels. Everyone involved with education--starting this morning with 
the Members of Congress and the advocates at this table and in the 
seats; as well as teachers, principals, local school boards, state 
boards of education, local and state elected officials, and the 
President--must be held accountable for students reaching their full 
educational potential. The Leadership Conference will be organizing its 
coalition members and grassroots partners and employing its 
communications network, including www.civilrights.org and 
www.realizethedream.org, to continue beating the drum for education 
reform.
    Moreover, it is going to take federal, state, and local 
cooperation. It is also going to take a lot of money--money measured by 
the size of the job to be done, not by how much we've spent in the 
past.
    Almost everyone agrees that substantial additional resources are 
needed and that the shortfall has grown significantly since NCLB was 
passed--some say by as much as $70 billion over the last six years. 
During the same six-year period, congressional budgets and 
appropriations have run up an enormous national debt that our children 
are going to have to pay off eventually, so those children have a 
pretty good claim that we should be investing a lot more in their 
education.
    While the federal share of total education spending is only a down 
payment, federal leadership is crucial. This Congress has the 
opportunity to use the reauthorization of No Child Left Behind to 
boldly attack the entrenched inequities and failures within our 
educational system and try to head off ETS's perfect storm.
    We cannot continue to provide the least education to the most 
rapidly growing segments of society at exactly the moment when the 
economy will need them the most. When 21st Century jobs require a 
science education, for how long will we continue to be the land of 
opportunity if we tolerate an opportunity gap where racial and economic 
disparities combine to make white students more than four times as 
likely as African-American and Latino students to have access to 
Advanced Placement science classes?
    LCCR believes that access to a high quality public education is a 
civil right for all children and that in the tradition of the Civil 
Rights Act 1964 and the Voting Rights Acts of both 1965 and 2006, the 
No Child Left Behind Act can play an important role in making that 
right a reality. We look forward to working with Congress to strengthen 
the law and its implementation.
    Thank you very much.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Rothkopf?

STATEMENT OF ARTHUR J. ROTHKOPF, BUSINESS COALITION FOR STUDENT 
                          ACHIEVEMENT

    Mr. Rothkopf. Thank you, Mr. Chairman.
    Chairman Kennedy, Chairman Miller and members, I am pleased 
and honored to be here today, and I thank you for your 
invitation.
    I am Arthur Rothkopf, and I am senior vice president and 
counselor to the president of the U.S. Chamber of Commerce. I 
am also here today on behalf of the Business Coalition for 
Student Achievement, which is spearheaded by the chamber and by 
the business roundtable. This coalition represents over 60 
business organizations and companies from sectors across our 
economy.
    Together, the business community is committed to achieving 
the goals of No Child Left Behind. We urge the Congress to act 
swiftly this year to reauthorize the law and strengthen its 
core principle of accountability to ensure that all high school 
students graduate academically prepared for citizenship, for 
college and for the 21st-century workforce.
    A recent survey that we conducted of our affiliated 
chambers around the country asked them what the most important 
issue was to these chambers, and the answer came back, almost 
uniformly, the number-one issue is education and workforce.
    The business community is deeply concerned about what is 
happening, or not happening, in our school systems. That is 
because it is business that hires the graduates and must rely 
on the end product of these schools.
    And I should say that there are good jobs going begging in 
this country because the candidates do not have the knowledge 
and the skills to fill those jobs, and the situation will only 
get worse when 77 million baby boomers start retiring.
    Two weeks ago, the chamber issued a report providing 
further confirmation of the need of the business community to 
be deeply concerned about the state of education in this 
nation. This report was supplied to all members of Congress and 
to members of these committees.
    The research on this report was carried out for us at the 
chamber by the Center for American Progress, headed by John 
Podesta, and by Rick Hess of the American Enterprise Institute.
    The study found that K through 12 public education is 
failing our students. Even in Massachusetts, which has the 
highest percentage of 4th and 8th graders scoring at or above 
proficiency on the NAEP reading and math test, less than half 
of all students met this target.
    Overall, only one-third of 4th and 8th graders in the 
country are proficient in reading and math, and the data is 
even more disheartening, as was indicated, for academic 
achievement of low-income and minority students.
    Compounding the problem is that each year we have 1.2 
million youngsters dropping out of high school.
    In light of these statistics, you could ask the question, 
is No Child Left Behind paying off? We would say in the 
business community, yes. Elementary and middle school skill 
achievement has improved. The latest nation's report card 
coming out of the Department of Education shows improvements in 
student achievement in reading and math and some lessening of 
the achievement gap.
    But we have a long way to go. Last month, NAEP released its 
report on high schools, and it appears as though only 23 
percent of our 12th graders are proficient in mathematics and 
only 35 percent of high school graduates are proficient in 
reading and math.
    As your committees move forward, the coalition urges you to 
build on the successes achieved so far by No Child Left Behind. 
And we have six areas for you to focus on. Let me just touch on 
them briefly.
    First, all of the analyses of current state standards and 
tests conclude that they are not aligned with the expectations 
of college and the workforce. The law needs to include 
incentives for states to raise their standards.
    Second, there is a focus on No Child Left Behind on 
reading, which is entirely appropriate, but we also believe 
that in addition to reading, we need to add an emphasis on 
science, technology, engineering and math to keep America 
competitive.
    Third, the most difficult thing that business leaders have 
encountered is the absence of good, reliable data. No Child 
Left Behind made a great start. The quality of data has 
improved over the last 5 years, but data systems in many states 
and districts are antiquated and need to be overhauled.
    Fourth, teacher and principal effectiveness. We believe, as 
the NCLB Commission does, that effectiveness ought to be the 
test, not highly qualified. We need highly effective teachers 
and principals.
    We, the chamber, the coalition and actually the Center for 
American Progress, believe that starting teacher salaries 
should be raised and that increases should be based on growth 
in student achievement, among other factors.
    We also believe there needs to be a fair and efficient 
process to remove ineffective teachers and principals.
    I won't go into the final two items, but they include 
strengthening and refining accountability and investing in 
school improvement and encouraging innovation. The details of 
that appear in my written statement, which I ask to be made a 
part of the record.
    Let me conclude by saying, for too long the business 
community has been willing to leave education to others, 
standing aside and making offers of money, support and good 
will. Not anymore. This is a matter of critical national 
urgency. What is at stake is nothing less than the continued 
success and competitiveness of the American economy and the 
continued viability of the American dream for American workers.
    This concludes my oral remarks. I look forward to your 
questions. And, again, thank you for inviting me to appear.
    [The statement of Mr. Rothkopf follows:]

   Prepared Statement of Arthur J. Rothkopf, Business Coalition for 
                          Student Achievement

    Chairman Kennedy and Chairman Miller: I am pleased and honored to 
be here today. Thank you for your kind invitation.
    By way of introduction, I am Arthur Rothkopf and I serve as Senior 
Vice-President and Counselor to the President of the U.S. Chamber of 
Commerce.
    I am also testifying today on behalf of the Business Coalition for 
Student Achievement (BCSA). BCSA is a coalition spearheaded by the U.S. 
Chamber of Commerce and the Business Roundtable. The coalition 
represents over sixty business leaders from sectors across our economy. 
BCSA is led by Co-Chairs Craig Barrett, Chairman of the Board of Intel; 
Arthur F. Ryan, Chairman and Chief Executive Officer of Prudential 
Financial, Inc; and Edward B. Rust Jr., Chairman and CEO, State Farm 
Insurance Companies.
    Together, we are committed to achieving the goals of No Child Left 
Behind (NCLB). We strongly urge Congress to act swiftly this year to 
reauthorize this law and strengthen its core principle of 
accountability to ensure that all high school students graduate 
academically prepared for college, citizenship and the 21st century 
workplace.
    The United States in the 21st century faces unprecedented economic 
and social challenges: global competition, the retirement of 77 million 
baby boomers, and the fact that 90% of the fastest-growing jobs will 
require some postsecondary education. It is for these very reasons that 
a recent survey of our affiliated chambers from around the country 
rated workforce and education reform as their number one priority. The 
business community is very much in tune with what is happening--or not 
happening--in our school systems. That's because it is business that 
hires the graduates and must rely on the end product of those schools. 
No one is more in touch with both the successes and the failures.
    Last week the U.S. Chamber issued a report providing further 
confirmation of the need for the business community to be deeply 
concerned about the state of education in this nation. The research for 
this report entitled, ``Leaders and Laggards: A State-by-State Report 
Card on Educational Effectiveness,'' was carried out on behalf of the 
Chamber by the Center for American Progress and Frederick M. Hess of 
the American Enterprise Institute. The report analyzed existing state-
by-state data related to academic as well as key business metrics such 
as innovation, flexibility, and fiscal prudence. Building upon the 
research in Leaders and Laggards, the U.S. Chamber and the Center for 
American Progress released A Joint Platform for Education Reform, which 
echoes the U.S. Chamber's proposals for a stronger education system. 
These proposals include: better teaching, more innovation, better data, 
and better management.
    The study found that K-12 public education has been an abysmal 
failure. This poor performance threatens the future of our children and 
America's competitive position in the world. This is made clear when 
looking at the academic achievement of fourth and eighth grade students 
based upon the National Assessment of Educational Progress (NAEP).
    Even in Massachusetts, which has the highest percentage of 4th and 
8th graders scoring at or above the proficient level on NAEP reading 
and math--less than half of all students meet this target. Overall, 
only about one-third of all 4th and 8th graders in the country are 
proficient in reading and math.
    The data is even more disheartening for the academic achievement of 
low-income and minority students. In our report, we graded states on a 
curve from A to F. Of the nine states which were awarded an ``A''--not 
one had an average percentage of 4th and 8th grade African Americans 
above 22 percent in math and reading. The results for Hispanic students 
were nearly identical.
    Our report highlighted what has also been a fixture of our current 
education system--an unacceptable level of student dropouts. Only about 
two-thirds of all 9th graders graduate from high school within four 
years and only about half of minority students.
    Even among those students who do manage to graduate and move on to 
college, at least 40% have to take at least one remedial course when 
they get there, indicating that high schools are not adequately 
preparing students for the rigor of a postsecondary education 
curriculum. Businesses report the same dismal results for young people 
that they hire.
    This is directly related to another significant finding of our 
report--the lack of rigor in state academic standards. States were 
graded on the quality, rigor, and specificity of their academic 
standards. Only four states were given an A for their standards. 
Furthermore, only eight states have aligned their academic standards 
and graduation requirements with college and workplace expectations.
    In light of these statistics, ``is NCLB really paying off?'' The 
answer is ``yes.''
    As abysmal as this data is, it represents improvement for 
elementary and middle school students from where this nation was prior 
to enactment of NCLB. Specifically, according to the US Department of 
Education, the July 2005 long-term Nation's Report Card (NAEP) results 
showed national student achievement in reading and math at all-time 
highs and the achievement gap closing.
    <bullet> For America's nine-year-olds in reading, more progress was 
made in five years than in the previous 28 combined.
    <bullet> America's nine-year-olds posted the best scores in reading 
(since 1971) and math (since 1973) in the history of the report. 
America's 13-year-olds earned the highest math scores the test ever 
recorded.
    <bullet> Reading and math scores for African American and Hispanic 
nine-year-olds reached an all-time high.
    <bullet> Math scores for African American and Hispanic 13-year-olds 
reached an all-time high.
    <bullet> Achievement gaps in reading and math between white and 
African American nine-year-olds and between white and Hispanic nine-
year-olds are at an all-time low.
    The 2005 Nation's Report Card on state-level data included similar 
glimmers of hope. For example, in the State of Georgia, in 2004-05, 
more than 70 percent of the state's limited English proficient (LEP) 
students scored proficient or better in reading, up 23 percent from 
2002. Among third-graders with disabilities in Georgia, 81 percent 
scored proficient or better in reading, up 26 percentage points.
    But to be clear, our nation has a long way to go, particularly for 
our high school students--an area which receives little attention under 
NCLB. The 12th grade NAEP results released last month demonstrates just 
how far we must travel.
    The report found that----
    <bullet> Only 23% of 12th graders are proficient in mathematics.
    <bullet> 27% of 12th-grade students lack even basic high school 
reading skills, up from 20 percent in 1992.
    <bullet> Only 35% of students are proficient in reading, a drop 
from 40 percent in 1992.
    What is the solution to address these issues? Some have suggested 
it's time to turn back the clock and go back to a time before NCLB when 
schools, districts and states were not held accountable for reducing 
education achievement gaps.
    NCLB opponents point to a vast array of rationalizations for their 
claims.
    <bullet> Some groups have argued that NCLB takes away local 
control. They fail to highlight that under NCLB each state determines 
its own system of accountability, its own standards and assessments, as 
well as what it means for students in the state to be ``proficient.'' 
Similarly, they fail to point out that each state determines how 
schools in the state will use the federal dollars to improve 
education--indeed a vast majority of funds are used solely to hire 
teachers. Only when schools are identified for improvement do they 
begin to have increased restrictions on the expenditure of a portion of 
their federal funding.
    <bullet> Some groups claim that NCLB is overly punitive to school 
systems in which students are not reaching achievement expectations. 
Let's not lose sight of the focus of this Act. NCLB's focus is on 
helping students succeed--it is not about supporting a bureaucracy at 
the expense of helping students learn. NCLB requires states and 
districts to support underperforming schools--that is, schools where 
students have been struggling oftentimes for generations--by requiring 
schools to develop plans on how to help struggling students and by 
providing tutoring and public school choice options to students in 
struggling schools.
    <bullet> Some groups demand that NCLB accountability requirements 
be suspended in anticipation of ``full funding'' To focus only on 
funding misses the point. The U.S. has the highest spending per student 
of any nation in the world. The reason NCLB is working to increase 
student achievement is that the Act focuses on transparency, 
accountability and results.
    <bullet> The question should be not how much more funding we need 
to improve student achievement, but how well is the money currently 
available being currently spent. In the Chamber's Report Card, our data 
showed that money alone does not guarantee academic success, but rather 
how wisely those dollars are spent.
    There has been a disconcerting lack of attention to ensuring that 
education dollars are delivering real value. Some states are spending 
less money and achieving real results. Despite steps to increase per 
pupil spending, decrease student-teacher ratios, and recruit a better-
prepared teaching force, student test scores have remained stubbornly 
flat over the past 35 years. By international standards, the U.S. 
spends far more than other nations on education--and has smaller class 
sizes--yet receives far less value in terms of educational outcomes.
    The bottom line is that these and other excuses should be fully 
examined. The burden of any of the NCLB requirements must be weighed 
against the alternative--that is, turning our back on the millions of 
students who are benefiting from its provisions.
    The Business Coalition for Student Achievement remains committed to 
the tenets of the No Child Left Behind Act. As your Committees move 
forward with reauthorization, the Coalition strongly urges you to build 
upon the successes of NCLB, particularly in the following areas:
    1. FOCUS ON COLLEGE AND WORKPLACE READINESS.--We know that 
educators are finding it difficult to help students reach today's 
standards. However, all of the analyses of current State standards and 
tests conclude that they are not aligned with the expectations of 
college and the workplace. The law needs to include incentives for 
States to raise their standards and avoid lowering them.
    2. EMPHASIZE SCIENCE, TECHNOLOGY, ENGINEERING AND MATH.--NCLB 
includes a major focus on reading, which is appropriate. As we move 
forward, the law needs to continue to make early reading a priority 
while also adding an emphasis on science, technology, engineering and 
math.
    3. ENHANCE DATA-DRIVEN DECISION MAKING.--Perhaps the most difficult 
thing that business leaders have encountered in our efforts to help 
improve education has been the absence of good, reliable data. It's 
impossible to imagine running a company without the use of valid data 
to inform decisions. The quality of the data has improved over the past 
five years, but the data systems in many States and districts are 
antiquated and need to be overhauled.
    4. INCREASE TEACHER AND PRINCIPAL EFFECTIVENESS.--One of the areas 
where the current law did not accomplish its objectives has been in 
making sure that all students are taught by highly qualified teachers. 
The Coalition believes that the law needs to expand its focus to 
effectiveness rather than just compliance to ensure that our teachers 
are not only ``highly qualified'' but also ``highly effective.''
    5. STRENGTHEN AND REFINE ACCOUNTABILITY.--The law should provide 
guidance on ways that States can differentiate among districts and 
schools that are close to or far from making AYP, and ensure that 
resources for improvement focus on those with the highest 
concentrations of underperforming students. We also support provisions 
that would permit States to use rigorous measures of year-to-year 
growth in student academic achievement and other methods verified by 
the Secretary that are consistent with the goal of all students 
reaching proficiency in reading, math and science.
    6. INVEST IN SCHOOL IMPROVEMENT AND ENCOURAGE INNOVATION.--Our last 
point brings us full circle to the rationale for the law. It is not to 
punish schools. It is not to make educators look bad. It is about 
improving schools. It is about improving student achievement. It is 
about investing in what research has proven works while also 
discovering new models and innovations. We want to increase the 
capacity of States and other entities to better assist schools that 
need help making AYP; target funding, assistance and distribution of 
effective educators to high-need schools; and continue support for 
innovative models, such as charter schools, diverse providers and 
techniques that effectively integrate technology into appropriate 
aspects of teaching, learning and management.
    For too long the business community has been willing to leave 
education to the politicians and the educators--standing aside and 
contenting itself with offers of money, support, and goodwill.
    Not anymore. This is a matter of critical national urgency. What's 
at stake is nothing less than the continued success and competitiveness 
of the American economy--and the continued viability of the American 
Dream.
    America needs a world-class education system. Students deserve it, 
parents demand it, and businesses require it to compete and win in the 
global economy.
    This concludes my prepared written testimony. I look forward to 
discussing my comments in more detail during the question and answer 
period, but before that, I would again like to thank the two Committees 
for inviting me here today.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Casserly?

   STATEMENT OF MICHAEL CASSERLY, COUNCIL OF THE GREAT CITY 
                            SCHOOLS

    Mr. Casserly. Thank you very much, Mr. Chairman.
    Good morning. My name is Mike Casserly. I am the executive 
director of the Council of the Great City Schools. I want to 
thank you very much for the opportunity to testify this 
morning.
    As you may remember, the Council of the Great City Schools 
supported No Child Left Behind when it was heading to the 
floors of the House and Senate for final passage in December of 
2001. We were the only national education organization to do 
so, but our members wanted to be on record in support of 
raising student achievement, closing achievement gaps and being 
accountable for results.
    We think that the law has been helpful to us on a number of 
fronts. It has continued and strengthened the standards 
movement. It has spurred the use of regular assessments. It has 
elevated the priority of reading and math instruction. It is 
introduced accountability into education, and it has 
underscored the role of highly qualified teachers.
    The council has followed through on its support of the law 
by providing extensive technical assistance on its 
implementation. We have published our annual state test scores, 
we initiated trial urban district assessment of NAEP, we are 
conducting research on the common reforms amongst the fastest 
improving urban school districts in the country, and we have 
been providing extensive technical assistance to our members on 
how to raise student achievement.
    We also, however, backed No Child Left Behind knowing that 
it had numerous challenges. Multiple requirements and many 
poorly calibrated provisions. We see many of the problems with 
the law that many of the law's toughest critics see. We see 
insufficient focus on good instructional practice and too much 
test prep. We see an overemphasis on compliance with non-
instructional requirements.
    We see large amounts of money diverted into supplemental 
services that appear to show limited effects. We see annually 
cascading sanctions that have schools changing strategies 
before anything has had time to work. And we see precious 
little technical assistance on how to meet the legislation's 
grand intent.
    In general, it is clear to us that a school can be in full 
compliance with NCLB and not be raising student achievement. 
Conversely, it is possible to raise student achievement 
substantially and not be in compliance with the law's 
requirements. Nonetheless, the nation's major urban school 
systems have seen steady academic gains over the last several 
years, and our academic improvements now outpace those at the 
national and state levels on both state tests and the NAEP.
    Still, we note that our performance as urban school 
districts is below state and nation averages, and our 
achievement gaps remain wide, although not much wider than the 
nation's, suggesting a national problem, not just an urban one.
    These gaps are not inevitable, however. They can be closed, 
and the research is reasonably clear about how to do it. The 
key is good teaching, solid professional development and 
effective instructional programming. Urban school districts 
that are showing strong gains use this research and the 
accumulating wisdom about what it takes to improve urban 
schools.
    We have borrowed from these lessons that these faster 
improving urban school districts have made to inform the 
recommendations that we are making to Congress about the 
reauthorization.
    First, we are proposing national standards in reading, math 
and science to close up some of the inequities feeding the gaps 
that our 50-state system now exacerbates. We would require that 
states tether their tests to those standards with comparable 
definitions of proficiency. We also think that proposals to 
allow growth models make more sense when growth means the same 
thing state to state.
    Second, we would reorient the legislation toward 
instruction and achievement by replacing the current system of 
annually cascading sanctions, school improvement I, school 
improvement II and corrective action, with a single 3-year 
intervention and improvement period. There is a chart in the 
back of our testimony that illustrates how that would work.
    During this 3-year period, which would be free of 
sanctions, we would require schools that had not made AYP on 
the same subgroups and subjects to devote an amount equal to 30 
percent of the Title 1 allocations to instructional strategies 
that have proven successful. These would include professional 
development for principals and teachers, instructional 
interventions, extended time programs, quarterly assessments, 
instructional coaching, differentiated instruction and 
effective programming.
    There are multiple ways to use these strategies well, there 
are also ways to do them poorly, but I would rather spend 
scarce resources on the kinds of activities that hold greater 
promise for raising student achievement than spending them on 
many of the procedural requirements that are now in the law.
    However, we would continue to allow students to transfer to 
higher-performing district schools or to select a district 
supplemental service provider, but we would permit districts to 
be their own providers.
    We would also follow this 3-year instructional period with 
one of two kinds of sanctions depending on how persistent and 
pervasive the school's failure had been.
    Third, we would require the states to start building data 
systems that would eventually link student achievement with 
individual classrooms and teachers.
    Fourth, we would limit the disproportionate assignment and 
hiring of underqualified teachers in the lowest-performing 
schools.
    Finally, we would retain the grade 3 to 8 testing system, 
but we would allow a 3-year window for English-language-
learners before building them into the accountability system.
    Ultimately, M. Chairman, our goal is to offer practical 
solutions, not loopholes, to problems that have plagued No 
Child Left Behind since its beginning, to retain the purposes 
and framework of the law but to shift it toward raising student 
achievement and closing gaps and make the law more workable.
    We will have a full package of recommendations for the 
committee next week.
    Thank you, and I would be happy to answer questions.
    [The statement of Mr. Casserly follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Miller. Thank you very much.
    Mr. McElroy?

    STATEMENT OF ED MCELROY, AMERICAN FEDERATION OF TEACHERS

    Mr. McElroy. Well, good morning, Chairman Miller, Chairman 
Kennedy, members of both committees.
    The symbolism of a joint committee on this issue is not 
lost on us, and I want you to know I appreciate the importance 
that you attach to this critical issue.
    I am here today on behalf of more than 1.3 million members 
and 3,500 local unions of the American Federation of Teachers, 
here to discuss what they care most about and that is improving 
teaching and learning in our public schools. That means giving 
No Child Left Behind proper funding, and it also means making 
appropriate and necessary changes during its reauthorization.
    The AFT has been preparing for reauthorization by gathering 
feedback at town hall meetings with our members, and we also 
established a task force proposed by teacher leaders who 
studied the effects of this law and the ways to get it right.
    We developed a set of recommendations, which we have 
submitted for the record. You will see that they reflect the 
real experiences of the educators throughout the United States, 
the people who actually do the work that we are talking about 
here today.
    Any discussion of No Child Left Behind should begin by 
addressing the flaws of the adequate yearly progress system. 
Many schools in your congressional districts and states are 
making meaningful academic progress, but the current AYP system 
does not capture these gains. Instead, it misidentifies, as 
failing, thousands of schools that are making real progress.
    Students, parents, teachers and community members know 
their schools are making solid academic improvement, yet they 
are told that their schools are not making the grade; 
devastating and demoralizing for all of those publics.
    At a recent No Child Left Behind town hall meeting with our 
members in Boston, a 4th grade teacher said, ``The entire 
reputation of our school hangs on one test. It is not about 
balanced curriculum, enrichment or learning anymore; it is 
about avoiding that failing school label.''
    We want an accountability system that is fair and accurate. 
That means the AYP system must give schools credit for 
students' progress. The law must distinguish between schools 
that need intense multiple interventions and those need only 
limited help. Struggling schools must get help when they need 
it, and schools that are improving should not be penalized.
    On testing, our teachers report that they are required to 
administer test upon test. This leads to instructional time 
being replaced by testing and drill-and-kill preparation and, 
importantly, a narrowing of the curriculum to those only 
subjects being tested. If students are behind, they should be 
provided intensive math and/or reading instruction that 
integrates other content areas. What students do not need is 
less time studying other important subjects.
    Members also tell us that standardized assessments often 
are not aligned with the curriculum that they teach. Our 
recommendation is simple: State tests must be aligned with the 
state standards and the curriculum used in the classroom. Makes 
no sense to judge school programs or school progress by test 
scores which do not test what is taught.
    We are also concerned about the interventions included in 
No Child Left Behind, so-called supplementary educational 
services. Basically, many of them are unproven and a drain on 
the schools' limited resources. These providers are not being 
held accountable for results and for the way they use the tax 
dollars.
    In Illinois, for example, the Chicago Tribune reported that 
private tutoring firms are spending just 56 cents of every NCLB 
dollar to tutor children who are behind. The other 44 cents 
goes to profit and overhead.
    Too often SES and other NCLB sanctions are punitive, 
ideological and not evidence based. Too much of that assistance 
looks like punishment to students and to the school community.
    We, the AFT, have a proven track record of collaborating to 
turn around low-performing schools. We know that successful 
school turnarounds occur when schools use dated guide 
instruction, provide quality professional development, put in 
place programs with a strong research base and tailor the 
intervention to the needs of the school and the community.
    NCLB should require that any entity providing services to 
students use research-based methods, have demonstrated 
effectiveness and be held accountable for those results.
    At our town hall meetings, members also spoke about the 
law's highly qualified teacher requirement. Many teachers met 
the requirement from day one, many have fulfilled the 
requirement since then, and it is a credit to the people who 
teach in our schools. Five years later, proposals are being put 
forth that would require teachers to jump through an additional 
hoop to prove they are worthy of teaching our nation's 
children.
    NCLB, in its current form, is burdensome and demoralizing 
to teachers, and yet they continue to adhere to changing 
requirements so they can continue to teach. It is unacceptable 
to pose on them another unfair accountability measure.
    I want to wrap up by saying, good teachers are central to 
good education, but there are other factors that are essential 
as well. Just to give you one example, consider how the 
physical condition of our school buildings affects education. 
We addressed that topic and I will ask to make part of the 
record this document that deals with building minds, minding 
buildings, talking about how those conditions affect our 
schools.
    We championed the goals long ago of raising academic 
standards for all and closing the achievement gap. We look 
forward to working with you on the reauthorization of this 
legislation.
    Thank you, Mr. Chairman.
    [The statement of Mr. McElroy follows:]

Prepared Statement of Edward J. McElroy, President, American Federation 
                              of Teachers

    Thank you for this opportunity to testify before the education 
committees of the U.S. House of Representatives and the Senate. My name 
is Edward J. McElroy, and I am the president of the American Federation 
of Teachers (AFT). On behalf of the more than 1.3 million members of 
the AFT, I am here today to tell you that the number-one concern of AFT 
members is how to strengthen and improve teaching and learning in our 
public schools. We believe that an important part of accomplishing this 
is to ensure that appropriate changes are made to the No Child Left 
Behind Act (NCLB) during its reauthorization.
    The AFT has been preparing for the reauthorization of NCLB by 
gathering feedback from our members on the impact of this law in their 
classrooms and their schools. We established an NCLB task force 
composed of our teacher leaders from across the country to study the 
effects of this law and to develop recommendations to revise NCLB. The 
other AFT officers and I have held a series of town hall meetings with 
our teacher and paraprofessional members nationwide to discuss how NCLB 
has affected teaching and learning in their classrooms.
    The attached set of recommendations for the reauthorization of NCLB 
is comprehensive and reflects the real experiences of educators 
throughout the United States. My testimony today will focus both on key 
concerns that I hear repeatedly about the impact of NCLB and on our 
recommendations for addressing these concerns.
    No discussion of NCLB can begin without first addressing the flaws 
of the current adequate yearly progress (AYP) system. Senators and 
representatives, many schools in your congressional districts and 
states are making meaningful academic progress with students, but the 
current AYP system does not capture these gains. Instead, it 
misidentifies as failing thousands of schools that are making real 
progress. It's demoralizing for students, parents, teachers and 
communities when they know that their schools are making solid academic 
progress, yet still see them listed in the local paper as ``not making 
the grade.''
    At one recent town hall meeting on NCLB convened by the AFT, the 
comments of a fourth-grade teacher from Boston reflected this 
demoralization: ``The entire reputation of our school hangs on one 
test,'' she said. ``It's not about balanced curriculum, enrichment or 
learning anymore. It's all about avoiding that 'failing school' 
label.''
    We welcomed the U.S. Department of Education's pilot program, which 
allowed a small number of states to experiment with growth models as a 
way to make AYP. Unfortunately, we believe that the department's 
definition of growth is too narrow. States should be permitted to 
submit and implement a variety of proposals that allow those schools 
serving students who are the furthest behind to receive credit for 
their academic progress.
    The AFT wants an accountability system that is fair and accurate--
one which ensures that no group of students is ignored. A sound 
accountability system must serve another important purpose: It should 
distinguish between schools that need intense and multiple 
interventions and those that need only limited help. This will ensure 
that struggling schools get help when they need it and schools that are 
improving will not be unfairly penalized.
    Educators also tell us they are required to administer test upon 
test upon test, including school, district and state tests. This 
layering of tests leads to an excessive amount of what should be 
instructional time being diverted instead to testing and drill-and-kill 
preparation, which results in a narrowing of the curriculum to only 
those subjects being tested. Students should have science, social 
studies, the arts, history--and recess. If students are very far 
behind, they should be provided opportunities for additional intensive 
math or reading instruction that is integrated with other content 
areas, rather than stealing time from these subjects.
    Another thing we are hearing from our members and confirmed in a 
July 2006 AFT report titled ``Smart Testing'' is that the standardized 
assessments teachers give to students often are not aligned with the 
curriculum they teach all year. This is not the teachers' fault. Our 
report revealed that only 11 states had assessments fully aligned with 
their standards. Our recommendation is simple: State tests must be 
aligned with the state standards and the curriculum being used in 
classrooms. If schools are going to be judged on the basis of test 
scores, the tests should measure what teachers are being asked to 
teach.
    We also hear from our members that schools which are struggling 
academically don't get the kind of help they need and don't get the 
help when they need it. Frankly, NCLB's choice and supplemental 
educational services requirements are unproven interventions, and they 
drain resources at the very time these schools need them if they are to 
improve. And under the current system, these private entities are not 
being held accountable for student achievement. We know that schools 
with difficult teaching and learning conditions need intensive and 
ongoing support. Educators tell me that help only arrives after their 
schools are identified as not making AYP for a number of years. And 
then that ``help'' is often in the form of unproven reforms like state 
takeovers of schools or private management interventions that don't 
connect to what is happening in classrooms. Any entity that provides 
services to students must use research-based methods, have a proven 
record of effectiveness and be held accountable for results.
    The AFT has a proven track record of collaborating to turn around 
truly low-performing schools. From our work in places like the former 
Chancellor's District in New York City, the Pilot Schools in Boston, 
Miami-Dade's Zone Schools and the ABC Unified District in Southern 
California, we can share strategies that we know really work. First, 
the ``assistance'' should not punish students and their schools; it 
should help them. Too many NCLB sanctions are punitive, ideological, 
not logically sequential, and neither research- nor evidence-based. 
Second, interventions should reflect each school's unique challenges. 
One or more of the following interventions have increased student 
achievement in places where some had thought persistent low achievement 
to be intractable:
    <bullet> Immediate, intensive reading instruction based on 
diagnostic tests beginning in prekindergarten and/or kindergarten;
    <bullet> Intensive reading and math instruction and enrichment 
programs;
    <bullet> A rich and sequenced curriculum for all students;
    <bullet> Quality assessments that are aligned to the curriculum;
    <bullet> Extended school day and summer programs for students who 
need extra academic help;
    <bullet> Reduced class size so that teachers can individualize 
instruction and meet student learning goals;
    <bullet> Early childhood education programs;
    <bullet> Research-based professional development; and
    <bullet> Enhanced induction and mentoring programs.
    Finally, I want to discuss NCLB's requirements for teachers. When 
NCLB was enacted in 2002, it mandated the ``highly qualified teacher 
requirements'' for the first time. Five years after the law's 
enactment, more than 90 percent of teachers have met their 
requirements. This is a tremendous success, and the teachers, along 
with the institutions that support them, deserve to be commended. They 
were told what they needed to do, and because they value their jobs and 
love teaching children, they met the mandated requirements. Let me 
remind you that when Congress debated enacting the highly qualified 
teacher requirements, they were heralded as the way to ensure that all 
students received a quality education. Five years later, we are hearing 
proposals that would require teachers to jump through an additional 
hoop to prove they are worthy of teaching our nation's children. Let me 
be clear: NCLB in its current form is burdensome and demoralizing to 
teachers, and yet they continue to teach and continue to adhere to 
requirements that allow them to teach because they have chosen the 
teaching of children as a career. But it is unacceptable to ask them to 
meet yet another unproven federal requirement.
    Teachers want to be effective. And schools must be places where 
teachers feel they can be effective. We ask too many teachers to teach 
and students to learn in conditions that frankly are shameful--in 
dilapidated school buildings, without the basic materials they need, 
and in unsafe conditions that are hardly conducive to teaching and 
learning.
    The AFT believes that NCLB's stated goal of closing the achievement 
gap cannot be fulfilled without improving conditions in schools. 
Districts should be held responsible and accountable for ensuring 
adequate facilities, a safe and orderly school environment, and the 
instructional supports necessary to help students succeed. 
Additionally, federal, state and local resources must be marshaled to 
provide competitive compensation and other incentives to attract well-
qualified teachers to low-performing schools--and keep them there. 
Finally, meaningful professional development and strong instructional 
leadership are essential to meeting the goals of NCLB.
    Long before NCLB became law, the AFT championed high academic 
standards, disaggregation of data so that we can close the achievement 
gap, a qualified teacher and well-trained paraprofessional in every 
classroom, and instructional supports for struggling students and the 
public schools they attend. The No Child Left Behind Act is only the 
latest iteration of the federal commitment to our nation's students. 
The AFT looks forward to working with Congress to strengthen this 
commitment as NCLB is reauthorized.
    Thank you again for the chance to share teachers' perspectives on 
the impact of NCLB in our nation's classrooms.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Weaver?

    STATEMENT OF REG WEAVER, NATIONAL EDUCATION ASSOCIATION

    Mr. Weaver. Good morning, Chairman Kennedy, Chairman Miller 
and members of the committee. I am honored here to be here 
representing 3.2 million members of the National Education 
Association, and we believe the ESEA reauthorization presents 
us all with a unique opportunity to have a renewed national 
discussion about public education.
    And we hope that this unusual joint hearing is a signal 
that you are willing to engage in a larger conversation about 
what it will truly take to achieve what should be our 
collective mission as a society, that a great public school is 
a basic right, not a luxury, but a basic right for every child 
in America.
    And I would like to focus my remarks today on the big 
picture: What do we expect from public education, and how do we 
fashion our laws to achieve these goals?
    As in 1965, when ESEA was first passed, the federal 
government must step up to ensure that all children, no matter 
where they live, no matter what their family circumstances, 
will receive the world-class public education that they 
deserve. That is the American dream, and that should be our 
focus as we approach this next reauthorization, striving to 
build a public education system infused with innovation and 
opportunity for all.
    Yet, NEA members are the first to acknowledge that our 
public schools face many challenges. We have too many children 
on the other side of achievement, skills and opportunity gaps. 
Too many of our neediest students are still being taught by 
uncertified and unprepared teachers.
    We have unacceptable gaps in access to after-school 
programs and extended learning time programs, gaps from 
preventing students from accessing a rich and broad curriculum 
and significant infrastructure and school environment gaps that 
hamper learning. And even more troubling is the dropout crisis 
in America, with far too many low-income and minority students 
losing hope and seeing no way to bridge the gap.
    These gaps are intolerable, they contradict everything that 
this nation stands for, and they impede our future success. 
Let's commit ourselves to a richer accountability system, with 
shared responsibility by stakeholders at all levels. 
Accountability should never be about assigning blame; it should 
be about improving student learning and identifying and 
addressing and ultimately eliminating the gaps.
    To achieve this, we must improve methods of assessing 
student learning. We should employ multiple measures at 
assessing both individual student learning and overall school 
effectiveness in improving student learning. States should be 
permitted to design richer, more accurate systems based on a 
wide variety of factors, including growth models, that should 
be weighed in making determinations about whether or not a 
school is high-performing.
    What about schools having 21st-century curriculums? Fund 
grants to states to develop 21st-century content and authentic 
assessments that measure 21st-century skills and knowledge. 
Reform secondary schools so that they encourage students to 
attend college and provide coursework to reduce dramatically 
the need for remediation in college. Adopt a federal graduation 
for all proposals, including grants to states that agree to 
eliminate the concept of dropping out of school or that raise 
the compulsory attendance age.
    Congress should also think broadly about how to ensure 
quality educators in every classroom. Reward states that set a 
reasonable minimum starting salary for teachers and a living 
wage for support professionals working in school districts that 
accept federal funds. NEA recommends that no teacher in America 
should make less than $40,000, and no public school worker 
should make less than $25,000 or a living wage.
    Fund grants to help teachers in high-poverty schools pay 
the fees and assess professional development supports to become 
national board certified teachers. Consider other financial 
incentives to attract and retain quality teachers in hard-to-
staff schools, including financial bonuses, college student 
loan forgiveness and housing subsidies. Restore a separate 
funding stream to help states reduce class sizes to no more 
than 15 students and awarding grants to states that conduct 
surveys of teaching and learning conditions and agree to 
address problem areas that are revealed by these surveys.
    My testimony today has focused primarily on the big 
picture, the ideals and principles that should guide debate on 
the federal role in education and frame the context for ESEA 
reauthorization. If, however, Congress should approach 
reauthorization by looking to make minor adjustments to the law 
rather than consider broader policy changes, I have included in 
my written statement 10 specific changes to the law that are of 
utmost concern to the NEA.
    I also encourage members of the committee to look at NEA's 
positive agenda for the ESEA reauthorization, attached as an 
appendix to my written statement. The positive agenda reflects 
the fact that while ESEA's No Child Left Behind has laudable 
goals--closing the achievement gaps, raising student 
achievement for all--its overly prescriptive and punitive 
accountability provisions have failed to move our nation closer 
to those goals. It has had many unintended consequences, such 
as narrowing the curriculum that has actually moved us away 
from those goals.
    We now have an opportunity through this reauthorization to 
make those goals and more a reality.
    Thank you.
    [The statement of Mr. Weaver follows:]

  Prepared Statement of Reg Weaver, President, the National Education 
                              Association

    Chairman Kennedy, Chairman Miller, and Members of the Committees: 
Thank you for the opportunity to speak with you today on these very 
important issues. I am honored to be able to represent the views of the 
3.2 million members of the National Education Association at this joint 
hearing.
    NEA is the largest professional association in the country, 
representing public school educators--teachers and education support 
professionals, higher education faculty, educators teaching in 
Department of Defense schools, students in colleges of teacher 
education, and retired educators across the country. While our 
membership is diverse, we have a common mission and values based on our 
belief that a great public school is not a luxury, but a basic right 
for every child.
    Our members go into education for two reasons--because they love 
children and they appreciate the importance of education in our 
society. We want all students to succeed. Our members show up at school 
every day to nurture children, to bring out their full potential, to be 
anchors in children's lives, and to help prepare them for the 21st 
century world that awaits them. It is their passion and dedication that 
informs and guides NEA's work as we advocate for sound public policy 
that will help our members achieve their goals.
    I am delighted that your committees are interested in a larger 
discussion about the role of accountability in our public schools and 
what we believe our public schools ought to provide and accomplish in 
our society. NEA and our members view reauthorization of the Elementary 
and Secondary Education Act (ESEA) as an opportunity for a renewed 
national discussion about public education. You, as our elected 
officials, have an opportunity to lift up this dialogue, to be bold, to 
embrace not only the call for equity in American education, but the 
demand for innovation as well. We hope that this debate will ultimately 
unite the nation as we strive to fulfill the promise of public 
education to prepare every student for success in a diverse, inter-
dependent world.
    A meaningful and productive debate must begin with a look 
backwards--at the origins of federal involvement in education. We can 
then look forward in an open dialogue about the impact of our changing 
work on that federal role. As you know, the federal role in education 
was established during the Presidency of Lyndon Baines Johnson, when 
Congress passed President Johnson's comprehensive package of 
legislation including Head Start, the Elementary and Secondary 
Education Act of 1965, the Higher Education Act of 1965, and the Adult 
Education Act of 1966. These proposals--part of President Johnson's 
``War on Poverty''--were vehicles through which the federal government 
sought to address inequities in access, opportunities, and quality of 
public education for poor and minority communities who lacked the power 
to equalize resources flowing to their communities and schools.
    Earlier this month, the House of Representatives passed bipartisan 
legislation to name the United States Department of Education 
headquarters building here in Washington, DC the Lyndon Baines Johnson 
building. Passage of that bill serves as an important reminder of the 
volatile and unstable environment facing our nation in 1965. It was in 
this climate that Congress passed the first ESEA, to address the 
devastating impact of poverty on a child's educational opportunities 
and to ensure that every child, no matter where he or she lived, would 
have the same opportunities to realize the American dream.
    Today, our nation is once again facing volatile times. We are 
struggling with how to resolve international conflicts, to secure our 
competitiveness in the world's economy, to ensure that every child will 
receive the world-class public education that he or she deserves, and 
to provide all children with the tools and resources necessary to be 
active, engaged, successful citizens of our democracy.
    It is within this context that I would like to offer our views on 
the principles we believe essential and the direction we believe the 
federal government should move in with the reauthorization of No Child 
Left Behind.
What Do We Want From Public Education and What Role Should the Federal 
        Government Play in Achieving These Goals?
    Public education is the gateway to opportunity. All students have 
the human and civil right to a quality public education and a great 
public school that develops their potential, independence, and 
character. Public education is vital to building respect for the worth, 
dignity, and equality of every individual in our diverse society and is 
the cornerstone of our republic. Public education provides individuals 
with the skills to be involved, informed, and engaged in our 
representative democracy.
    We believe that the expertise and judgment of education 
professionals are critical to student success. Partnerships with 
parents, families, communities, and other stakeholders are also 
essential to quality public education and student success. Individuals 
are strengthened when they work together for the common good. As 
education professionals, we improve both our professional status and 
the quality of public education when we unite and advocate 
collectively. We maintain the highest professional standards, and we 
expect the status, compensation, and respect due all professionals.
    Obviously, the federal government cannot ensure all of these things 
alone. However, we believe that it should--at a minimum--address 
disparities impacting the quality of education our children receive and 
the resulting disparities in outcomes.
How Should We Use Accountability Systems to Remedy Educational 
        Disparities?
    If we agree that public education serves multiple purposes, then we 
know there must be a richer accountability system with shared 
responsibility by stakeholders at all levels for appropriate school 
accountability. Such an accountability system must marry not only 
accountability for achievement and learning by students, but also 
shared accountability to remedy other gaps in our education system and 
flaws in the current accountability model.
Opportunity Gaps
    Before I address achievement and skills gaps, I would like to take 
a moment to discuss the opportunity gaps that hinder so many of our 
nation's children. We believe that policy makers at all levels should 
fulfill their collective responsibility to remedy these gaps.
    Too many of our neediest students are taught by uncertified and 
under-prepared teachers. At NEA, we are as troubled by that phenomenon 
as these committees have been. We believe that knowledge of content and 
demonstrated skills in instructional methodology are critically 
important in ensuring that all students receive the kind of instruction 
they deserve. Improving working conditions and student learning 
conditions is another vital element to attract and retain qualified 
teachers to hard-to-staff schools.
    Other troubling gaps include access to after school programs and 
extended learning time programs and curriculum gaps preventing students 
from accessing a rich and broad curriculum. For example, many poor and 
minority communities as well as many rural and urban schools do not 
have access to arts, advanced placement, or physical education courses, 
nor do they have access to innovative curricula such as information 
literacy, environmental education, and financial literacy.
    We also are concerned about significant infrastructure and school 
environment gaps that hamper learning. Students clearly cannot learn in 
buildings with leaky roofs or in classrooms in which one cannot turn on 
a computer and the lights without blowing a fuse. I agree with Bill 
Gates that our schools shouldn't look like they did in the 1950s. For 
example, science labs should not only have Bunsen burners, they should 
have technology to run experiment simulations. Yet, too many of our 
schools do look the same as they did 50 years ago because President 
Dwight Eisenhower was the last President to make a major investment in 
school infrastructure--$1 billion for school facilities.
Achievement and Skills Gaps
    Now, let me turn to the subject of achievement and skills gaps. 
They exist, they are intolerable, and they impede our future success as 
a nation. That is why I have made closing achievement and skill gaps a 
top priority for the NEA. We have dedicated millions of dollars to this 
effort and will continue to do so. I have included in this testimony 
just a few examples of the work we are doing in this area (attached as 
Appendix I).
    While one of the primary purposes and goals of NCLB is to close 
achievement gaps, I do not believe that has been the outcome. The 
respected Civil Rights Project at Harvard, in a June 2006 report, found 
that ``federal accountability rules have little to no impact on racial 
and poverty gaps. The NCLB Act ends up leaving many minority and poor 
students, even with additional educational support, far behind with 
little opportunity to meet the 2014 target.''
    An accountability system designed to raise student achievement and 
close achievement gaps must include the following elements:
    Improved methods to assess student learning, including improving 
the quality of assessments and giving real meaning to NCLB's ``multiple 
measures'' requirement
    The term ``achievement gaps'' has become synonymous with 
differences in scores on standardized tests between groups of students. 
And, given the poor quality of tests across the country, those test 
scores reflect little more than a student's ability to regurgitate 
facts. If we are truly committed to preparing our children to compete 
in the 21st century economy and world, we need to develop and assess a 
broader set of knowledge and skills.
    As NEA member John Meehan, an elementary school teacher from Alton, 
Illinois, has told NEA:
    ``Assessments are critical to help identify the academic needs of 
students, but not all students test well. Many are stressed to the 
point of simply giving up and not trying. Accountability is important, 
yet giving a test is just one method of measuring student learning and 
growth. I've seen so many good students who are learning and growing 
academically yet who do not test well. I was one of those students. To 
this day, I don't take tests well, yet I'm able to learn. We need to 
help students learn, not just teach them to take tests.''
    NEA has been engaged for the last four or five years in a 
collaborative effort with businesses and other education groups to 
attempt to define ``21st century skills.'' The Partnership for 21st 
Century Skills has issued several reports\1\ along these lines as well 
as a set of principles for ESEA reauthorization (attached as Appendix 
II). These principles state in part: ``Standardized achievement 
assessments alone do not generate evidence of the skill sets that the 
business and education communities believe are necessary to ensure 
success in the 21st century.''
    We believe the U. S. Department of Education under the previous 
Secretary made a grave error in allowing states simply to ``augment'' 
norm-referenced standardized tests with a few additional test items 
aligned with the state content standards. In practice, this means that 
the tests do not measure higher order thinking, analytical problem-
solving, or synthesis skills--the very skills businesses want and need 
from the workforce. Thus, the early decision to put test administration 
ahead of an examination of desirable content and skills has had a 
terrible impact on the current accountability framework.
    We believe the NCLB ``multiple measures'' language has two distinct 
meanings, and that both are necessary in an accountability framework. 
First, the term ``multiple measures'' means multiple indicators of 
student learning. The research is clear that results of one math test 
and one reading test are insufficient to determine a child's 
achievement and skill levels. Therefore, we must also employ multiple 
methods to determine what a student knows and can demonstrate.
    We should employ multiple measures in assessing both individual 
student learning and overall school effectiveness in improving student 
learning. For example, we believe a richer more accurate system that a 
state should be permitted to design could include statewide assessment 
results at 50 percent, high school graduation rates at 25 percent, and 
one other factor, such as local assessments, at 25 percent. Multiple 
measures systems would provide the public with a more complete picture 
of their local schools and their states' ability to provide great 
public schools for every child.
Systemic supports for schools and individual supports and interventions 
        for students
    An accountability system should ensure that all subgroups of 
students are being served in a manner that will eliminate disparities 
in educational outcomes. Yet, doing so must begin with an explicit 
understanding that every child is unique and that the entire system 
should be accountable for serving each individual child's needs. The 
tension between approaches is no better illustrated than by comparing 
NCLB accountability, which is focused on student subgroup outcomes, to 
the Individuals with Disabilities Education Act, which uses an 
individualized approach to accountability through Individualized 
Education Plans.
    In order to close achievement and skills gaps between groups of 
children, we must acknowledge the need for two simultaneous approaches: 
changes in the way we provide supports and interventions to the school 
and changes in the way we provide supports and interventions to 
individual students who need help. NEA's Positive Agenda for the ESEA 
Reauthorization (See Appendix III) sets forth a variety of supports we 
hope will be included in the next reauthorization of ESEA.
What Other Roles Can the Federal Government Play in Ensuring a Great 
        Public School for Every Child?
            Innovation and graduation for all
    In addition to accountability for student learning, the federal 
government should focus on less tangible, but no less important, 
differences in the development of students as well-rounded individuals 
prepared for life after high school graduation. Federal policy should 
support innovative approaches to making students' educational 
experience engaging and relevant to them. The world has changed 
dramatically since enactment of the Elementary and Secondary Education 
Act of 1965, and thus our public schools must also change. Technology 
has transformed not only our economy, but the world's economy. A 
wonderful benefit of this transformation is that all nations are more 
globally interdependent.
    Our schools need to reflect the world in which our children live: a 
world infused with a 21st century curriculum. They need to help 
students become well-rounded individuals with skills to compete in a 
changing world and contribute to the rich, diverse societal fabric that 
makes our country so impressive. Ultimately, an educational experience 
that is more relevant to a student is going to be more engaging and 
will lead to greater knowledge and skills. A rich, relevant, and 
challenging experience can help address all students' needs. It can 
captivate and challenge our gifted students, while also providing a 
positive influence for students at risk of dropping out or engaging in 
high-risk behaviors.
    Consider this statement from NEA member Donna Phipps, an art 
teacher in New London, Iowa:
    ``I have been an art teacher in three different school districts in 
the last nine years. * * * Arts education and vocational education are 
the heart and soul of students. They allow students to explore and 
expand who they are. * * * These programs have been cut to ensure that 
schools remain off the watch list and the list of schools in need of 
assistance. When art and vocational programs are cut, you might as well 
tell students that the innermost core of who they are no longer 
matters. * * * Don't allow NCLB to stifle future artistic exploration 
and invention.''
    Federal policy should recognize states that have designed a plan to 
create 21st Century Schools using the Framework developed by the 
Partnership for 21st Century Skills and a plan to advance STEM 
(Science, Technology, Engineering, and Math) education. We believe the 
federal government should fund these states through grants to develop 
21st century content and authentic assessments that measure 21st 
century skills and knowledge.
    In addition, all of our schools, particularly high schools, should 
encourage as many students as possible to attend college and should 
provide coursework to reduce dramatically the need for remediation in 
college. At the same time, we also must acknowledge the continued need 
for a major investment in career and technical education programs. And, 
we need to ensure that high schools take into consideration the 
transition needs of all student populations, not just students with 
disabilities. In other words, we need to do whatever it takes to ensure 
that a student's next step after high school will be one he or she 
takes with the confidence that comes from being well-prepared.
    Finally, we urge Congress to adopt a ``graduation for all'' 
proposal that combines the work of Representative Hinojosa and Senators 
Bingaman and Murray with NEA's 12-point action plan to address the 
dropout crisis in America (see Appendix IV). For example, we believe 
Congress should provide funding for grants to states that agree to 
eliminate the concept of ``dropping out'' of school or that raise the 
compulsory attendance age. We need graduation centers for 19- and 20-
year-olds and those who have dropped out of school--a concerted effort 
to prevent the loss of one more child and to help those who already 
have dropped out. This is not only in America's self-interest to ensure 
future competitiveness, it is a moral imperative. NEA will be providing 
Congress with more specific recommendations regarding the federal role 
in reinventing our high schools shortly.
            Quality educators in every classroom
    NEA's Positive Agenda includes a number of proposals to ensure the 
highest quality educators, many of which were included in Chairman 
Miller and Chairman Kennedy's TEACH Act legislation last year. Beyond 
these proposals, we encourage Congress to think broadly about this 
important issue.
    For example, we believe Congress should reward states that set a 
reasonable minimum starting salary for teachers and a living wage for 
support professionals working in school districts that accept federal 
funds. We have asked our nation's educators to take on the most 
important challenge in ensuring America's future. Yet, we have denied 
these educators economic security and respect. It is time to end this 
untenable situation. Congress must take a bold step and set that 
minimum standard.
    NEA would recommend that no teacher in America should make less 
than $40,000 and no public school worker should make less than $25,000 
or a living wage. According to a recent study by the National 
Association of Colleges and Employers, the teaching profession has an 
average national starting salary of $30,377. Meanwhile, computer 
programmers start at an average of $43,635, public accounting 
professionals at $44,668, and registered nurses at $45,570.\2\ Even 
more shocking is that the average salary for full-time 
paraprofessionals is only $26,313, with a wide salary range across job 
duties. NEA has education support professional members who live in 
shelters, others who work two and three jobs to get by, and others who 
receive food stamps. This is an unacceptable and embarrassing way to 
treat public servants who educate, nurture, and inspire our children. I 
would encourage you to read their stories.\3\
    We also urge Congress to advance teacher quality at the highest 
poverty schools by providing $10,000 federal salary supplements to 
National Board Certified Teachers. Congress also should fund grants to 
help teachers in high poverty schools pay the fees and access 
professional development supports to become National Board Certified 
Teachers.
    In addition, you should consider other financial incentives to 
attract and retain quality teachers in hard-to-staff schools including 
financial bonuses, college student loan forgiveness, and housing 
subsidies.
    Finally, we believe that the equitable distribution of highly 
qualified teachers depends not just on decent wages, but more 
importantly upon the teaching and learning conditions in each school. 
Therefore, we strongly encourage Congress to restore a separate funding 
stream to help states reduce class sizes. We hope that states accepting 
such funds would be required to develop a plan to ensure a maximum 
class size of 15 students in every school at every grade level. We 
understand the challenges inherent in meeting this goal. However, we 
believe that ensuring the greatest possible individualized attention 
for each student should be as high a priority as ensuring that each 
student achieves at a certain level. In fact, the two goals are 
inextricably linked, as research clearly shows the positive impact of 
small class size on student learning.
    In addition to class size reduction, federal policy should award 
grants to states that conduct surveys of teaching and learning 
conditions across the state and within districts and agree to address 
problem areas revealed by those surveys. North Carolina has been a 
leader in this effort, and there are initiatives currently underway in 
Arizona, Kansas, Mississippi, Nevada, Ohio, and South Carolina. We 
would encourage you to look at the work of the Center for Teaching 
Quality (www.teachingquality.org) with whom the NEA has partnered to 
expand these initiatives.\4\
Specific Changes to No Child Left Behind
    My testimony today has focused primarily on the big picture--the 
ideals and principles that should guide debate on the federal role in 
education and should frame the context for NCLB reauthorization. NEA is 
not alone in highlighting those areas that need the most attention. In 
fact, we have signed onto the Joint Organizational Statement on NCLB, 
which currently has the support of 113 groups representing education, 
civil rights, children's, disability, religious, and citizens' 
organizations. The Joint Statement recommends 14 significant, 
constructive corrections that are among those necessary to make the Act 
fair and effective (See Appendix V). If, however, Congress should 
approach reauthorization by looking to tweak the law rather than 
consider broader policy changes, we would offer the following 
suggestions, which are of utmost concern to NEA's members:
    1. Allow states to use a ``growth model'' as part of the AYP 
definition (provided that state data systems are equipped with 
individual student identifiers) to track and give credit for student 
growth over time.
    2. Clarify the language about assessments. Tests should be used for 
diagnostic purposes and educators should receive results in a timely 
manner to inform instructional strategies. Overall, assessment language 
should require a much more comprehensive look at the quality of 
assessments for all student populations and their true alignment with 
state content standards.
    3. Encourage 21st century assessment that is web-based and provides 
timely results useful to teachers, parents, and students. Such 
assessments should be accessible to all student populations.
    4. Replace current accountability labels (``in need of 
improvement,'' ``corrective action,'' and ``restructuring '') with a 
system that rewards success in closing achievement gaps and focuses on 
helping schools.\5\ Semantics and policies should reflect the goal of 
targeting help where it is needed most. Therefore, schools in need of 
additional supports and interventions should be classified as: priority 
schools, high priority schools, and highest priority schools.
    5. Mandate multiple measures in the AYP system. Current multiple 
measure language is not enforced in a way that gives schools and 
districts credit for success on factors other than state standardized 
assessments, including such measures as school district and school 
assessments, attendance, graduation and drop-out rates, and the percent 
of students who take honors, AP, IB, or other advanced courses.
    6. Extend from one year to a maximum of three years the time for an 
English Language Learner to master English before being tested in 
English in core content areas. This change would be consistent with 
research findings about the average pace for English language 
acquisition. Students who become proficient in English in fewer than 
three years should be tested in English. However, to expect a non-
English speaker to take a math or reading test in a second language 
prior to achieving proficiency in that language sets that student up 
for failure. Furthermore, students and schools should not be punished 
for the failure of the system to make available native language 
assessments.
    7. Include students with disabilities in any accountability system, 
but allow states to use grade level appropriate authentic assessment 
for special education students based on their IEPs. Under IDEA '04, IEP 
teams are required to ensure that IEPs are aligned with state content 
standards and state achievement standards. Teams are also required to 
set annual measurable objectives for students with disabilities, so 
that growth in their learning is not only expected, but required.
    8. Provide a separate funding stream for and target public school 
choice and supplemental services to those students who are not reaching 
proficiency in reading and math.
    9. Improve the quality and oversight of supplemental services to 
ensure they meet the same standards as public schools.
    10. Close two loopholes in the highly qualified teacher definition. 
NCLB itself exempts some teachers in charter schools from having to be 
fully licensed or certified. The Department of Education's regulations 
allow individuals going through alternate route to certification 
programs to be considered highly qualified for up to three years before 
completing their program. Each of these exemptions should be 
eliminated.
    I thank you again for the opportunity to speak with you today. I 
look forward to working closely with your two committees on ESEA 
reauthorization as we strive to ensure every child's basic right to a 
great public school.
            appendix i: nea work on closing achievement gaps
    NEA's work on closing achievement gaps focuses on policy and 
practice. In the policy arena, an NEA grants program funds state 
affiliates' efforts to change state public policy environments to 
better support members' efforts to close the gaps. We also conduct 
annual policy summits on the educational status of traditionally 
underserved student groups. In the practice arena, NEA offers a variety 
of professional development sessions for members, and state and local 
staff to help them gain the knowledge and skills required to close 
achievement gaps. We also produce a number of publications on the 
achievement of diverse students that serve as training and resource 
documents for affiliates and members.
State Grants to Close Achievement Gaps
    One of the primary goals of NEA's work in this area is to secure 
state-level public policies and associated funding to close achievement 
gaps. Therefore, in 2005-06, we initiated a new grants program, NEA 
Grants to Close Achievement Gaps.
    To date, 22 NEA state affiliates have received grants which they 
are using to help close achievement gaps by: a) securing statewide 
legislation; b) changing state regulations; c) modifying the scope or 
content of local contracts/negotiated agreements; and/or d) changing 
state affiliate policy, conducting research, building/enhancing 
coalitions, or conducting member-focused activities to position the 
affiliate for future statewide action to close achievement gaps. Key 
policy successes using grant funds include the following:
    Illinois: Passed two pieces of legislation in 2005-06 that will 
enhance the skills of Illinois educators: A state-of-the-art teacher 
induction program that will serve teachers throughout the state; and a 
one-year, required coaching experience for new school principals.
    Maine: Bargained a contract in the state's largest local, Portland 
Public Schools, that provides an alternative pay scale based on a 
professional development ladder and incentives for teachers to become 
more skilled in meeting the needs of the diverse learners.
    Missouri: Embedded language in the state's professional development 
guidelines that encourages schools to create opportunities for schools 
to use their examination of student work to inform teaching, increase 
student achievement, and close achievement gaps.
    New Mexico: Secured local contract language that requires the 
ongoing bargaining of professional and instructional issues throughout 
the contract year.
    Nebraska: Passed a constitutional amendment that allows the use of 
the interest from the school lands trust fund, and triggers private 
endowment money, to pay for early childhood programs in public schools. 
This implements a policy success from the 2005-06 legislative session 
that established an early childhood endowment, which will now be 
funded.
    Ohio: Passed legislation to establish school district committees 
that will develop local strategies for closing achievement gaps.
    Oklahoma: Passed a state law that requires districts to focus 
professional development activities on closing achievement gaps.
    In addition to these state grants, NEA's foundation (The National 
Foundation for the Improvement of Education) provides substantial 
funding to three local affiliates (Seattle, Chattanooga, and Milwaukee) 
to support their work in closing achievement gaps.
Policy Summits on Traditionally Underserved Students
    NEA conducts annual educational summits on the educational status 
of traditionally underserved student groups. The summits invite 
practitioners, researchers, and community members to share research, 
examine best practices, and develop recommendations for policy, 
programs, and practice. NEA distributes summit proceedings and 
recommendations widely. Summit reports that are currently available on 
www.achievementgaps.org are:
    <bullet> A Report on the Status of Hispanics in Education: 
Overcoming a History of Neglect
    <bullet> Status of Asian Americans and Pacific Islanders in 
Education: Beyond the ``Model Minority'' Stereotype
    <bullet> The Status of American Indians and Alaska Natives in 
Education
Key NEA Publications
    <bullet> C.A.R.E.: Strategies for Closing the Achievement Gaps, a 
resource for classroom teachers and other educators, focuses on closing 
the gaps by examining research on working with culturally and 
linguistically diverse students. The guide looks at the research on 
cultural, language, and economic differences, as well as at 
unrecognized and undeveloped abilities, resilience, and effort and 
motivation. Copies may be downloaded at: www.nea.org/teachexperience/
careguide.html
    <bullet> Closing Achievement Gaps: An Association Guide, a resource 
for NEA's affiliates and leaders, provides them with research and 
information, tools, ``success stories'' of state and local affiliates 
engaged in the work of closing achievement gaps, and examples of 
policy, programs, and practice for closing achievement gaps. Copies may 
be downloaded at: www.achievementgaps.org/nea/Associationguide.pdf
Training for Leaders, Staff, and Members
    NEA supports state affiliates that are developing teams of trainers 
who introduce members to the research and strategies in C.A.R.E.: 
Strategies for Closing the Achievement Gaps. Nineteen states currently 
have teams of trainers.
    NEA also provides training and support for public engagement 
projects in which local educators and community stakeholders focus on 
what they can do to close achievement gaps and make sure that all 
students learn. In addition, NEA offers training to educators on how to 
build family, school, and community partnerships to close the 
achievement gaps.
            appendix ii: partnershp for 21st century skills
Statement of principles
            21st Century Skills and the Reauthorization of NCLB/ESEA
    The Partnership believes that our organization's framework for 21st 
century skills is consistent with the metrics and accountability 
emphasized in the No Child Left Behind (NCLB) Act. As congress 
considers reauthorization of the Elementary and Secondary Education Act 
(ESEA), of which NCLB is the current version, we offer this set of 
principles to provide guidance for strengthening the Act in terms of 
its approach to accountability and integrating 21st century skills for 
today's students.
    The Case for 21st Century Education:
    The Partnership for 21St Century Skills, representing both business 
and education, believes success of US education in the 21st century 
depends upon student acquisition of 21st century skills because:
    1. Education is changing. We can no longer claim that the US 
educational results are unparalleled. Students around the world 
outperform American students on assessments that measure 21st century 
skills. Today's teachers need better tools to address this growing 
problem.
    2. Competition is changing internationally. Innovation and 
creativity no longer set U.S. education apart. Innovators around the 
world rival Americans in breakthroughs that fuel economic 
competitiveness.
    3. The workplace, jobs, and skill demands are changing. Today every 
student, whether he/she plans to go directly into the workforce or on 
to a 4-year college or trade school, requires 21st century skills to 
succeed. We need to ensure that all students are qualified to succeed 
in work and life in this new global economy.
    21st century skills are the skills students need to succeed in 
work, school, and life. They include:
    1. Core subjects (as defined by NCLB)
    2. 21st century content: global awareness; financial, economic, 
business and entrepreneurial literacy; civic literacy; and health and 
wellness awareness
    3. Learning and thinking skills: critical thinking and problem 
solving skills, communications skills, creativity and innovation 
skills, collaboration skills, contextual learning skills and 
information and media literacy skills
    4. Information and communications technology (ICT) literacy
    5. Life skills: leadership, ethics, accountability, adaptability, 
personal productivity, personal responsibility, people skills, self-
direction, and social responsibility
Principles Regarding NCLB
    These principles are intended to provide guidance for strengthening 
NCLB's approach to accountability and integration of 21st century 
skills into classrooms.
            Principle 1: Standards
    Standards that reflect content mastery alone do not enable 
accountability and measurement of 21st century skills. And without a 
comprehensive, valid system of measurement, it is impossible to 
integrate these skills effectively into classroom instruction or 
monitor whether students have mastered the skills necessary for success 
in life and work today. The Partnership believes the Act should:
    1. Include language related to the integration of 21st century 
skills into state standards of the three subjects already identified by 
the Act (math, reading, science.)
    2. Incorporate ``21st century skills'' as part of the definition/
description of ``challenging academic content standards.''
    3. Funds should be provided to states for development of robust 
standards that incorporate 21st century skills into core subjects, as 
well as 21st century content areas not currently covered by federal 
testing.
    4. States should be supported in collaborating with other states to 
develop 21st century standards.
    5. States should be supported if they choose to strengthen their 
standards to improve their students' abilities to compete in the global 
economy.
            Principle 2: Assessment
    An expanded approach to assessment, involving measurements that 
assess 21st century skills, is necessary to ensure accountability of 
schools in the 21st century. Most K-12 assessments in widespread use 
today--whether they be of 21st century skills and content or of 
traditional core subject areas--measure a student's knowledge of 
discrete facts, not a student's ability to apply knowledge in complex 
situations. Standardized achievement assessments alone do not generate 
evidence of the skill sets that the business and education communities 
believe are necessary to ensure success in the 21st century. The 
Partnership recommends the following improvements to ESEA:
    1. The assessment and accountability system should be based on 
multiple measures of students' abilities that include 21st century 
skills. In addition to statewide standardized assessments, such 
measures could include district level assessments, local school and 
classroom formative assessments, and other measures of student 
knowledge.
    1. Assessment of 21st century skills should be listed as an 
integral part of the academic assessments in math, reading, and 
science.
    2. Reporting requirements should be expanded to include information 
on whether the student is achieving 21st century skills.
    3. Funds should be made available for pilot projects and test beds 
for the use of assessments that measure 21st century skill competencies 
in high school students.
    4. Funds should be allocated for an international benchmarking 
project that allows U.S. high school students to be compared to their 
international peers in terms of competencies in 21st century skills.
            Principle 3: Professional Development
    Students cannot master 21st century skills unless their teachers 
are well trained and supported in this type of instruction. The Act 
should support professional development that prepares teachers and 
principals to integrate 21st century skills into their classrooms and 
schools. Specifically, the Partnership recommends that:
    1. Funds should be allocated for professional development of 21st 
century skills and establishment of 21st Century Skills Teaching 
Academies.
    2. Higher education institutions should be supported in identifying 
and disseminating the best practices for teaching and assessing 21st 
century skills
    3. Higher education institutions should be encouraged to ensure 
that all pre-service teachers graduate prepared to employ 21st century 
teaching and assessment strategies in their classrooms.
            Principle 4: Information and communications technology 
                    (ICT) literacy
    ICT literacy is the ability to use technology to develop 21st 
century content, knowledge, and skills. Students must be able to use 
technology to help them learn content and skills--so that they know how 
to learn, think critically, solve problems, use information, 
communicate, innovate, and collaborate. The Partnership recommends that 
ESEA integrate ICT literacy in the following way:
    1. Maintain and fund the Enhancing Education Through Technology 
State Grant program.
    2. Transition the 8th grade technology literacy requirement into an 
ICT literacy requirement, so that the focus is not on technology 
competency, but the ability to use technology to perform critical 
thinking, problem solving, collaboration, communication and innovation 
skills.
            Principle 5: Content
    Twenty-first century content areas like global awareness, financial 
literacy, civic literacy, and health awareness are critical to student 
success in communities and workplaces, yet they typically are not 
emphasized in schools today. The Partnership believes the Act should:
    1. Support the teaching of each of these content areas.
    2. For global awareness in particular, support the teaching of 
multiple languages.
            Principle 6: Research & Development
    Targeted, sustained investment in research and development 
initiatives is required to promote 21st century skills and craft 
teaching practices and assessment approaches that more closely convey 
and measure what students need to excel in the 21st century. Therefore 
the Partnership recommends:
    1. The Act should provide support for state research and 
development initiatives, within the state university system and/or 
possibly others, that will identify through scientifically-based 
research the best practices for teaching, attaining and measuring 21st 
century skills.
            Principle 7: 21st Century Skills Definition
    The Partnership recognizes that the term ``21st century skills'' is 
used in a variety of contexts. Therefore we recommend:
    1. ESEA should contain a definition of ``21st century skills'' with 
a current description of the P21 framework as described earlier in this 
document.
              appendix iii: esea--it's time for a change!
NEA's Positive Agenda for the ESEA Reauthorization: Executive Summary
    This Executive Summary of the Positive Agenda highlights the 
recommendations contained in the full report. The full report, starting 
on page 8, provides the rationale and additional background for each 
recommendation.
            Great Public Schools Criteria
    All children have a basic right to a great public school. Our 
vision of what great public schools need and should provide 
acknowledges that the world is changing and public education is 
changing too. Meeting these Great Public Schools (GPS) criteria require 
not only the continued commitment of all educators, but the concerted 
efforts of policymakers at all levels of government. We believe these 
criteria will:
    <bullet> Prepare all students for the future with 21st century 
skills
    <bullet> Create enthusiasm for learning and engage all students in 
the classroom
    <bullet> Close achievement gaps and raise achievement for all 
students
    <bullet> Ensure that all educators have the resources and tools 
they need to get the job done
    These criteria form a basis for NEA's priorities in offering 
Congress a framework for the 2007 reauthorization of the Elementary and 
Secondary Education Act (ESEA). The reauthorization process must 
involve all stakeholders, especially educators. Their knowledge and 
insights are key to developing sound policies.
    <bullet> Quality programs and services that meet the full range of 
all children's needs so that they come to school every day ready and 
able to learn.
    Students must have access to programs such as public school pre-K 
and kindergarten programs; afterschool enrichment and intervention 
programs; nutrition, including school breakfast and lunch programs; 
school-based health care and related services; counseling and mentoring 
programs for students and families; safe and efficient transportation; 
and safe and drug-free schools programs.
    <bullet> High expectations and standards with a rigorous and 
comprehensive curriculum for all students.
    All students should have access to a rigorous, comprehensive 
education that includes critical thinking, problem solving, high level 
communication and literacy skills, and a deep understanding of content. 
Curriculum must be aligned with standards and assessments, and should 
include more than what can be assessed on a paper and pencil multiple 
choice test.
    <bullet> Quality conditions for teaching and lifelong learning.
    Quality conditions for teaching and learning include smaller class 
sizes and optimal-sized learning communities; safe, healthy, modern, 
and orderly schools; up-to-date textbooks, technology, media centers, 
and materials; policies that encourage collaboration and shared 
decisionmaking among staff; and the providing of data in a timely 
manner with staff training in the use of data for decisionmaking.
    <bullet> A qualified, caring, diverse, and stable workforce.
    A qualified, caring, diverse, and stable workforce in our schools 
requires a pool of well prepared, highly skilled candidates for all 
vacancies; quality induction for new teachers with mentoring services 
from trained veteran teachers; opportunities for continual improvement 
and growth for all employees; working conditions in which they can be 
successful; and professional compensation and benefits.
    <bullet> Shared responsibility for appropriate school 
accountability by stakeholders at all levels.
    Appropriate accountability means using results to identify policies 
and programs that successfully improve student learning and to provide 
positive supports, including resources for improvement and technical 
assistance to schools needing help. Schools, districts, states, and the 
federal government should be financially accountable to the public, 
with policymakers accountable to provide the resources needed to 
produce positive results. Accountability systems should be transparent 
so that policies are determined and communicated in an open, 
consistent, and timely manner.
    <bullet> Parental, family, and community involvement and 
engagement.
    Policies should assist and encourage parents, families, and 
communities to be actively involved and engaged in their public 
schools; require professional development programs for all educators to 
include the skills and knowledge needed for effective parental and 
community communication and engagement strategies; provide incentives 
or require employers to grant a reasonable amount of leave for parents 
to participate in their children's school activities.
    <bullet> Adequate, equitable, and sustainable funding.
    School funding systems must provide adequate, equitable and 
sustainable funding. Making taxes fair and eliminating inefficient and 
ineffective business subsidies are essential prerequisites to achieving 
adequacy, equity, and stability in school funding. ESEA programs should 
be fully funded at their authorized levels.
            NEA's Priorities for ESEA Reauthorization
    A great public school is a basic right of every child. NEA's 
priorities for the 2007 reauthorization of ESEA focus on a broad range 
of policies to ensure every child access to a great public school.
    The current version of ESEA--the No Child Left Behind Act (NCLB)--
is fundamentally flawed. It undermines existing state and school 
district structures and authority, and shifts public dollars to the 
private sector through supplemental educational services and takeovers 
of public schools by for-profit companies.
    However, its stated goals--to improve student achievement and help 
close the achievement and skills gaps that exist in our country--are 
important to NEA and our society. We want to retain the positive 
provisions of ESEA, both those that existed prior to NCLB and those 
that were added by NCLB, in the 2007 reauthorization.
    Congress must shift from the current focus that labels and punishes 
schools with a flawed one-size-fits-all accountability system and 
severely underfunded mandates to one that includes common-sense 
flexibility and supports educators in implementing programs that 
improve student learning, reward success, and provide meaningful 
assistance to schools most in need of help.
    The following five priorities are crucial to realizing the goals of 
improving student achievement, closing the achievement gaps, and 
providing every child a quality teacher.
    <bullet> Accountability That Rewards Success and Supports Educators 
to Help Students Learn
    <bullet> Accountability should be based upon multiple measures of 
student learning and school success.
    <bullet> States should have the flexibility to design systems that 
produce results, including deciding in which grades to administer 
annual statewide tests.
    <bullet> States should have the flexibility to utilize growth 
models and other measures of progress that assess student achievement 
over time, and recognize improvement on all points of the achievement 
scale.
    <bullet> Growth model results should be used as a guide to revise 
instructional practices and curriculum, to provide individual 
assistance to students, and to provide appropriate professional 
development to teachers and other educators. They should not be used to 
penalize schools or teachers.
    <bullet> Assessment systems must be appropriate, valid, and 
reliable for all groups of students, including students with 
disabilities and English Language Learners, and provide for common-
sense flexibility for assessing these student subgroups.
    <bullet> States, school districts, and schools should actively 
involve teachers and other educators in the planning, development, 
implementation, and refinement of standards, curriculum, assessments, 
accountability, and improvement plans.
    <bullet> Accountability systems and the ensuing use of the results 
must respect the rights of school employees under federal, state, or 
local law, and collective bargaining agreements.
    <bullet> Accountability systems should provide support and 
assistance, including financial support for improvement and technical 
assistance to those schools needing help, with targeted assistance to 
those schools and districts most in need of improvement.
    <bullet> Assessment and accountability systems should be closely 
aligned with high standards and classroom curricula, provide timely 
data to help improve student learning, and be comprehensive and 
flexible so that they do not result in narrowing of the curricula.
    <bullet> A federal grant program should be created to assist 
schools in ensuring all students access to a comprehensive curriculum.
    <bullet> A comprehensive accountability system must appropriately 
apply to high schools without increasing dropout rates.
    <bullet> Standards and assessments must incorporate the nature of 
work and civic life in the 21st century: high level thinking, learning, 
and global understanding skills, and sophisticated information, 
communication, and technology literacy competencies.
    <bullet> Schools that fail to close achievement gaps after 
receiving additional financial resources, technical assistance, and 
other supports should be subject to supportive interventions.
    <bullet> If certain elements of the current AYP system are 
maintained, specific flaws must be corrected. These corrections 
include: providing more than one year to implement improvement plans 
before subjecting schools or districts to additional sanctions; 
designating schools or districts as ``in need of improvement'' only 
when the same subgroup of students fails to make AYP in the same 
subject for at least two consecutive years; targeting school choice and 
supplemental educational services (SES) to the specific subgroups that 
fail to make AYP; providing SES prior to providing school choice; and 
ensuring that SES providers serve all eligible students and utilize 
only highly qualified teachers.
    <bullet> Smaller Class Sizes To Improve Student Achievement
    <bullet> Restore the Class Size Reduction program that existed 
prior to NCLB to provide an optimum class size of 15 students.
    <bullet> Schools should receive federal support--through both 
direct grants and tax subsidies--for school modernization to 
accommodate smaller classes.
    <bullet> Quality Educators in Every Classroom and School
    <bullet> Provide states and school districts with the resources and 
technical assistance to create an effective program of professional 
development and professional accountability for all employees.
    <bullet> Revise the ESEA Title II Teacher Quality State Grant 
program to ensure alignment of federally funded teacher professional 
development with the National Staff Development Council (NSDC) 
standards.
    <bullet> Provide federally funded salary enhancements for teachers 
who achieve National Board Certification, with a smaller salary 
incentive for teachers who complete this rigorous process and receive a 
score, but do not achieve certification.
    <bullet> Create a grant program that provides additional 
compensation for teachers with specific knowledge and skills who take 
on new roles to assist their colleagues.
    <bullet> Expand opportunities for education support professionals 
to broaden and enhance their skills and knowledge, including 
compensation for taking additional courses or doing course work for 
advanced degrees.
    <bullet> Provide federal grants that encourage districts and 
schools to assist new teachers by pairing them with an experienced 
mentor teacher in a shared classroom.
    <bullet> Provide financial incentives--both direct federal 
subsidies and tax credits--for retention, relocation, and housing for 
teachers and support professionals who work in schools identified as 
``in need of improvement'' or high-poverty schools, and stay in such 
schools for at least five years.
    <bullet> Provide hard-to-staff schools with an adequate number of 
well trained administrators and support professionals, including 
paraeducators, counselors, social workers, school nurses, 
psychologists, and clerical support.
    <bullet> Provide paraeducators who are involuntarily transferred to 
a Title I school and who have not met the highly qualified standard 
with adequate time to meet the requirement.
    <bullet> Grant reciprocity for paraeducators who meet the highly 
qualified standard when they move to another state or district, with 
different qualifications.
    <bullet> Revise the definition of highly qualified teachers to 
recognize state licensure/certification, eliminate nonessential 
requirements that create unnecessary obstacles, and eliminate loopholes 
in the scope of coverage.
    <bullet> Provide teachers who may not meet the highly qualified 
standard by the current deadlines, due to significant implementation 
problems, with assistance and additional time to meet the requirement.
    <bullet> Students and Schools Supported By Active and Engaged 
Parents, Families, and Communities
    <bullet> Provide programs that encourage school-parent compacts, 
signed by parents, that provide a clearly defined list of parental 
expectations and opportunities.
    <bullet> Provide programs and resources to assist in making schools 
the hub of the community.
    <bullet> Expand funding for the Parent Information and Resource 
Centers (PIRC) program in ESEA.
    <bullet> Include as a requirement for professional development 
programs funded through ESEA, training in the skills and knowledge 
needed for effective parental and family communication and engagement 
strategies.
    <bullet> Provide incentives or require employers to provide parents 
a reasonable amount of leave to participate in their children's school 
activities.
    <bullet> Resources to Ensure a Great Public School for Every Child
    <bullet> Fully fund ESEA programs at their authorized levels.
    <bullet> Enforce Sec. 9527(a) of NCLB, which prevents the federal 
government from requiring states and school districts to spend their 
own funds--beyond what they receive from the federal government--to 
implement federal mandates.
    <bullet> Protect essential ESEA programs by:
    <bullet> Providing a separate ESEA funding stream for school 
improvement programs to assist districts and schools
    <bullet> Providing adequate funding to develop and improve 
assessments that measure higher order thinking skills
    <bullet> Establishing a trigger whereby any consequences facing 
schools falling short of the new accountability system are implemented 
only when Title I is funded at its authorized level
    <bullet> Providing a separate ESEA funding stream for supplemental 
education services and school choice, if these mandates remain in the 
law
    <bullet> Providing adequate funding to develop and improve 
appropriate assessments for students with disabilities and English 
Language Learner students
    <bullet> Providing technical assistance to schools to help them use 
money more effectively
    <bullet> Providing adequate funding to assist state and local 
education agencies in administering assessments, and collecting and 
interpreting data in a timely manner so it can be useful to educators
    <bullet> Important children's and education programs outside of 
ESEA, including child nutrition, Head Start, IDEA, children's health, 
child care, and related programs, must be adequately funded.
NEA's Positive Agenda for the ESEA Reauthorization
            PART ONE: Great Public Schools Criteria
    All children have a basic right to a great public school. Our 
vision of what great public schools need and should provide 
acknowledges that the world is changing and public education is 
changing too. Fulfilling these Great Public Schools (GPS) criteria 
require not only the continued commitment of all educators, but the 
concerted efforts of policymakers at all levels of government. We 
believe these criteria will:
    <bullet> Prepare all students for the future with 21st century 
skills
    <bullet> Create enthusiasm for learning and engaging all students 
in the classroom
    <bullet> Close achievement gaps and increase achievement for all 
students
    <bullet> Ensure that all educators have the resources and tools 
they need to get the job done
    These criteria form a basis for NEA's priorities in offering 
Congress a framework for the 2007 reauthorization of the Elementary and 
Secondary Education Act. The reauthorization process must involve all 
stakeholders, especially educators. Genuine involvement taps a breadth 
of knowledge, insights, and experiences that form the basis of sound 
educational programs and fosters commitment and success.
    <bullet> Quality programs and services that meet the full range of 
all children's needs so that they come to school every day ready and 
able to learn.
    <bullet> High expectations and standards with a rigorous and 
comprehensive curriculum for all students.
    <bullet> Quality conditions for teaching and lifelong learning.
    <bullet> A qualified, caring, diverse, and stable workforce.
    <bullet> Shared responsibility for appropriate school 
accountability by stakeholders at all levels.
    <bullet> Parental, family, and community involvement and 
engagement.
    <bullet> Adequate, equitable, and sustainable funding.
            The Details of the Great Public Schools Criteria
    <bullet> Quality programs and services that meet the full range of 
all children's needs so that they come to school every day ready and 
able to learn.
    Children need a broad array of programs so they are ready to learn 
every day they are in school. Students must have access to programs 
such as public school pre-K and kindergarten; afterschool enrichment 
and intervention; nutrition, including school breakfast and lunch; 
school-based health care and related services; counseling and mentoring 
for students and families; safe and efficient transportation; and safe 
and drug-free schools.
    Brief descriptions of each area follow:
            Preschool
    Numerous studies have shown that high quality early care 
experiences, both classroom practices and teacher-child relationship, 
enhance children's abilities to take advantage of the learning 
opportunities in school.
    A recent study by the National Academy of Sciences notes that much 
of the human brain develops in the first five years of life and a 
stimulating environment during this stage changes the very physiology 
of the brain. High quality early care leads to the development of more 
advanced learning skills in language and math, as well as social 
skills.
    NEA supports polices and resources for quality, voluntary, 
universal preschool and pre-K programs that provide a safe environment, 
well prepared teachers, small class size, interactive relationships 
among teachers and children, emphasis in both social and learning 
skills, and that involve parents.
            Kindergarten
    Kindergarten is a year of transition from home and early childhood 
education programs to formal school programs. At least a half-day of 
kindergarten is a near-universal experience for American children, with 
nearly 98 percent of youngsters attending, Some children have access to 
full-day, half-day, and alternate-day programs while others have access 
to only one of these options. Recent research has shown that children 
who attend full-day kindergarten are better prepared to succeed in the 
first grade and beyond.
    NEA supports policies and resources that provide high quality full-
day kindergarten programs for all children.
            Afterschool
    Afterschool hours are the peak time for juvenile crime and risky 
behaviors such as alcohol and drug use. Most experts agree that 
afterschool programs offer a healthy and positive alternative. These 
programs keep kids safe, improve academic achievement and help relieve 
the stresses on today's working families. They can serve as important 
youth violence prevention and intervention strategies. Yet, every day, 
at least eight million children and youth are left alone and 
unsupervised once the school bell rings at the end of the school day.
    NEA supports policies and resources to ensure all children and 
youth access to high quality afterschool programs that both provide a 
safe environment and help improve student learning.
            Nutrition
    While the National School Lunch program provides nutritionally 
balanced, low-cost, or free lunches to more than 28 million children 
each school day, too many schoolchildren still lack access to a hot 
breakfast or other adequate nutrition. Malnourished children have 
impaired concentration and greater challenges in learning. In addition, 
improving the nutritional quality of school lunches and other meals can 
promote healthy eating habits in children.
    NEA supports expanding child nutrition programs and enhancing their 
nutritional quality to ensure that all children have access to healthy, 
nutritious meals at school.
            Health Needs
    In response to a need for student health services, a number of 
communities have established school-based health centers (SBHCs). The 
more than 1,000 SBHCs nationwide are popular as providers of 
affordable, convenient, confidential, and comprehensive services at the 
school. These programs overcome barriers that discourage adolescents 
from utilizing health services (such as lack of confidentiality, 
inconvenient appointment times, prohibitive costs, and general 
apprehension about discussing personal health problems). Unfortunately 
too many children, especially children from low-income families, lack 
access to such services.
    NEA supports policies and resources that enable communities to 
expand the number and the quality of school-based health centers so 
that all children have access to medical care, counseling, health 
education, and preventive services provided in a familiar and ``teen-
friendly'' setting on or near school grounds. Such services should be 
provided by health professionals who are experienced and trained to 
work with adolescents.
            Counseling
    Counseling programs staffed by professional school counselors, 
school psychologists, and school social workers help all students in 
the areas of student learning, personal/social development and career 
development, ensuring that students become productive, well-adjusted 
adults. Effective counseling programs are important to the school 
climate and in improving student achievement. Too often, however, these 
professionals have unreasonable caseloads, but counselors are expected 
to attend to the individual needs of students. In addition, many 
counselors are serving as testing coordinators, diverting their time 
away from meeting students' needs. The American School Counselor 
Association recommends a counselor-to-student ratio of 1:250; the 
National Association of School Psychologists recommends a school 
psychologist-to-student ratio of 1:1,000; and the School Social Work 
Association of America recommends a social worker-to-student ratio of 
1:400 for an effective program.
    NEA supports policies and resources to states and school districts 
enabling them to achieve this important goal.
            Mentoring Programs
    Mentoring programs for students are an important resource for 
students and their parents or guardians. Parents are the most important 
influence on their children's lives. But parents often need help. 
Mentoring offers parents the support of a caring one-to-one 
relationship that fosters their child's healthy growth.
    Mentoring programs have been shown to contribute to better 
attitudes toward school, better school attendance, and a better chance 
of going on to higher education. They also show promise in preventing 
substance abuse and appear to reduce other negative youth behaviors.
    NEA supports policies and resources to expand programs, such as the 
mentoring program in Title IV of ESEA to provide mentoring services to 
all students who would benefit.
            Transportation
    Every school day, millions of parents and their children rely on 
the ``yellow'' school bus to provide safe and dependable transportation 
to and from school and school-related activities. In fact, according to 
the National Safety Council, school buses are the safest form of ground 
transportation--40 times safer than the family car.
    Most states, except for the transportation of students with special 
needs, have no mandate to provide students with transportation to or 
from school. Even in states where transportation of students to and 
from school is required by law, distances set forth in the law fail to 
take account of hazardous pedestrian crossings, and funding shortfalls 
create problems in maintaining an adequate school transportation 
program.
    As a result of budget constraints, many schools are seeking 
alternative transportation services for students. NEA agrees with the 
National Association of State Directors of Pupil Transportation 
Services that the safest way to transport children to and from school 
and school-related activities is in a school bus.
    NEA supports policies and resources that ensure all students have 
access to needed transportation in safe and modern school buses, and 
that all buses be provided with radios to ensure communication between 
drivers, schools, and other authorities in case of emergencies.
            School Climate
    A positive school climate encourages positive behaviors with 
rewards for meeting expectations and clear consequences for violating 
rules. Research shows that schools with a positive and welcoming school 
climate increase the likelihood that students succeed academically, 
while protecting them from engaging in high risk behaviors like 
substance abuse, sexual activities, and violence.
    Most students and teachers report feeling safe in their schools, 
yet a 2002 study of school safety revealed that about one-fourth would 
avoid a specific place at school out of fear that someone might hurt or 
bully them. More than one-quarter (27%) of teachers in middle and high 
schools reported that the behavior of some students kept them from 
instructional activities during significant amounts of the school day.
    NEA supports policies and resources, including safe and drug-free 
schools programs, to assist all schools in creating and maintaining 
safe and disciplined school sites.
    <bullet> High expectations and standards with a rigorous and 
comprehensive curriculum for all students.
    NEA supports policies and resources to ensure all students access 
to a rigorous, comprehensive education. A rigorous curriculum, as 
defined by NEA, means that critical thinking, problem solving, and high 
level communication and literacy skills are included, as well as deep 
understandings of content. Rigor includes life skills and dispositions 
that support lifelong learning, such as persistence and thoroughness. 
Rigor does not mean simply a certain number of courses, more difficult 
courses, more time in class, or more test preparation.
    NEA is not alone in calling for a broader definition of rigor. The 
Partnership for 21st Century Skills, a broad-based coalition of 
education organizations and major businesses states: ``Rigor must 
reflect all the results that matter for all high school graduates 
today. Today's graduates need to be critical thinkers, problem solvers 
and effective communicators, who are proficient in both core subjects 
and new, 21st century content and skills.''
    A comprehensive curriculum includes social skills, arts, health, 
physical education, a range of content understandings, and 
opportunities to practice and develop creative and divergent thinking.
    The curriculum must be aligned with standards and assessments, and 
should include more than what can be assessed on a paper and pencil 
multiple choice test.
    NEA continues to advocate the use of a variety of assessments 
aligned to the standards and appropriate to the purposes for which they 
are used. Assessment systems should include classroom assessments and 
multiple measures rather than a single standardized test. Increasingly, 
both educational researchers and the corporate world are concerned that 
teaching, focused on what is most conveniently tested, limits our 
students' ability to succeed in school and life, and threatens our 
nation's competitiveness globally.
    Students held to high expectations need access to instructional 
systems, strategies, and programs that enable them to be successful 
learners. Teachers need flexibility in programs and a range of 
materials and tools to support their work in recognizing and addressing 
the diversity of students, and to enable them to reach all students.
    <bullet> Quality conditions for teaching and lifelong learning.
    Quality conditions of teaching and learning include smaller class 
sizes; optimal-sized learning communities so that students can receive 
individualized attention; safe, healthy, modern, and orderly schools; 
up-to-date textbooks, technology, media centers, and materials; 
policies that encourage collaboration among staff, with increased 
planning time and shared decisionmaking; and the providing of data in a 
timely manner, with staff training in the use of data for 
decisionmaking about student instructional plans, educational programs, 
and resource allocations.
    Class size has a direct impact on student achievement. The 
preponderance of research evidence indicates that achievement increases 
as class size is reduced. Smaller classes allow more time for teaching 
and more individualized attention for students. Studies have shown that 
smaller class size provides lasting benefits, especially for minority 
and low-income students, and for students with exceptional needs. 
Students in smaller classes in the early grades (such as K-3) continue 
to reap academic benefits through middle and high school.
    NEA supports policies and resources to achieve a maximum class size 
of 15 students in regular programs, and a proportionately lower number 
in programs for students with exceptional needs, including children 
with disabilities and English Language Learners.
    <bullet> A qualified, caring, diverse, and stable workforce.
    NEA believes all newly hired teachers must have received strong 
preparation in both content and how to teach that content to children.
    A qualified, caring, diverse, and stable workforce in our schools 
requires a pool of well prepared, highly skilled candidates for all 
vacancies, and high quality opportunities for continual improvement and 
growth for all employees.
    The federal government should fund programs that provide financial 
incentives for qualified individuals to enter the teaching profession, 
and for collaboratives between school districts, teacher unions and 
institutions of higher education for the development of programs that 
would facilitate the recruitment and retention of a qualified diverse 
group of teacher candidates.
    All newly hired teachers should receive quality induction and 
mentoring services from trained veteran teachers, to ensure a 
successful experience in the first years and decrease the turnover of 
new teachers.
    Veteran classroom teachers must be intimately involved in every 
phase of the training and preparation of teacher candidates. A high 
quality professional development program, designed by school-based 
practitioners and supported by higher education faculty, should be a 
right of all teachers and other educators, including paraeducators, 
pupil support personnel, and administrators. High quality and effective 
professional development should follow the guidelines and standards of 
the National Staff Development Council.
    Additionally, there should be effective processes in place to 
identify and train teachers as leaders, so they can lead school 
improvement efforts, create collaborative teacher communities, and 
build momentum for change among their colleagues.
    Peer assistance should be available to help struggling teachers 
improve professional practice, retain promising teachers, and build 
professional knowledge to improve student success.
    To attract, retain, and support the highest quality teachers, 
paraeducators, and other school employees, schools must have a healthy 
environment, supportive climate, and working conditions that support 
success, and provide professional compensation and benefits.
    Too many teachers leave the profession because of poor working 
conditions. All educators--teachers, paraeducators, and others--should 
have appropriate workloads/caseloads that enable them to provide the 
individual attention their students' diverse needs require. 
Additionally, programs should promote teacher collaboration and 
empowerment, and foster effective principal leadership.
    <bullet> Shared responsibility for appropriate school 
accountability by stakeholders at all levels.
    States and schools are accountable in how they educate children. 
Flawed accountability systems are destructive. Sound school 
accountability systems must be effective and fair; ensure high levels 
of student achievement, excellent teacher practices and continual 
improvement; be based on multiple measures of success; use multiple 
assessment tools and sources of data; reflect growth over time; and be 
appropriate, valid, and reliable for all groups of students, including 
students with disabilities and English Language Learners.
    Accountability results should be used to identify policies and 
programs that successfully improve student learning; surface and 
diagnose problem areas; and, provide positive supports, including 
resources for improvement and technical assistance to schools needing 
help.
    Teachers, other educators, and parents should have an active role 
in the development, implementation, and evaluation of accountability 
systems at all levels. Policymaking should incorporate existing 
processes, including collective bargaining. Improvements in instruction 
and quality can be better accomplished through bargaining and other 
forms of collective joint decisionmaking.
    We support financial accountability to the public from schools, 
districts, states, and the federal government, as well as 
accountability from policymakers to provide the resources needed for 
positive results.
    Finally, we propose a transparent accountability system for 
policymakers so that policies are determined and communicated in a 
consistent and timely manner.
    Too often, especially at the federal level, how and why decisions 
affecting states and school districts are made is unclear. Critical 
policy decisions are often not made in a timely manner, and once 
decided are not always made public or readily available.
    <bullet> Parental, family, and community involvement and 
engagement.
    NEA supports policies to assist and encourage parents, families, 
and communities to be actively involved and engaged in their public 
schools.
    Research demonstrates that family education programs help to 
enhance the likelihood of parental involvement. For example, programs 
that illustrate to parents their role in helping their children learn 
to read encourage early and sustained literacy. In addition, for 
parents who are unfamiliar with the educational system in the United 
States, parental education helps to enhance their understanding of what 
is expected of them and their children in our public schools, how to 
access assistance, and how to become engaged in their children's 
schools.
    Using schools as a community hub brings together public and private 
organizations to offer a range of services, assistance, and 
opportunities that strengthen and support schools, communities, 
families, and students--before, during, and after school.
    We support policies and resources to expand and improve such 
community schools.
    Positive relationships between families, communities, and schools 
are of central importance to students' success. Educators need 
opportunities to build the skills needed to cultivate these 
relationships.
    NEA supports policies encouraging the building of skills and 
knowledge needed for effective parental and community communication and 
engagement strategies in professional development programs for all 
educators.
    Time and availability are two obvious challenges to parental 
involvement. Employers should receive incentives or be required by 
policymakers to allow parents to take a reasonable amount of leave to 
participate in their children's school activities.
    In addition, many parents have strong needs for leadership, 
communication, and decisionmaking skills. Employer and community-based 
organizations often have skill-building resources that can be tapped to 
help teach such skills to employees. Employers would see that engaged 
and knowledgeable parents are an asset to public education and be 
reminded that quality public education is an asset to business.
    <bullet> Adequate, equitable, and sustainable funding.
    Schools must have the necessary resources to fulfill their broad 
and growing responsibilities in a changing and increasingly complex 
society.
    Schools are held accountable for helping students to meet federal 
and state standards, while also fulfilling myriad other requirements 
and expectations placed on them by policymakers. To ensure that the 
necessary resources are available when and where needed, school funding 
systems must provide adequate, equitable and sustainable funding.
    Adequate funding, at the very minimum, is the level of resources 
needed to ensure that all students have a realistic opportunity to meet 
federal and state performance standards, taking into account the varied 
needs of different types of students. ``Adequacy'' requires a 
determination of the appropriate amount of resources needed to meet all 
students' needs to obtain a quality education.
    NEA supports fully funding ESEA programs at their authorized 
levels, to ensure that states and schools have adequate funding for the 
programs and services needed to help close achievement gaps and improve 
student learning for all.
    While less than 10 percent of overall funding for K-12 public 
education comes from the federal government, ESEA funding for urban, 
rural, and other school districts with concentrated poverty and hard-
to-staff schools that rely heavily on these supplemental federal funds, 
is especially crucial.
    School funding that is merely adequate in the aggregate is 
insufficient. School funding formulas must also be equitable for both 
students and taxpayers. For students, equitable funding means that the 
quality of their education is not dependent on the wealth of the school 
district where a child lives and attends school. For taxpayers, equity 
in school funding means that the tax effort across all districts should 
be equal to produce the same level of funding. ESEA's Title I program 
has built into its funding formulas incentives for states to increase 
their education funding effort and steer funds to where they are needed 
the most. Adequacy and equity can be accomplished with additional 
incentives to states and districts to reduce financial disparities.
    To function efficiently, while also meeting the increased demands 
being placed on them, schools need funding streams that are stable and 
sustainable. Year-to-year fluctuations in available resources and last-
minute uncertainties hamper school districts' efforts to plan, to hire, 
and to retain highly qualified and experienced educators, to keep class 
sizes small, and to provide other essential resources, ranging from 
curriculum materials to transportation.
    Making taxes fair and eliminating inefficient and ineffective 
business subsidies are essential prerequisites to achieving adequacy, 
equity, and stability in school funding.
    More than 90 percent of funding for public schools comes from state 
and local governments. Ultimately the most important questions 
regarding funding for schools are decided at the state and local 
levels. The best way to maintain America's competitive edge in this 
global, knowledge-based economy is to invest in our ability to produce 
and manage knowledge. That means investing in education. Economic 
models show clearly that, dollar for dollar, investing in public 
education increases the economy more than equal amounts of tax cuts and 
subsidies. To date, however, too many lawmakers and policymakers 
believe that tax cuts and development subsidies are the best way to 
step-up the economy. Thus we see state tax structures that are 
increasingly regressive and that produce structural deficits. 
Similarly, state economic development policies too often emphasize 
inefficient and ineffective corporate subsidies. Together, these 
undermine state and local capacity to invest adequately in public 
education. Should these trends continue, America's competitive edge in 
the global, knowledge-based economy will continue to erode.
            PART TWO: NEA's Priorities for ESEA Reauthorization
         a great public school is a basic right of every child
    NEA's priorities for the 2007 reauthorization of ESEA focus on a 
broad range of policies, as articulated in this report, to ensure every 
child access to a great public school.
    ESEA, originally passed on April 9, 1965, was a key component of 
the ``War on Poverty'' launched by President Lyndon Johnson. Title I 
provided resources to meet the needs of educationally deprived children 
through compensatory education programs for the poor. President Johnson 
said it would help ``five million children of poor families overcome 
their greatest barrier to progress: poverty.''
    The original ESEA was authorized through 1970. Congress has since 
rewritten--or reauthorized--this landmark law eight times. The No Child 
Left Behind Act (NCLB) of 2001 is the most recent version. Since the 
law's inception in 1965, NEA has strongly supported ESEA and its 
programs: Title I; professional development; afterschool; safe and 
drug-free schools; bilingual education; and others.
    The 1994 ESEA reauthorization--called the Improving America's 
Schools Act (IASA)--shifted the focus of Title I from providing 
financial support to schools with high concentrations of children in 
poverty, to standards-based reform. (For a more detailed history of 
ESEA see Appendix A.)
    The current version of ESEA--the No Child Left Behind Act (NCLB)--
is fundamentally flawed. It undermines existing state and school 
district structures and authority, and shifts public dollars to the 
private sector through supplemental educational services and takeovers 
of public schools by for-profit companies.
    However, its stated goals--to improve student achievement and help 
close the achievement and skills gaps which exist in our country--are 
important to NEA and our society. NCLB represents a fundamental shift 
in ESEA that greatly expanded the federal role in education. The 1994 
ESEA required all states to develop content and performance standards 
in reading and math and to measure the progress of student achievement 
in Title I schools through adequate yearly progress reports. NCLB, 
however, expanded the law's requirements to all schools, regardless of 
whether they received federal funds, and thus affects every public 
school in America.
    It dictates to states how they measure student achievement and the 
timelines they must use; establishes the requirement that 100 percent 
of all students be proficient in reading and math by the 2013--14 
school year; mandates certain consequences or sanctions for failure to 
meet AYP; and for the first time, requires that both teachers and 
paraeducators meet a federally defined standard of highly qualified. 
Under Title I alone, it establishes 588 federal requirements for states 
and schools.
    The law's principal flaws revolve around its one-size-fits-all 
system for measuring student achievement and school system success, and 
its rigid definitions of highly qualified teachers and 
paraprofessionals. Further, the law is incomplete because it fails to 
provide the additional tools and supports educators and students need 
to accomplish the law's stated goals of improving student achievement 
and closing the achievement gaps. To address the law's stated goals, 
Congress must: 1) substantially improve the measurement system for 
adequate yearly progress to reduce reliance on statewide paper and 
pencil tests and to recognize growth and progress over time; and 2) 
provide states, schools, and students with programs and resources to 
support their work in improving the level and quality of all students' 
skills and knowledge.
    We want to retain the positive provisions of ESEA--both those that 
existed prior to NCLB and those that were added by NCLB--in the 2007 
reauthorization. These positive provisions include: targeting funds in 
both Title I and other programs to schools with the highest 
concentrations of students in poverty; an increased focus on closing 
achievement gaps through disaggregated student achievement data; grants 
for school improvement; strengthened rights of homeless children to 
access public education; protection of school employees' rights during 
school improvement, corrective action, or restructuring; strengthened 
parental involvement requirements in Title I; requirements for high 
quality professional development for teachers; help for small, high-
poverty rural schools; and programs for dropout prevention, math-
science education, safe and drug-free schools, mentoring, school 
counseling, and school libraries. Unfortunately, while written into the 
law, virtually all of these programs are severely underfunded.
    Congress must shift from the current focus, that labels and 
punishes schools with a flawed one-size-fits-all accountability system 
and severely underfunded mandates to one that includes common-sense 
flexibility and supports educators in implementing programs that 
improve student learning, reward success, and provide meaningful 
assistance to schools most in need of help.
    The following five priorities are crucial to realizing the goals of 
improving student achievement, closing the achievement gaps, and 
providing every child a quality teacher.
    <bullet> Accountability That Rewards Success And Supports Educators 
To Help Students Learn
    <bullet> Smaller Class Sizes To Improve Student Achievement
    <bullet> Quality Educators In Every Classroom And School
    <bullet> Students And Schools Supported By Active And Engaged 
Parents, Families, And Communities
    <bullet> Resources To Ensure A Great Public School For Every Child
    A growing chorus of voices is calling for corrections to this law. 
An alliance of 75 national organizations--including the NAACP, the 
Children's Defense Fund, the American Association of School 
Administrators, the National Council of Churches, the League of United 
Latin American Citizens (LULAC), and the Council for Exceptional 
Children--representing education, civil rights, special education, 
various religions, children, and citizens have joined together through 
the Forum on Educational Accountability in proposing 14 specific 
changes to the law. Other education groups that have issued policy 
proposals for amendments to the law include the National School Boards 
Association, the American Federation of Teachers, and the National 
Association of Secondary School Principals.
    The National Governors Association (NGA) in March 2006 issued its 
proposals for change. The NGA statement notes that, ``Maximum 
flexibility in designing state accountability systems, including 
testing, is critical to preserve the amalgamation of federal funding, 
local control of education, and state responsibility for system-wide 
reform.''
    The National Conference of State Legislatures in February 2005 
issued a report calling on Congress to make substantial changes to the 
law. The report states:
    ``Administrators at the state, local and school levels are 
overwhelmed by AYP because it holds schools to overly prescriptive 
expectations, does not acknowledge differences in individual 
performance, does not recognize significant academic progress because 
it relies on absolute achievement targets, and inappropriately 
increases the likelihood of failure for diverse schools.''
I. Accountability That Rewards Success and Supports Educators To Help 
        Students Learn
    The current Adequate Yearly Progress (AYP) model is a fundamentally 
flawed system that fails to accurately measure student learning and 
school success. Schools are held accountable based solely on a one-day 
snapshot of student performance on a standardized reading test and a 
standardized math test.
    The law's AYP model uses overly narrow measures and contains 
unrealistic timelines for school improvement. It results in improperly 
labeling many schools as low-performing and imposing punishments on 
them. AYP holds all schools accountable based solely on how many 
students reach a specific point on the achievement scale on one 
standardized test in each of two subjects--reading and math.
    It fails to account for a school's results in improving student 
achievement over time. Instead of measuring each individual student's 
growth over time, it compares, for example, the snapshot of test scores 
for this year's fourth-grade class to the snapshot of test scores for 
last year's fourth-grade class, a different group of students with 
different strengths and different weaknesses.
    It fails to recognize that all children can learn, but all children 
do not learn at the same rate. It fails to include fair, valid, and 
reliable measures for students with special needs, including students 
with disabilities and English Language Learners. It fails to 
differentiate between those schools that are truly struggling to close 
achievement gaps and those that fall short on only one of 37 federally 
mandated criteria. Finally, it fails to include a comprehensive set of 
measures for school quality and student learning, focusing only on one 
statewide standardized test in two subjects.
    Consequently, it overidentifies thousands of schools as low-
performing. Several studies project that well over 90 percent of public 
schools will eventually fail to meet federal standards and be subjected 
to severe sanctions. This overidentification hampers efforts to target 
limited resources to the neediest schools and students. Further, the 
focus on overidentification and accompanying sanctions diverts 
attention from assistance to states, districts, and schools that need 
to develop systemic improvement plans. Finally, NCLB's mandated 
sanctions are not research-based, divert money away from classroom 
services, and generally have not improved student achievement.
    NEA supports the following policies that would meet the Great 
Public Schools criteria for stakeholders at all levels to share 
appropriate accountability and for high expectations and standards with 
a rigorous and comprehensive curriculum for all students:
    School accountability should be a measurement beyond just scores on 
statewide assessments.
    Accountability systems should be based upon multiple measures, 
including: local assessments, teacher-designed classroom assessments 
collected over time, portfolios and other measures of student learning, 
graduation/dropout rates, in-grade retention, percent of students 
taking honors/advanced classes and Advanced Placement exams, and 
college enrollment rates. States should have the flexibility to design 
systems that produce results, including deciding in which grades to 
administer annual statewide tests, rather than being subject to a rigid 
federal one-size-fits-all system.
    An improved accountability system should allow states the 
flexibility to utilize growth models and other measures of progress 
that assess student learning over time, and recognize improvement on 
all points of the achievement scale. Growth models should use 
measurement results as a guide to revise instructional practices and 
curriculum, to provide individual assistance to students, and to 
provide appropriate professional development to teachers and other 
educators. They should not be used to penalize teachers or schools.
    NEA is working with the Forum on Educational Accountability and a 
panel of experts in assessment to develop in greater detail models of 
effective systems that utilize multiple measures and growth models.
    Assessment systems must be appropriate, valid, and reliable for all 
groups of students, including students with disabilities and English 
Language Learners.
    Appropriate systems provide for common-sense flexibility in 
assessing these student subgroups, including more closely aligning ESEA 
assessment requirements with students' Individualized Education 
Programs (IEPs) under IDEA, and eliminating arbitrary federal limits on 
the number of students who may be given assessments based on alternate 
or modified achievement standards. For ELL students, we propose 
exempting from AYP their scores on reading and math tests not given in 
their native language for at least their first two years in the United 
States, while continuing to require that their progress in reaching 
English language proficiency be measured through annual assessments.
    Policies should ensure that states, school districts, and schools 
actively involve teachers and other educators in the planning, 
development, implementation, and refinement of standards, curriculum, 
assessments, accountability, and improvement plans. Their training and 
experience represent a valuable resource in designing programs that 
work for students. Accountability systems and the use of the ensuing 
results must also respect the rights of school employees under federal, 
state, or local law, and collective bargaining agreements.
    Accountability systems should provide support and assistance, 
including financial support for improvement and technical assistance to 
schools needing help, target assistance to schools and districts most 
in need of improvement, and provide realistic timelines for making 
improvements.
    In addition, accountability systems must be sensitive to the 
specific needs of rural and urban schools.
    Assessment and accountability systems should be closely aligned 
with high standards and classroom curricula, provide timely data to 
guide teaching strategies and help improve student learning, and be 
comprehensive and flexible so that they do not result in narrowing of 
the curricula.
    As a result of the growing emphasis on achieving AYP and the need 
to reallocate resources toward accomplishing that, many school 
districts have de-emphasized and even eliminated courses in the liberal 
arts, humanities, and performing arts. We deplore this tendency that 
limits a child. These subjects create the appropriate context to 
develop the whole child. Redefining the art of teaching so narrowly 
significantly reduces creativity and critical thinking and diminishes a 
child's enthusiasm and motivation to explore and to learn.
    NEA advocates the creation of a federal grant program to assist 
schools in ensuring all students access to a comprehensive curriculum 
that provides a broad range of subjects and deep knowledge in each 
subject. Students in high-poverty schools must not be limited to an 
instructional program that is narrowly focused on basic skills, as is 
happening too often under NCLB.
    A comprehensive accountability system must appropriately apply to 
high schools without increasing dropout rates. High schools need 
programs and resources for adolescent literacy, dropout prevention, 
counseling, smaller learning communities, and expansion of AP and IB 
courses if they are to meet the diverse needs of all of their students. 
In order to measure high school graduation rates meaningfully, all 
states and school districts should report such data on a disaggregated 
basis, using the definition proposed by the National Governors 
Association and supported by many groups, including NEA.
    Standards and assessments must incorporate the nature of work and 
civic life in the 21st century: high-level thinking, learning, and 
global understanding skills, as well as sophisticated information, 
communication, and technology literacy competencies.
    Corporate America is telling us that a total focus on the most 
basic of skills is threatening our education system and our economic 
viability. Meaningfully assessing 21st century skills will require 
tests that measure higher-order thinking and problem solving, utilizing 
more than multiple choice questions. Too often we are holding students 
to obsolete standards that don't reflect contemporary challenges.
    If a school, after receiving additional financial assistance, 
technical assistance and other supports, fails to demonstrate that it 
is closing the achievement gaps, supportive interventions need to 
occur.
    The most successful learning strategies are grounded on advice and 
coaching. School improvement teams, which include teachers and other 
educators from similar schools that have been successful, can function 
as mentors and examples. These teams should provide assistance based on 
the fact that profound, long-term, and sustained improvement of schools 
is the result of efforts that recognize essential principles:
    <bullet> Incentives are better than mandates in producing change.
    <bullet> Increased student achievement should encompass more than 
just increased test scores. It should also reflect deep and broad 
learning.
    <bullet> Teachers must play a central role in school reform efforts 
because of their firsthand knowledge of their students and how their 
schools work.
    <bullet> Rather than starting from scratch in reinventing schools, 
it makes most sense to graft thoughtful reforms onto what is healthy in 
the present system.
    NEA is proposing a new and improved system of accountability. If 
certain elements of the current AYP system are maintained, specific 
flaws must be corrected. Necessary corrections include: providing more 
than one year to implement improvement plans before subjecting schools 
or districts to additional sanctions; designating schools or districts 
as ``in need of improvement'' only when the same subgroup of students 
fails to make AYP in the same subject for at least two consecutive 
years; targeting school choice and supplemental educational services 
(SES) to the specific subgroups that fail to make AYP; allowing schools 
to provide SES prior to providing school choice; and improving the 
quality of supplemental education services, ensuring that SES providers 
serve all eligible students and utilize only highly qualified teachers.
II. Smaller Class Sizes To Improve Student Achievement
    Smaller class size is a key element to achieving the Great Public 
Schools criterion of quality conditions for teaching and lifelong 
learning.
    The classroom is the nexus of student learning and class size has a 
direct impact on student achievement. Smaller classes allow more time 
for teaching and more individualized attention for students. The 
preponderance of research evidence indicates that learning increases as 
class size is reduced, especially in the early grades. Studies have 
shown that smaller class size provides lasting benefits for students, 
especially for minority and low-income students, and for students with 
exceptional needs. Even in the upper grades teachers can be more 
successful in increasing student learning when they can provide more 
individualized attention.
    NEA recommends an optimum class size of 15 students in regular 
programs, especially in the early grades, and a proportionately lower 
number in programs for students with exceptional needs including 
children with disabilities and English Language Learners.
    Fewer than 15 students is an optimal class size, especially in 
kindergarten (K) and grade 1. Researchers have documented benefits from 
class size of 15--18 students in K and of fewer than 20 students in 
grades 1--3. Students in smaller classes in the early grades (such as 
K-3) continue to reap academic benefits through middle and high school, 
especially if they are minority or low-income students.
    NEA supports restoring the Class Size Reduction program that 
existed prior to NCLB.
    Closing the achievement gaps requires that teachers have more 
opportunities to work with students who need greater assistance. ESEA 
should provide a dedicated funding stream to complete the job of hiring 
100,000 highly qualified teachers to reduce class size.
    An innovative way to ensure that students receive more 
individualized assistance is pairing two teachers in the same 
classroom. This strategy is discussed in more detail in the next 
section.
    We support a combination of federal programs--through both direct 
grants and tax subsidies to states and school districts--for school 
modernization to accommodate smaller classes.
III. Quality Educators In Every Classroom and School
    A growing body of research confirms what school-based personnel 
have known--that the skills and knowledge of teachers and support 
professionals are the greatest factor in how well students learn. The 
credibility of each and every educator is damaged when one of us is 
unprofessional or unprepared.
    Our proposals would help meet the Great Public Schools criteria of 
quality conditions for teaching and lifelong learning; and a qualified, 
caring, diverse, and stable workforce.
    Our policies are focused on maximizing the knowledge, skills, and 
abilities of school-based personnel, creating the conditions to allow 
educators to do their best work, and making sure that the right people 
are in the right place to meet the needs of all students. In addition 
to teachers, many other educators and school staff, including 
paraeducators, administrators, counselors, school nurses, librarians 
and media specialists, bus drivers, food service workers, school 
maintenance staff, security personnel, and secretaries all play an 
important role in improving student learning by meeting the educational 
and other needs of students.
    Our specific proposals for increasing the knowledge and skills of 
teachers are focused on professional development and on National Board 
Certification. Federal policy should be directed toward providing 
states and school districts with the resources and technical assistance 
to create an effective program of professional development and 
professional accountability for all employees. Effective professional 
development should promote continuing growth. It should create 
opportunities to acquire new knowledge and apply the best pedagogical 
practices consistent with the school's goals.
    Specifically, we propose revision of the ESEA Title II--Teacher 
Quality State Grant program--by refining the program criteria and 
ensuring alignment of federally funded teacher professional development 
with the National Staff Development Council (NSDC) standards. We also 
propose federally funded salary enhancements for teachers who achieve 
National Board Certification, with a smaller salary incentive for 
teachers who complete this rigorous process and receive a score, but do 
not achieve certification.
    Our second set of proposals is focused on creating the conditions 
in which teachers and education support professionals can apply their 
knowledge and skills most effectively to help children learn.
    We propose a grant program to states willing to encourage skills- 
and knowledge-based staffing arrangements in schools. This program 
should encourage collaboration between the school administration and 
the local organization representing teachers and other educators, as 
well as increased collaboration among teachers and between teachers and 
other education staff, to promote innovation in the way teachers' and 
support professionals' roles and responsibilities are defined. The 
development and implementation of such programs must respect existing 
collective bargaining agreements. Teachers with specific knowledge and 
skills should be encouraged to assist their colleagues to become better 
at what they do, and should receive additional compensation for taking 
on new roles
    However, we remain opposed to pay systems that directly link 
teacher compensation to student test scores. Such merit pay systems 
fail to recognize that teaching is not an individual, isolated 
profession. Rather, it is a profession dependent on the entire network 
of teaching professionals, where the foundation for student achievement 
is built over time from each of the student's educators. Further merit 
pay undermines the collegiality and teamwork that create a high-
performing learning institution.
    Education support professionals should be afforded every 
opportunity to broaden and enhance their skills and knowledge through 
training/professional development offerings, mentoring, and programs 
designed to support them as they assist the classroom teacher. They 
should be compensated for taking additional courses or doing course 
work for advanced degrees to assist in the classroom and to support 
student learning.
    We propose federal grants that support innovation in addressing 
teacher workload issues, especially in struggling schools.
    These grants should allow districts and schools to experiment with 
proposals such as assisting new teachers by pairing them in a classroom 
with an experienced teacher, and compensating the experienced teacher 
to induct and mentor the new teacher. Co-teaching--two qualified 
teachers in one classroom--can benefit students by effectively reducing 
the class size per teacher allowing for more individual attention. Co-
teaching also allows increased mentoring opportunities for teachers, 
can reduce the need for less qualified substitute teachers, and can 
enhance parental involvement and communication.
    Hard-to-staff schools should be provided with an adequate number of 
well trained administrators and support professionals, including 
paraeducators, counselors, social workers, psychologists, and clerical 
support. Teachers and support professionals in these schools should 
have access to targeted professional development focused on the 
specific needs of the school and community. These proposals would 
reduce the costly and disruptive turnover common in struggling schools.
    Paraeducators who are involuntarily transferred to a Title I school 
and who had not met the highly qualified standard required under NCLB 
in Title I schools, should be given adequate time to meet the 
requirement. The school district should be responsible for any 
remuneration required for meeting the standard (i.e., taking an 
assessment or taking continuing or higher education courses).
    The third set of proposals focuses on distribution of the educator 
workforce--ways to ensure that all schools, no matter how challenging, 
are staffed by high quality education professionals.
    We propose that teachers and support professionals who work in 
schools identified as ``in need of improvement'' or high-poverty 
schools, and stay in such schools for at least five years, be eligible 
for financial incentives--both direct federal subsidies and tax 
credits--for retention, relocation, and housing.
    We also propose that the definition of ``highly qualified'' 
teachers be revised to respect state licensure and certification 
systems, and eliminate nonessential requirements that create 
unnecessary obstacles for talented and skilled teachers and loopholes 
in the scope of coverage for some charter school teachers, alternative 
route teachers, and supplemental education service provider 
instructors.
    Specifically, we propose that all fully licensed special education 
teachers be designated as highly qualified; that broad-based social 
studies certification count as meeting the highly qualified 
requirements for any social studies discipline; and that additional 
flexibility be provided for middle school teachers, including accepting 
an academic minor to demonstrate subject matter competence. We also 
propose expanding the definition of ``rural schools'' used in the 
current rural school timeline extension. Finally, we propose that all 
teachers employed in programs authorized and/or funded through the 
Elementary and Secondary Education Act, including those in charter 
schools and supplemental education service providers, be required to 
meet the same definition regarding qualifications.
    Due to numerous rules and guidance changes by the U.S. Department 
of Education (DOE), as well as DOE's recent notification to some states 
that their definitions were not in compliance, some teachers will have 
an extremely limited amount of time to meet the new definitions imposed 
upon their state, or may still not know the exact rules they must meet. 
In several states, teachers were told by their state that they met the 
highly qualified rules but now, years after the fact in some cases, the 
federal government is ruling their states' definitions out of 
compliance. As a result, tens of thousands of teachers have already 
been notified they were highly qualified and may suddenly find 
themselves classified as not highly qualified. DOE appears to believe 
that content knowledge trumps all other forms of knowledge and skills 
(including decades of successful teaching).
    Teachers who may not meet the highly qualified standard by the end 
of the current deadlines due to these significant implementation 
problems should not be penalized, but instead should be provided with 
assistance and additional time to meet the requirement.
    Additionally, we propose that paraeducators who meet the highly 
qualified standard be granted reciprocity if they move to another state 
or district, where assessment scores or qualifications are different. 
Paraeducators should be able to provide documentation that they have 
met the requirements from a previous state or district to the receiving 
state or district. Documentation should be provided within 12 months of 
their hiring.
IV. Students and Schools Supported By Active and Engaged Parents, 
        Families, and Communities
    NEA supports inclusion of programs in ESEA that help to enhance 
family and community involvement.
    Adult and family literacy programs encourage parents to model 
reading, which promotes early and sustained literacy, and enable 
parents to be more involved in their children's education, particularly 
with homework. Parenting classes can explain the significance of 
adequate sleep, appropriate nutrition, and other factors, so that 
children come to school ready to learn and can help parents understand 
their role as partners in their children's education.
    An engaged community is a supportive community. Community 
engagement programs can expand the stakeholders in public education to 
include community organizations. Parent leaders can bring greater 
awareness of school issues to review boards, panels, oversight 
committees, and public officials.
    Language barriers serve as an obstacle to school/family 
partnerships in growing numbers of communities. Strategies that have 
worked well include providing a bilingual teacher or other translator 
for parent conferences and other parent involvement activities, and 
multilingual school-to-home communications. In addition, for parents 
who are unfamiliar with the U.S. educational system, parent education 
helps to enhance their understanding of what is expected of them and 
their children in their public schools.
    All schools should be encouraged to institute school-parent 
compacts--signed by parents--that provide a clearly defined list of 
parental expectations and opportunities for involvement.
    NEA supports policies and resources that assist communities in 
making schools the hub of the community.
    Community schools bring together public and private organizations 
to offer a range of services, programs, and opportunities--before, 
during, and afterschool--that strengthen and support schools, 
communities, families, and students. Community schools improve the 
coordination, delivery, effectiveness, and efficiency of services 
provided to children and families. These schools and communities 
develop reciprocal and mutually supportive relationships. In addition 
to building strong connections between schools and families and 
enhancing student learning, community schools help to make schools and 
communities safer and more supportive places; and they use scarce 
public, private, and community resources more efficiently.
    As an essential component of a highly qualified workforce, NEA 
supports including training in the skills and knowledge needed for 
effective parental and family communication and engagement strategies 
as a requirement for professional development programs funded through 
ESEA.
    The case for the importance of parent and community engagement in 
bolstering public education is well documented. However, the research 
base could be strengthened by supporting more research designs that 
would enable firmer conclusions to be drawn about the specific effects 
of different types of programs.
    Parent and community engagement can also be bolstered by more 
effective implementation of the parent and community engagement 
requirements in Title I of ESEA. Technical assistance to schools and 
financial rewards for exemplary involvement or improvement in 
involvement would help broaden the ethnic, language, and racial 
diversity of those involved in planning parent involvement and would 
help ensure that the full community is represented.
    We also support expanded funding for the Parent Information and 
Resource Centers (PIRC) program in ESEA. The PIRC program supports 
school-based and school-linked parental information and resource 
centers that help implement effective parental involvement policies, 
programs, and activities; develop and strengthen partnerships among 
parents, teachers, principals, administrators, and other school 
personnel in meeting the educational needs of children; and develop and 
strengthen the relationship between parents and their children's 
school.
    Time and availability are two obvious challenges to parental 
involvement. Employers should receive incentives or be required to 
provide parents a reasonable amount of leave to participate in their 
children's school activities.
V. Resources To Ensure a Great Public School For Every Child
    When NCLB was enacted, Congress promised to provide the resources 
necessary to meet the many mandates contained in the law, provide 
school improvement funds to schools that failed AYP, and provide 
increased resources especially for Title I and Title II Teacher Quality 
to help close achievement gaps, improve overall student achievement, 
and ensure all students have a quality teacher. NCLB has never been 
funded at the authorized levels. And, after an increase in funding in 
the first year (FY 2002), funding for NCLB programs is on the decline, 
with most states and school districts facing unfunded mandates, real 
cuts in resources, and no federal funds to turn around low-performing 
schools. Note the following illustration of ever-diminishing resources:
    <bullet> In the 2005--06 school year, two-thirds of all schools 
districts are receiving less Title I money than they did the previous 
year. In the 2006--07 school year, an additional 62 percent of school 
districts will have their Title I funding cut--most for the second 
consecutive year--because Congress reduced overall Title I funding.
    <bullet> Up to 20 percent of school districts' Title I money must 
be diverted from classroom services to pay for transportation for 
school choice and supplemental services. This mandatory set-aside 
compounds the impact of continued reductions in funding. Thus, many 
districts are experiencing severe reductions in Title I funds available 
for classroom services to help our neediest students improve their 
learning, and even districts slated for an increase in Title I funding 
have less money available for classroom services after this set-aside.
    <bullet> Under the President's proposed budget for FY 07, 29 states 
will receive less Title I money than they did in FY 06, with some 
states actually receiving less money than they did three, four, or even 
five years ago.
    <bullet> NO money has ever been provided for the school improvement 
state grants program. The only money available for school improvement 
comes off the top of states' Title I allocations, taking funds from the 
few school districts that have not yet had their Title I funding cut.
    <bullet> Funding for teacher quality state grants in FY 06 is less 
than the level provided three years ago. The President's budget 
proposes to continue funding in FY 07 at this reduced level.
    <bullet> Overall, Title I funding proposed for FY 07 is only 
roughly half of the authorized level promised when NCLB was passed, 
leaving almost 4.6 million low-income students denied Title I services.
    To help meet all the Great Public Schools criteria, and in 
particular adequate, equitable, and sustainable funding, NEA supports 
the following:
    <bullet> Fully funding ESEA programs at their authorized levels so 
that states and schools have adequate funding for programs, including 
professional development for teachers and paraeducators, needed to help 
close achievement gaps.
    <bullet> Enforcing Sec. 9527(a) of NCLB, which prevents the federal 
government from requiring states and school districts to spend their 
own funds--beyond what they receive from the federal government--to 
implement federal mandates. NEA is joined in this position by school 
districts, several states, the American Association of School 
Administrators, and other state and local officials.
    <bullet> Protecting essential ESEA programs by:
    <bullet> Providing a separate ESEA funding stream for school 
improvement programs to assist districts and schools
    <bullet> Providing adequate funding to develop and improve 
assessments that measure higher order thinking skills
    <bullet> Establishing a trigger whereby any consequences facing 
schools falling short of the new accountability system are implemented 
only when Title I is funded at its authorized level
    <bullet> Providing a separate ESEA funding stream for supplemental 
education services and school choice, if these mandates remain in the 
law
    <bullet> Providing adequate funding to develop and improve 
appropriate assessments for students with disabilities and English 
Language Learners
    <bullet> Providing technical assistance to schools to help them use 
funds more effectively
    <bullet> Adequately funding important children's and education 
programs outside of ESEA, including child nutrition, Head Start, IDEA, 
children's health, child care, and related programs. Each of these 
programs makes an important contribution to a child's ability to learn. 
Further, reduced federal funding for social services programs erodes 
funding for education by pitting funding for education against health 
care and other needs at the state level, undermining the states' 
ability to adequately fund their public schools.
 appendix a--the elementary and secondary education act of 1965: from 
               the war on poverty to no child left behind
    The largest source of federal support for K-12 education is the 
Elementary and Secondary Education Act (ESEA). Passed in 1965 as part 
of Lyndon Johnson's War on Poverty, ESEA has provided federal funding 
to the neediest students and schools for over 40 years. It has been 
reauthorized eight times--usually every five or six years--since 1965. 
In announcing his plan to construct a ``Great Society,'' President 
Johnson stated, ``Poverty must not be a bar to learning, and learning 
must offer an escape from poverty.'' \6\ Bolstered by the passage of 
the Civil Rights Act of 1964, elections yielding an increase in the 
number of Congressmen from northern, more urban areas, and his own 
landslide election victory, Johnson quickly won passage of ESEA. 
Representative John Brademas summarized the congressional sentiment 
behind Johnson's legislation, stating, ``Many of us in Congress and 
some presidents of both parties perceived that there were indeed 
genuine needs--in housing, health, and education--to which state and 
city governments were simply not responding. It was this inattention by 
state and local political leaders, therefore, that prompted us at the 
federal level to say, 'We're going to do something about these 
problems.' And we did.'' \7\
    ESEA created for the first time a partnership among federal, state, 
and local governments to address part of the larger national agenda of 
confronting poverty and its damaging effects by targeting federal aid 
to poor students and schools. It also was based on a ``grand'' 
compromise concerning federal aid to private and parochial schools. To 
avoid directly sending public dollars to parochial schools, ESEA 
instead directed public school districts to use a portion of their 
Title I funds to provide services to low-income students enrolled in 
private schools. This provision--known as equitable participation--has 
stood for over 40 years.
    Since then, ESEA has evolved in three major phases. From 1965 to 
1980, the reauthorizations of ESEA focused on whether Title I 
(providing the bulk of ESEA funds for targeted help to poor students 
and high-poverty schools) was to be considered truly targeted funding 
or whether it was cleverly disguised as general aid to education (today 
over 90 percent of school districts receive Title I funding). This 
period was also marked by evolving lists of ``allowable uses'' of Title 
I funds, from equipment to professional development to health 
services.\8\
    The second phase of ESEA--from about 1980 to 1990--saw no 
significant increases (when adjusted for inflation) in funding for the 
Act, and President Reagan block-granted and consolidated several ESEA 
programs. Also during this time, A Nation at Risk--a Reagan 
Administration commission report--was released and catapulted education 
onto the national political scene as an important issue to voters. The 
report clearly linked the state of America's schools to the nation's 
economic productivity. In the 1988 reauthorization of ESEA, the first 
significant shift in the distribution of Title I dollars occurred, 
conditioning the states' receipt of the funds upon some accountability 
for improved outcomes. Congress allowed Title I funds to be used for 
schoolwide programs (to support systemic improvement in schools where 
75 percent of students were in poverty) as a way to respond to the 
urgent call for more wide-sweeping reform outlined in Nation at Risk.
    Finally, from 1990 to the present, the education debate has been 
dominated by the desire of policymakers to see evidence that federal 
investments in education programs yield tangible, measurable results in 
terms of student achievement and success. The two main examples of this 
approach occurred in 1994 and in 2001, with the passage of President 
Clinton's Goals 2000 and the Improving America's Schools Act (IASA) and 
President George W. Bush's No Child Left Behind Act (NCLB).
    Not surprisingly, the Clinton reauthorization built upon the 
standards-based reform initiatives of many governors, including many 
who in 1989 attended President Bush's first-ever education summit of 
the nation's governors to discuss national standards or goals. Goals 
2000, passed in 1993, required all states to develop challenging 
standards for all students in reading and math, as well as issue school 
report cards. IASA went a step further and required states to develop 
and administer statewide assessments to all low-income students at 
least once in elementary school, once in middle school, and once in 
high school and to develop plans to improve their educational outcomes. 
While this policy movement occurred, congressional Republicans adopted 
a platform called the ``Contract with America,'' which called for, 
among other things, the abolition of the U.S. Department of Education. 
By early 1999, however, only 36 states issued school report cards, 19 
provided assistance to low-performing schools, and 16 had the authority 
to close down persistently low-performing schools.\9\ Ironically, 
President Clinton's Assistant Secretary for Elementary and Secondary 
Education, Tom Payzant, remarked later, ``The underlying policy 
direction of NCLB is consistent with the 1994 reauthorization, but 
there's a level of prescriptions with respect to implementation that 
[Democrats] would have been soundly criticized for trying to 
accomplish, had we done so.'' \10\
    In May of 1999, the Clinton Administration forwarded its ESEA 
reauthorization proposal to Congress (a proposal that called for more 
funding, particularly for class size reduction, school modernization, 
and after school programs). A group of centrist Democrats, led by 
Senators Joe Lieberman (D-CT) and Evan Bayh (D-IN) developed an 
alternative proposal. At the same time, conservative Republicans 
authored the ``Straight A's'' plan, which would have block-granted most 
federal education programs, shifting power and money to the state 
level. Due to these fractures, ESEA was not reauthorized in 1999. 
During the 2000 Presidential campaign, Governor George W. Bush and Vice 
President Al Gore both embraced continued emphasis on standards-based 
reform, but it was Bush who grabbed the Lieberman/Bayh blueprint, 
attached a large voucher proposal to it, and campaigned to ``leave no 
child behind.''
    In February of 2001, shortly after Bush assumed office, Senator 
Diane Feinstein (D-CA) sent a letter on behalf of several centrist 
Democratic Senators to the President indicating their support for the 
basic thrust of the Bush accountability proposal. Senator Ted Kennedy 
(D-MA), knowing that Democrats were not united around a common ESEA 
reauthorization plan, met shortly thereafter with the White House to 
begin negotiating a compromise. Throughout the spring of 2001, Senator 
Kennedy and Representative George Miller (D-CA) had ongoing discussions 
with the White House in which the Administration agreed to abandon 
quietly the fight for its voucher plan (helped tremendously by 5 
Republicans voting with all Democrats on the House Education and 
Workforce committee to strike voucher provisions from the Committee 
bill) in exchange for supplemental services and significantly more 
funding. By the summer, however, negotiations had slowed tremendously 
due to the difficulty in crafting an Adequate Yearly Progress (AYP) 
definition that did not over-identify schools. White House advisor 
Sandy Kress (a Texas Democrat who had helped Bush usher in an NCLB-like 
accountability system in Texas) met with an NEA-led task force of 
several major education groups to discuss the AYP definition. Kress 
stated that the White House did not wish to identify as low-performing 
so many schools that it would become impossible to target help to the 
schools most in need. Despite this expressed goal, the White House's 
involvement in actual negotiations began to lessen.
    In August, congressional staff had begun conference negotiations on 
the House and Senate bills. Following the September 11th terrorist 
attacks and the receipt in Senator Daschle's office of an anthrax-laced 
letter, most congressional buildings were locked down for intensive 
cleaning. As a result, the ``Big Four''--Senator Judd Gregg (R-NH), 
Senator Kennedy, Representative John Boehner (R-OH), and Representative 
Miller--began intensive, private negotiations and drafting sessions. By 
the time they concluded, ESEA's reauthorization, the ``No Child Left 
Behind Act,'' was 1,100 pages long. Members of both parties literally 
had a few days to review all of its contents before votes on the final 
legislation. In December 2001, the Senate voted 87-10 to approve the 
legislation, and the House approved it by a vote of 381-41.

                     THE ESEA IN HISTORICAL CONTEXT
------------------------------------------------------------------------
    Year        Public Law No.                    Title
------------------------------------------------------------------------
2002          107-110            No Child Left Behind Act of 2001
                                  (Public Law 107-110) requires annual
                                  testing in reading and math in grades
                                  3-8 and at least once in high school,
                                  requires science standards and
                                  assessments in at least three grades,
                                  requires that teachers and education
                                  support professionals meet new quality
                                  requirements, and sanctions schools
                                  that do not make adequate yearly
                                  progress.
1998          105-277            The 1999 Omnibus Appropriations Bill,
                                  including the FY 99 Budget for the
                                  Department of Education. The Reading
                                  Excellence Act and legislation
                                  authorizing the class size reduction
                                  initiative were also included.
1997          105-17             The Individuals with Disabilities
                                  Education Act (IDEA), to reauthorize
                                  and make improvements to that Act,
                                  which is designed to improve access to
                                  education for those with disabilities.
1994          103-382            Improving America's Schools Act of
                                  1994, reauthorized the Elementary and
                                  Secondary Education Act [ESEA]. Covers
                                  Title I, Safe and Drug-Free Schools,
                                  Eisenhower Professional Development,
                                  bilingual education, impact aid,
                                  charter schools, education technology
                                  and many other programs; also
                                  reauthorized the National Center for
                                  Education Statistics, amended General
                                  Education Provisions Act [GEPA] and
                                  several other acts.
1994          103-239            School-to-Work Opportunities Act of
                                  1994
1993          103-227            GOALS 2000: Educate America Act, also
                                  included reauthorization of the Office
                                  of Educational Research and
                                  Improvement [OERI]). Passed in 1993.
1993          103-33             To authorize the conduct and
                                  development of NAEP (National
                                  Assessment of Educational Progress)
                                  assessments for fiscal year 1994.
1991          102-119            Individuals with Disabilities Education
                                  Act Amendments of 1991 (IDEA)
1990          101-476            Education of the Handicapped Act
                                  Amendments of 1990
1989          .................  President George Bush convened the
                                  first education summit of the nation's
                                  governors. This summit led to the
                                  creation of the first-ever national
                                  goals for education: every child would
                                  come to kindergarten ``ready to
                                  learn,'' America would have a 90%
                                  graduation rate, students would master
                                  five core subjects before advancing
                                  past grades 4, 8, and 12; America's
                                  students would lead the world in math
                                  and science; all adults would be
                                  literate and prepared for the
                                  workforce; and every school would be
                                  safe and drug-free.
1988          100-297            ESEA Reauthorized as the ``Hawkins-
                                  Stafford Elementary and Secondary
                                  School Improvement Amendments of
                                  1988''--major change was allowing
                                  Title I funds to be used for
                                  ``schoolwide'' programs in schools
                                  where at least 75% of the students
                                  were at or below the poverty level.
1987          .................  Gallup poll reported that 87% of
                                  Americans believed that the federal
                                  government should require states and
                                  localities to meet some minimum
                                  national standards with respect to
                                  education.
1984          98-211             Education emerged as a top issue in the
                                  Presidential campaign; however, the
                                  Administration's political platform
                                  remained opposed to expanding federal
                                  involvement in education. ESEA
                                  reauthorized with rather technical
                                  changes. (Education Amendments of
                                  1984).
1981          .................  President Reagan's Secretary of
                                  Education, Terrel Bell, appointed the
                                  commission that issued the widely
                                  publicized report, ``A Nation at
                                  Risk.'' The report, which
                                  characterized America's public schools
                                  as mediocre at best, called for
                                  increased salaries and professional
                                  development for teachers, tougher
                                  standards and graduation requirements,
                                  and a more rigorous curriculum.
1981          97-35              ESEA reauthorized as the Education
                                  Consolidation and Improvement Act--
                                  block-granted several programs.
1980          96-88              Department of Education Organization
                                  Act, creating the USED. NEA helped
                                  author this legislation and promoted
                                  it as a top organization priority.
1978          95-561             Education Amendments of 1978
1975          94-142             Education for All Handicapped Children
                                  Act, the origin of today's IDEA.
1974          93-380             Education Amendments of 1974. Adds the
                                  Family Education Rights and Privacy
                                  Act (FERPA, also often called the
                                  Buckley Amendment).
1972          92-318             Education Amendments of 1972 (Title
                                  IX). Prohibits sex discrimination in
                                  education.
1967          90-247             Elementary and Secondary Education
                                  Amendments of 1967. Title IV of this
                                  act is known as the General Education
                                  Provisions Act [GEPA].
1966          89-750             Elementary and Secondary Amendments of
                                  1966. Adult Education Act is Title
                                  III.
1965          89-10;             Elementary and Secondary Education Act
              89-329              of 1965;
                                 Higher Education Act of 1965
1964          88-352             Civil Rights Act of 1964. Title IV
                                  covers education.
------------------------------------------------------------------------

               appendix iv: nea's 12 dropout action steps
    1. Mandate high school graduation or equivalency as compulsory for 
everyone below the age of 21. Just as we established compulsory 
attendance to the age of 16 or 17 in the beginning of the 20th century, 
it is appropriate and critical to eradicate the idea of ``dropping 
out'' before achieving a diploma. To compete in the 21st century, all 
of our citizens, at minimum, need a high school education.
    2. Establish high school graduation centers for students 19-21 
years old to provide specialized instruction and counseling to all 
students in this older age group who would be more effectively 
addressed in classes apart from younger students.
    3. Make sure students receive individual attention in safe schools, 
in smaller learning communities within large schools, in small classes 
(18 or fewer students), and in programs during the summer, weekends, 
and before and after school that provide tutoring and build on what 
students learn during the school day.
    4. Expand students' graduation options through creative 
partnerships with community colleges in career and technical fields and 
with alternative schools so that students have another way to earn a 
high school diploma. For students who are incarcerated, tie their 
release to high school graduation at the end of their sentences.
    5. Increase career education and workforce readiness programs in 
schools so that students see the connection between school and careers 
after graduation. To ensure that students have the skills they need for 
these careers, integrate 21st century skills into the curriculum and 
provide all students with access to 21st century technology.
    6. Act early so students do not drop out with high-quality, 
universal preschool and full-day kindergarten; strong elementary 
programs that ensure students are doing grade-level work when they 
enter middle school; and middle school programs that address causes of 
dropping out that appear in these grades and ensure that students have 
access to algebra, science, and other courses that serve as the 
foundation for success in high school and beyond.
    7. Involve families in students' learning at school and at home in 
new and creative ways so that all families-single-parent families, 
families in poverty, and families in minority communities-can support 
their children's academic achievement, help their children engage in 
healthy behaviors, and stay actively involved in their children's 
education from preschool through high school graduation.
    8. Monitor students' academic progress in school through a variety 
of measures during the school year that provide a full picture of 
students' learning and help teachers make sure students do not fall 
behind academically.
    9. Monitor, accurately report, and work to reduce dropout rates by 
gathering accurate data for key student groups (such as racial, ethnic, 
and economic), establishing benchmarks in each state for eliminating 
dropouts, and adopting the standardized reporting method developed by 
the National Governors Association.
    10. Involve the entire community in dropout prevention through 
family-friendly policies that provide release time for employees to 
attend parent-teacher conferences; work schedules for high school 
students that enable them to attend classes on time and be ready to 
learn; ``adopt a school'' programs that encourage volunteerism and 
community-led projects in school; and community-based, real-world 
learning experiences for students.
    11. Make sure educators have the training and resources they need 
to prevent students from dropping out including professional 
development focused on the needs of diverse students and students who 
are at risk of dropping out; up-to-date textbooks and materials, 
computers, and information technology; and safe modern schools.
    12. Make high school graduation a federal priority by calling on 
Congress and the president to invest $10 billion over the next 10 years 
to support dropout prevention programs and states who make high school 
graduation compulsory.
  appendix v: joint organizational statement on no child left behind 
                               (nclb) act
List of signers updated March 8, 2007
    The undersigned education, civil rights, children's, disability, 
and citizens' organizations are committed to the No Child Left Behind 
Act's objectives of strong academic achievement for all children and 
closing the achievement gap. We believe that the federal government has 
a critical role to play in attaining these goals. We endorse the use of 
an accountability system that helps ensure all children, including 
children of color, from low-income families, with disabilities, and of 
limited English proficiency, are prepared to be successful, 
participating members of our democracy.
    While we all have different positions on various aspects of the 
law, based on concerns raised during the implementation of NCLB, we 
believe the following significant, constructive corrections are among 
those necessary to make the Act fair and effective. Among these 
concerns are: over-emphasizing standardized testing, narrowing 
curriculum and instruction to focus on test preparation rather than 
richer academic learning; over-identifying schools in need of 
improvement; using sanctions that do not help improve schools; 
inappropriately excluding low-scoring children in order to boost test 
results; and inadequate funding. Overall, the law's emphasis needs to 
shift from applying sanctions for failing to raise test scores to 
holding states and localities accountable for making the systemic 
changes that improve student achievement.
Recommended Changes in NCLB
            Progress Measurement
    1. Replace the law's arbitrary proficiency targets with ambitious 
achievement targets based on rates of success actually achieved by the 
most effective public schools.
    2. Allow states to measure progress by using students' growth in 
achievement as well as their performance in relation to pre-determined 
levels of academic proficiency.
    3. Ensure that states and school districts regularly report to the 
government and the public their progress in implementing systemic 
changes to enhance educator, family, and community capacity to improve 
student learning.
    4. Provide a comprehensive picture of students' and schools' 
performance by moving from an overwhelming reliance on standardized 
tests to using multiple indicators of student achievement in addition 
to these tests.
    5. Fund research and development of more effective accountability 
systems that better meet the goal of high academic achievement for all 
children
            Assessments
    6. Help states develop assessment systems that include district and 
school-based measures in order to provide better, more timely 
information about student learning.
    7. Strengthen enforcement of NCLB provisions requiring that 
assessments must:
    <bullet> Be aligned with state content and achievement standards;
    <bullet> Be used for purposes for which they are valid and 
reliable;
    <bullet> Be consistent with nationally recognized professional and 
technical standards;
    <bullet> Be of adequate technical quality for each purpose required 
under the Act;
    <bullet> Provide multiple, up-to-date measures of student 
performance including measures that assess higher order thinking skills 
and understanding; and
    <bullet> Provide useful diagnostic information to improve teaching 
and learning.
    8. Decrease the testing burden on states, schools and districts by 
allowing states to assess students annually in selected grades in 
elementary, middle schools, and high schools.
            Building Capacity
    9. Ensure changes in teacher and administrator preparation and 
continuing professional development that research evidence and 
experience indicate improve educational quality and student 
achievement.
    10. Enhance state and local capacity to effectively implement the 
comprehensive changes required to increase the knowledge and skills of 
administrators, teachers, families, and communities to support high 
student achievement.
            Sanctions
    11. Ensure that improvement plans are allowed sufficient time to 
take hold before applying sanctions; sanctions should not be applied if 
they undermine existing effective reform efforts.
    12. Replace sanctions that do not have a consistent record of 
success with interventions that enable schools to make changes that 
result in improved student achievement.
            Funding
    13. Raise authorized levels of NCLB funding to cover a substantial 
percentage of the costs that states and districts will incur to carry 
out these recommendations, and fully fund the law at those levels 
without reducing expenditures for other education programs.
    14. Fully fund Title I to ensure that 100 percent of eligible 
children are served.
    We, the undersigned, will work for the adoption of these 
recommendations as central structural changes needed to NCLB at the 
same time that we advance our individual organization's proposals.

1. Advancement Project
2. American Association of School Administrators
3. American Association of School Librarians (AASL), a division of the 
        American Library Association (ALA)
4. American Association of University Women
5. American Baptist Women's Ministries
6. American Counseling Association
7. American Dance Therapy Association
8. American Federation of School Administrators (AFSA)
9. American Federation of Teachers
10. American Federation of State, County, and Municipal Employees 
        (AFSCME)
11. American Humanist Association
12. American Speech-Language-Hearing Association
13. Americans for the Arts
14. Annenberg Institute for School Reform
15. Asian American Legal Defense and Education Fund
16. Asian Pacific American Labor Alliance (APALA)
17. ASPIRA
18. Association for Supervision and Curriculum Development
19. Association of Community Organizations for Reform Now (ACORN)
20. Association of Education Publishers
21. Association of School Business Officials International (ASBO)
22. Big Picture Company
23. Center for Community Change
24. Center for Expansion of Language and Thinking
25. Center for Parent Leadership
26. Children's Defense Fund
27. Church Women United
28. Citizens for Effective Schools
29. Coalition for Community Schools
30. Coalition of Essential Schools
31. Commission on Social Action of Reform Judaism
32. Communities for Quality Education
33. Council for Children with Behavioral Disorders
34. Council for Exceptional Children
35. Council for Hispanic Ministries of the United Church of Christ
36. Council for Learning Disabilities
37. Council of Administrators of Special Education, Inc.
38. Cross City Campaign for Urban School Reform
39. Disciples Home Missions of the Christian Church (Disciples of 
        Christ)
40. Disciples Justice Action Network (Disciples of Christ)
41. Division for Learning Disabilities of the Council for Exceptional 
        Children (DLD/CEC)
42. Education Action!
43. Every Child Matters
44. FairTest: The National Center for Fair & Open Testing
45. Forum for Education and Democracy
46. Gender Public Advocacy Coalition (GPAC)
47. Hmong National Development
48. Indigenous Women's Network
49. Institute for Language and Education Policy
50. International Reading Association
51. International Technology Education Association
52. Japanese American Citizens League
53. Learning Disabilities Association of America
54. League of United Latin American Citizens (LULAC)
55. Ministers for Racial, Social and Economic Justice of the United 
        Church of Christ
56. National Association for the Advancement of Colored People (NAACP)
57. NAACP Legal Defense and Education Fund (LDF)
58. National Alliance of Black School Educators
59. National Association for Asian and Pacific American Education 
        (NAAPAE)
60. National Association for Bilingual Education (NABE)
61. National Association for the Education and Advancement of 
        Cambodian, Laotian
and Vietnamese Americans (NAFEA)
62. National Association for the Education of African American Children 
        with Learning Disabilities
63. National Association of Pupil Services Administrators
64. National Association of School Psychologists
65. National Association of Social Workers
66. National Baptist Convention, USA (NBCUSA)
67. National Coalition for Asian Pacific American Community Development
68. National Coalition for Parent Involvement in Education (NCPIE)
69. National Conference of Black Mayors
70. National Council for Community and Education Partnerships (NCCEP)
71. National Council for the Social Studies
72. National Council of Churches
73. National Council of Jewish Women
74. National Council of Teachers of English
75. National Education Association
76. National Federation of Filipino American Associations
77. National Indian Education Association
78. National Indian School Board Association
79. National Korean American Service & Education Consortium (NAKASEC)
80. National Mental Health Association
81. National Ministries, American Baptist Churches USA
82. National Pacific Islander Educator Network
83. National Parent Teacher Association (PTA)
84. National Reading Conference
85. National Rural Education Association
86. National School Boards Association
87. National School Supply and Equipment Association
88. National Superintendents Roundtable
89. National Urban League
90. Native Hawaiian Education Association
91. Network of Spiritual Progressives
92. Organization of Chinese Americans
93. People for the American Way
94. Presbyterian Church (USA)
95. Progressive National Baptist Convention
96. Protestants for the Common Good
97. Public Education Network (PEN)
98. Rural School and Community Trust
99. Service Employees International Union
100. School Social Work Association of America
101. Sikh American Legal Defense and Education Fund
102. Social Action Committee of the Congress of Secular Jewish 
        Organizations
103. Southeast Asia Resource Action Center (SEARAC)
104. Stand for Children
105. Teachers of English to Speakers of Other Languages (TESOL)
106. The Children's Aid Society
107. The Episcopal Church
108. United Black Christians of the United Church of Christ
109. United Church of Christ Justice and Witness Ministries
110. United Methodist Church, General Board of Church and Society
111. USAction
112. Women's Division of the General Board of Global Ministries, The 
        United Methodist Church
113. Women of Reform Judaism
                                endnotes
    \1\ Reports can be found at: http://www.21stcenturyskills.org/.
    \2\ A recent report from the NEA Research Department (Teacher Pay 
1940--2000: Losing Ground, Losing Status), based on U.S. census data, 
finds that annual pay for teachers has fallen sharply over the past 60 
years in relation to the annual pay of other workers with college 
degrees. The report states: ``Throughout the nation, the average 
earnings of workers with at least four years of college are now over 50 
percent higher than the average earnings of a teacher.'' Furthermore, 
an analysis of weekly wage trends by researchers at the Economic Policy 
Institute (EPI) shows that teachers' wages have fallen behind those of 
other workers since 1996, with teachers' inflation-adjusted weekly 
wages rising just 0.8 percent, far less than the 12 percent weekly wage 
growth of other college graduates and of all workers. Further, a 
comparison of teachers' weekly wages to those of other workers with 
similar education and experience shows that, since 1993, female teacher 
wages have fallen behind 13 percent and male teacher wages 12.5 percent 
(11.5 percent among all teachers). Since 1979, teacher wages relative 
to those of other similar workers have dropped 18.5 percent among 
women, 9.3 percent among men, and 13.1 percent among both combined.
    \3\ ``Why Money Matters,'' NEA Today, November 2006, http://
www.nea.org/neatoday/0611/feature3.html and http://www.nea.org/pay/
index.html.
    \4\ For more information about state initiatives, go to http://
www.teachingquality.org/twc/whereweare.htm.
    \5\ NEA member Marjorie Zimmerman, a middle school teacher from Las 
Vegas, Nevada, tells NEA ``My school was a high-performing school one 
year. Students, for the most part, are interested in learning and they 
perform well. The next year, because one too few students took the 
test, we were in need of improvement. This demonstrates that the 
requirements for meeting AYP certainly are not indicative of true 
academic progress by students in the school. Also, given the nature of 
standardized tests and the difficulty of improving as one moves toward 
the upper end of the spectrum, most schools will eventually be in need 
of improvement.'' See Voices from America's Classroom, with first-
person stories from all 50 states about the impact of NCLB, available 
at: http://www.nea.org/esea/nclbstories/index.html.
    \6\ Public Papers of the Presidents of the United States, U.S. 
Government Printing Office 1965, Lyndon B. Johnson, Book I (1963-1964): 
704-707.
    \7\ John Brademas, The Politics of Education: Conflict and 
Consensus on Capitol Hill, Norman: University of Oklahoma Press (1987), 
p. 77.
    \8\ Elizabeth DeBray, Politics, Ideology, and Education: Federal 
Policy During the Clinton and Bush Administrations, Teachers College 
Press (2006), p. 7.
    \9\ Ibid.
    \10\ Frederick Hess and Michael Petrilli, No Child Left Behind, 
Peter Lang Publishing (2006), p. 15.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Burmaster?

STATEMENT OF ELIZABETH BURMASTER, COUNCIL OF CHIEF STATE SCHOOL 
                            OFFICERS

    Ms. Burmaster. Good morning.
    Chairman Miller, Chairman Kennedy, Ranking Member McKeon, 
Senator Isakson and members of the committee, thank you for 
this opportunity to testify today on the No Child Left Behind 
Act.
    My name is Elizabeth Burmaster, and I am the elected 
Wisconsin state superintendent of public instruction, and I am 
testifying today in my capacity as the president of the Council 
of Chief State School Officers, the CCSSO.
    As the top education officials in every state, CCSSO's 
members are immersed daily in the implementation of the No 
Child Left Behind and have taken the lead in transforming No 
Child Left Behind from policy to practice over the last 5 
years, including leading the effort to develop state standards, 
state accountability systems, state assessments, state data 
systems and state teacher quality requirements, as well as 
overseeing the public education systems of our states.
    Chief state school officers are implementing this law, and 
we want to strengthen it so that it works.
    When Congress enacted the No Child Left Behind Act in 2001, 
state education reform efforts were uneven. Five years later, 
through strong state and local leadership, No Child Left 
Behind's core foundational reforms are now widely in place.
    Now, we have to build on those foundations with real 
innovations and new investments to dramatically improve student 
achievement, close achievement gaps and prepare all students in 
our nation for success in an interconnected 21st-century world.
    Now, to accomplish that goal, the reauthorized ESEA must 
evolve to fit with the next stage of standards-based reform, 
shifting from the law's current focus on prescriptive 
compliance requirements to a dynamic law focused on providing 
real incentives for innovative state and local models, along 
with fair and meaningful accountability for results.
    Innovation and rigor must be the foundation of the state 
and federal partnership if we are to achieve our nation's 
education goals. Innovation will strengthen this law and make 
it more effective in accomplishing its true intent.
    Congress cannot ask states to continue to drive the 
education reform process without giving us the authority and 
the capacity to lead. Chief state school officers have been the 
first to see how rigid implementation of the law has worked 
against the intent of the law in so many cases.
    The next generation of No Child Left Behind must ensure 
that state agencies have the ability to improve their education 
systems by building on the strengths and the assets that have 
proven to be successful in their state and at the local level.
    Last year, CCSSO issued an ESEA policy statement announcing 
three principles that must guide the reauthorization process 
and provide the basis for a new state-federal partnership. And 
this partnership must include: greater support and increased 
focused on innovation in building on the foundations of 
standards-based reform, including standards, assessments and 
accountability systems; building state and local capacity to 
improve learning opportunities for all students and to 
intervene in consistently low-performing districts and schools; 
and increased investment at the federal level in research, 
evaluation, technical assistance and collaboration to help 
inform state and local efforts to improve student achievement 
and close achievement gaps.
    In January, CCSSO announced eight recommendations to 
strengthen the law. We believe these recommendations are 
imperative if ESEA is to reflect the current, not the prior, 
education landscape and, most importantly, to ensure that all 
students are prepared in the future for post-secondary 
education, work and citizenship in the 21st century.
    In the United States, we have long held the belief that the 
days of our children would be better than our own, and a 
quality education is a civil right. The reauthorization of No 
Child Left Behind holds the potential to make that dream a 
reality for America's children.
    The chief state school officers of this country have 
submitted eight recommendations, which we believe will ensure 
No Child Left Behind lives up to its intent and its promise for 
America's children, and I have submitted those for the record.
    Thank you.
    [The statement of Ms. Burmaster follows:]

Prepared Statement of Elizabeth Burmaster, President, Council of Chief 
                         State School Officers

    Chairman Miller, Chairman Kennedy, Ranking Member McKeon, and 
Ranking Member Enzi, thank you for this opportunity to testify today 
about strategies for improving the No Child Left Behind Act. My name is 
Elizabeth Burmaster; I am the elected Wisconsin State Superintendent of 
Public Instruction, and I am testifying today in my capacity as the 
current President of the Council of Chief State School Officers 
(CCSSO).
    CCSSO is a nonpartisan, nationwide, nonprofit organization of 
public officials who lead departments of elementary and secondary 
education in the states, the District of Columbia, the Department of 
Defense Education Activity, and five U.S. extra-state jurisdictions. 
Our members are immersed daily in the implementation of the No Child 
Left Behind Act (NCLB) and have taken the lead in transforming NCLB 
from policy to practice over the last five years, including leading the 
effort to develop state standards, state accountability systems, state 
assessments, and state teacher quality requirements in addition to 
meeting many other responsibilities.
    When Congress enacted the No Child Left Behind Act in 2001, state 
education reform efforts were uneven. Five years later, through strong 
state and local leadership, NCLB's core foundational reforms are widely 
in place. Now, we must build on those foundations with real innovations 
and new investments to dramatically improve student achievement, close 
achievement gaps, and prepare all students and our nation for success 
in an interconnected, 21st century world.
    To accomplish that goal, the reauthorized Elementary and Secondary 
Education Act (ESEA) must evolve to fit with the next stage of 
standards-based reform, shifting from the law's current focus on 
prescriptive compliance requirements to a dynamic law focused on 
providing real incentives for innovative state and local models--along 
with fair and meaningful accountability for results. Innovation and 
rigor must be the foundation of the state and federal partnership if we 
are to achieve our nation's education goals. Reauthorization of ESEA 
must support this partnership and empower state and local efforts to 
prepare our children to compete in the 21st century.
    Under NCLB, state education agencies implement the law's education 
reforms by requiring, among other things, state assessments, state 
accountability systems, state interventions, state teacher quality, 
state standards, and state data systems. Congress cannot ask states to 
continue to drive the education reform process without giving them 
authority and capacity to lead. The U.S. Department of Education 
strictly enforced the rigid prescription of the current language of the 
law. Chief State School Officers have been the first to see how this 
rigid prescription has worked against the intent of the law in many 
cases. The intent is to raise student achievement and build community 
support for reform efforts to close the gap in achievement that exists 
throughout our country. The next generation of NCLB must ensure state 
agencies have the ability to improve their education systems by 
building on the strengths and assets that have proven to be successful 
in their state at the local level.
    Last year CCSSO issued a high level ESEA reauthorization policy 
statement announcing three principles that must guide the 
reauthorization process and provide the basis for a new state-federal 
partnership. This partnership must include: (1) continued support and 
increased focus on innovation and autonomy with regard to the 
foundations of standards-based reform, (2) a greater focus on building 
state and local capacity to improve learning opportunities for all 
students and to intervene in consistently low-performing districts and 
schools, and (3) increased investment in research, evaluation, 
technical assistance, and collaboration to help inform state and local 
efforts to improve student achievement and close achievement gaps.
    In January, CCSSO announced eight recommendations meant to 
operationalize these three core themes within the context of NCLB. We 
believe these recommendations are necessary to update and improve ESEA 
to reflect the current--not prior--education landscape and most 
importantly to ensure that all students are prepared in the future for 
postsecondary education, work, and citizenship in the 21st century.
    The eight recommendations are as follows:
    INNOVATIVE MODELS and PEER REVIEW: The reauthorized ESEA should 
encourage, not stifle, innovation, and it should improve the peer 
review process to make it a true state-federal partnership. In that 
spirit, the law should be amended to remove and recast NCLB's current 
``waiver'' authority to indicate that the Secretary ``shall'' approve 
innovative models where states can demonstrate, through a revised peer 
review process, good faith, educationally sound strategies to raise the 
bar for standards-based reform. States must have a role in the 
selection of qualified peers, and we should ensure the process focuses 
on technical assistance, full transparency, real communication and 
dialogue with states, consistency in peer review standards and outcomes 
across states, timeliness of feedback and results, dissemination of 
promising practices, and more.
    ACCOUNTABILITY: The reauthorized ESEA should encourage use of a 
variety of accountability models focused on individual student 
achievement that build on adequate yearly progress (AYP) to promote 
more valid, reliable, educationally meaningful accountability 
determinations. Among other things, the new law should ensure states' 
right to use true growth models to complement status measures (to 
follow the progress of the same students over time at all performance 
levels).
    DIFFERENTIATE CONSEQUENCES: The reauthorized ESEA should encourage 
a full range of rewards and consequences for districts and schools that 
differ appropriately in nature and degree, based, for example, on 
whether schools miss AYP by a little versus a lot. In that context, the 
new law should permit states to exercise appropriate judgment and 
differentiate both accountability determinations and consequences based 
on sound evidence.
    IMPROVE ASSESSMENT SYSTEMS: The reauthorized ESEA should encourage, 
though not require, use of a variety of state and local assessment 
models. CCSSO urges Congress to amend NCLB to permit states to promote 
the use of multiple state and local assessments (including assessments 
that can show growth at all levels) and ensure states' right to vary 
the frequency and grade spans of assessments. CCSSO also urges Congress 
to provide continued support for states to strengthen assessment 
systems.
    STUDENTS WITH DISABILITIES: The reauthorized ESEA should encourage 
inclusion of students with disabilities in state assessment and 
accountability systems in a manner that is most meaningful for the full 
range of students with disabilities, based on ambitious but 
educationally sound performance goals and measures. In this context, 
the new law should permit use of alternate assessments measured against 
alternate/modified achievement standards based on individualized growth 
expectations across grade levels as needed for some students.
    ELL STUDENTS: The reauthorized ESEA should encourage inclusion of 
ELL students in state assessment and accountability systems in a manner 
that is most meaningful for the full range of ELL students, based on 
ambitious but educationally sound performance measures and goals. The 
new law should permit states to properly include new immigrant ELL 
students in school accountability based on multiple measures for 
several years, where educationally appropriate. The law should also 
allow the use of a full range of alternate assessments and value 
individualized growth.
    ENHANCE TEACHER QUALITY: The reauthorized ESEA should create 
incentives for states to create the best teaching force in the world by 
continuously improving teacher quality, supporting best-in-class 
professional development, and encouraging use of individual pathways to 
pedagogical and subject matter expertise. The law should incentivize 
continued improvement in teacher quality in a meaningful manner. 
Recommended changes include counting newly hired teachers (particularly 
rural, special education and ELL teachers) as ``highly qualified'' when 
they meet standards in their primary subject areas and are on a pathway 
(of no more than three years) with regard to additional subjects based 
on HOUSSE.
    STRENGTHEN RESOURCES: The reauthorized ESEA should retain and 
provide additional funds at the state level that appropriately reflect 
the increased roles and responsibilities placed on states under ESEA. 
The law should authorize additional, long-term, consistent funding for 
state education agency action and intervention in underperforming 
districts and schools. This includes key areas such as state 
assessments (particularly including alternate assessments and English 
proficiency assessments), state data systems, technology, and research 
and development to inform state and district efforts.
    As the leading education officials representing 49 states and five 
territories, we intend to work hand-in-hand to achieve these eight 
critical ESEA priorities, and we look forward to working with Congress 
and our partners in the education community to implement the next 
generation of standards-based reforms.
    Moving from NCLB to every child a graduate will require strong 
state leadership and action from all levels of government, and beyond. 
This includes a new and meaningful state-federal partnership--one in 
which states and districts constantly improve and innovate and are 
supported by federal law. By working as true partners, we believe we 
can make a major difference in the lives of every student.
    These eight important areas represent our core reauthorization 
priorities, but we acknowledge that other vital issues must be 
addressed during the reauthorization process, and we are open to 
lending our experiences and expertise to the broader debate about how 
to improve and build upon No Child Left Behind.
    Thank you for your leadership on these important issues. I look 
forward to responding to any questions you may have.
                                 ______
                                 
    Chairman Miller. Well, thank you very much.
    And thank you to all of the panelists for your testimony.
    We will begin with questions, and we will proceed until 
noon, and we will just start in the order of members of 
seniority here.
    If I might begin, Mr. Casserly, you talk about the problem 
of schools in need of improvement and the year-to-year 
cascading sanctions, as you called them. And you have suggested 
that there should be a longer window available so that schools 
can in fact put in place a program that the district or school 
believes is going to work and work their way back to AYP--let's 
forget the definition of AYP for a moment--but that they would 
work their way back into being compliant.
    And also, Ms. Burmaster, you also mentioned about the 
differentiated sanctions, and I was just wondering if you two 
might comment. I don't know if you know one another's proposal 
here, but I think you are addressing somewhat the same problem 
and what happens to schools when they fail to make AYP.
    Ms. Burmaster. Certainly. I am pleased that so many groups 
are beginning to understand this problem, because a school that 
misses AYP by a little faces the same as the school that misses 
AYP by a lot. That, essentially, leads to a lack of credibility 
for the law at the local level, and it leads to a 
misidentification of schools in the eyes of the public, and 
that works against us, when local communities begin to question 
the credibility of this law.
    And so we have made a recommendation for a differentiation 
of consequences under the law so that states could address 
that, to have some innovative ways of dealing and addressing 
the highest-needs schools.
    Chairman Miller. Thank you.
    Mr. Casserly?
    Mr. Casserly. Yes. Let me not address the issue of 
overidentification for a second but what might replace this 
notion of ever-changing or cascading sanctions.
    As the committee knows, when No Child Left Behind was 
passed, it put schools in school improvement I where a set of 
actions are required, then school improvement II where another 
set of actions were required, and then corrective action where 
another set of actions are required, then restructuring.
    We have discovered that one of the problems that at least 
urban schools have, I suspect lots of other kinds of schools as 
well, is that they are chasing an ever-changing set of 
activities and procedures without ever having the time over the 
course of that year, sometimes they have less than a full 
school year, to implement the procedures in order to see any 
effect before they fall into the next set of sanctions.
    So what we were proposing was combining school improvement 
I, school improvement II and corrective action into a single 3-
year phase devoted solely to school improvement and 
intervention, where the school would be required to spend the 
equivalent of 30 percent of its Title 1 money on professional 
development, other intervention and instructional systems, 
benchmark assessments and other kinds of things that we know 
that schools that are turning around use.
    At the end of that 3-year period, if you still could not 
make improvement in at least 2 of the 3 years, one of two 
things would happen--I guess, one of three things: One, if you 
did make improvement, you would go back to the beginning, kind 
of like in current law. However, if you didn't make 
improvement, we would look at the degree of improvement, how 
persistent or pervasive the failure was.
    If you hadn't made improvement in two of the three core 
subjects and that failure involved half or more of the students 
in that school, then you would fall into a situation where you 
had to reconstitute that school or close it.
    If the nature of the failure, however, misses--more to Ms. 
Burmaster's point--if the nature of the failure only involved a 
subgroup or two but that did not involve the majority of the 
students in that school, then you would be required to do a set 
of activities that related just to the failure of those 
subgroups or students.
    So we keep the sanctions in the law, but we give the 
schools time to put in place an instructional system to raise 
student achievement and to bear down on it in a way that the 
current law doesn't really allow you time to do.
    Ms. Burmaster. Senator Miller, could I----
    Chairman Miller. Yes.
    Ms. Burmaster [continuing]. Comment along those lines?
    What we are hearing from our membership also, the other 
chiefs, is that this would be an example in this area of 
perhaps less prescription on the part of the federal government 
and allowing for innovation at the state level.
    For instance, this missing AYP by a little or a lot. You 
could have a school under the law miss AYP because 94 percent 
test participation, as opposed to 95 percent test 
participation. And you could have another school that missed 
reading and math proficiency for all students. Those are two 
very different ways of missing AYP.
    And if the states had the flexibility to really look 
carefully at the real data of those schools and then be able to 
address intervention involving in local school districts 
parents, the community in the kinds of interventions that would 
perhaps best help that school in delivering on AYP, continuing, 
perhaps, they would want to have an extended calendar or offer 
summer school or----
    Chairman Miller. I am going to cut you off just because of 
the time. We have a lot of members here. But thank you very 
much.
    I am just concerned that 3 years is a long time in a young 
child's life, and the question is to get that school to 
perform.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman.
    The more I talk to people about this, the more difficult 
the task I see is before us. We started hearings last year. I 
think we held four here in Washington, we held one in Chicago. 
And then I have done quite a bit of traveling around the 
country in different congressional districts, meeting with 
people, pulling together groups of parents, teachers, 
principals, superintendents, board members and trying to find 
from them what we should do to improve the act.
    The process here: We pass an act, then we reauthorize the 
act, and that is the opportunity to address things that--we 
start out with an idea and by the time it gets to the end of 
the road, after the regulations and the implementation and all 
the process is met, it might be totally different from what we 
started out to do. And then we find that we have made mistakes 
or things don't go exactly the way we figured and so we have to 
come back and readdress those.
    We all, I believe, have the same goal, and that is to give 
every single child an opportunity to reach their full potential 
in realizing the American dream.
    In every one of the meetings I held, similar things came 
up: What can we do to have more supplemental services, how 
could that be addressed more, how could that be improved so 
that everybody knows the opportunities are there? What can we 
do about improving English-language-learners?
    What can we do with special ed, where you have different 
columns and maybe one student, even, could either pull you down 
or lift you up in two or three different columns that would 
have quite a bit of change there? If you have a female minority 
special ed student, it could pull you up or push you down in 
those different columns.
    Growth models, how that could be used to where you really 
are testing students against themselves instead of a class that 
is following along behind them. Qualified teachers versus 
effective teachers or both, how do they fit the mix.
    National standards even came up a few times, and you talked 
about it in your testimony today. I think that is a problem, 
but the Constitution spells out what our responsibilities are 
and what the state responsibilities are, and I don't know that 
we have the votes to change the Constitution nor the will to do 
so.
    And when we are sitting around talking in groups like this, 
we are all coming from specialized segments. I sat on a local 
school board for 9 years and had lots of frustration.
    I am from California. Our frustration was more with 
Sacramento than it was with Washington. And I found that there 
is a lot of misunderstanding. Some people blame the federal 
law, when it is really the state implementation of it that is 
in conflict. And then you sitting at the state level worry 
about the federal government, the impositions.
    Specifically, I had a meeting this morning with some 
parents from D.C. who are more concerned about parental choice 
and how they can get their students out of some schools and 
into other schools.
    Mr. Henderson, do you believe that the parents of minority 
students in schools that are identified as in need of 
improvement are receiving adequate and timely information about 
the supplemental education services that they are entitled to 
under the law? Do you believe they are receiving that?
    Mr. Henderson. Mr. McKeon, let me answer your question with 
a slightly broader perspective, because I am a native 
Washingtonian. I am a product of the public school system here, 
as well as graduate and law schools outside of Washington. But 
I am familiar with the school system in great detail, and my 
own children were products of the school system.
    Let me say to you that, as someone who grew up with one 
foot in a world of segregated America where apartheid was the 
law of the land and who started school at the time that the 
Supreme Court decided the Brown case, I look back over the last 
50 years with horror and dismay as I recognize that the promise 
of Brown has not been fulfilled, not only in Washington, D.C. 
but in school districts all around the country.
    The great irony of the United States being the world's 
beacon of democracy: having a school system which is subpar in 
its nation's capital, or within a several-mile radius of the 
Capitol you have over 100 schools that fail to meet the 
adequate yearly progress requirement of No Child Left Behind. 
That is an indictment, which, in my view, speaks for itself.
    The issue isn't so much timely information, although let's 
put that in the mix of things to be considered. And you have 
outlined, I think, a very complex problem of how you tackle 
what has been a difficult interaction of issues with respect to 
providing quality education.
    But I guess I would say the following: It is important to 
disaggregate the requirements of the law, number one, to 
recognize that there are certain focus efforts which are 
priority efforts, Title 1 being an example of that.
    Title 1 was never intended to equalize funding between rich 
and poor school districts. That is a problem to be left to the 
states. This should be providing additional resources that 
can't be provided at the state level. There has to be a focused 
recognition that the needs of students go beyond what this 
statute will address.
    For example----
    Chairman Miller. I am going to ask you to wrap up.
    Mr. Henderson [continuing]. The State Child Information 
Health Insurance Program is up for reauthorization, and that 
needs to be a part of the mix. You can't have kids preparing 
for tests when they can't get eye exams, when they are 
uncovered by insurance.
    My point is this: It is a more complex issue than your 
question would suggest. It involves many more factors than 
simply an adequate array of information.
    And I would urge those who are most committed to carrying 
out the requirements of the law that they follow the law, that 
they follow the law and provide resources where necessary, as 
the law requires.
    Chairman Miller. Thank you.
    Senator Kennedy?
    Senator Kennedy. Thank you. Thank you very much, Mr. 
Chairman.
    Let me just sort of follow along a little bit on what Mr. 
Henderson mentioned and something also that Reg Weaver 
mentioned, and that is what is happening in terms of the school 
dropouts, or the fact that where you have many, as Mayor Street 
mentioned when the meeting of the mayors--they have 175,000 
children go to the Philadelphia systems and 80,000 of them--
80,000 of them--sometime in the year do not show up in school. 
We heard 20,000 in Cleveland, Ohio, these children aren't 
attending schools.
    And in my hearings around my own state of Massachusetts, I 
have been absolutely aroused by the fact that so many of the 
schools that are in an impoverished area, the statements and 
the comments of teachers that say the problems of poverty have 
become more intense than they were 5 years ago, that the 
parents are more played out than they were 5 years ago in being 
able to participate, the schools have deteriorated over the 
period of 5 years ago.
    And whether we are coming down and looking at all of these 
points I mentioned in my opening statement, I believe very 
deeply, how we are really going to begin to get a grip on 
something which is a matter of national importance, a national 
urgency. We certainly recognized that in the 1960s that we are 
going to say impoverished children in this country are going to 
be a matter of national urgency and a problem.
    And I am not sure if we do all the things that have been 
recommended, and it is a remarkable similarity of things that 
have been recommended during this, recognize the complexity 
that we have in getting good teachers in underserved schools 
and keeping them there. With all of the different 
recommendations that we have, we have seen some examples.
    But how worked up should we be on this? I will watch the 
time, but if each of you could take a quick crack at it, 
recognizing I have only got probably a couple more minutes 
left.
    Governor Barnes? And then maybe we will go down quickly.
    Mr. Barnes. It is a problem that you should be concerned 
about. Forty percent in Georgia never graduate.
    Let me tell you the reason children leave school. The 
reason they leave school is they become frustrated at not being 
able to do the work in high school. Our kids do very well 
nationally and internationally at the 4th grade level. They 
fall off the end of the Earth at the 8th grade; they drop out 
at the 9th grade.
    In my view--I want to say this is not in the report, 
because it was not our focus--and there is a lot of attention 
on high schools these days. I think we need to remake middle 
schools, because what happens is children cannot, particularly 
in math, they can't make the transition, or are having 
difficulty making the transition, from a quantitative system of 
arithmetic to a qualitative system of algebra. And so they 
become frustrated and they drop out in the 9th grade.
    We know that if a child completes algebra in the 8th grade, 
successfully completes algebra in the 8th grade, they have a 
two-thirds chance of graduating from high school. If they are 
reading on the grade level by age 4, they have a 60 percent 
chance.
    Mr. Henderson. I would associate myself with the governor's 
remarks.
    I would also add, though, Senator, as you, yourself, 
pointed out, the effects of concentrated poverty today are more 
serious, significant than they have ever been.
    I mentioned before that there are collateral programs like 
the State Children's Health Insurance Program that needs to be 
funded. Well, I will say to you that the crisis is more severe 
than I think you, even yourself, have identified.
    When you are losing 50 percent of black students, over 50 
percent of Latino, Native American students, and when only 75 
percent of white students are graduating from high school, you 
have a pending crisis of immense proportion. And 30 years from 
now, as we begin drawing on the workforce of tomorrow, that 
problem will become even more acute.
    Mr. Rothkopf. Yes. I agree really with the governor and Mr. 
Henderson.
    I think one other thing we might be looking at is 
increasing, if you will, the relevance of high school. Many of 
the dropouts--and we hear this from our chamber members around 
the country--many of the dropouts have trouble seeing the 
relevance of what they are doing in high school to, if you 
will, the job market and what they do afterwards. They don't 
recognize the need for it.
    So I think we may need to focus somewhat more on career and 
technical education. I am not talking about reducing standards 
or the rigor of those standards, but I think we need to have 
much more of a focus on what happens, at least to those 
youngsters who aren't thinking about going on to college or 
post-secondary, as to the relevance of what is being learned in 
high school.
    Chairman Miller. Mr. Casserly?
    Mr. Casserly. Yes. I would also like to associate myself 
with Mr. Rothkopf's remarks. I think a lot of this is students 
just not seeing the future for themselves in the work that they 
are doing or the work that they think they might ultimately be 
doing. And we have to do a better job at the high school level 
of making that connection.
    Chairman Miller. Mr. McElroy?
    Mr. McElroy. I would concentrate my resources, which are 
limited, at the other end of the spectrum. I would start with a 
good, quality early childhood education so that the gap that 
exists when these kids come to school from high-poverty areas 
would be lessened or reduced or eliminated. I would put 
resources into special services to kids who fell behind the 
first, second, third year of school.
    Chairman Miller. Mr. Weaver?
    Mr. Weaver. We need a comprehensive approach. We have a 12-
point dropout plan that I certainly would encourage you to look 
at, a comprehensive approach. We need community engagement, we 
need resources for health care and other areas that impact 
children's learning or children dropping out of school.
    Chairman Miller. Ms. Burmaster?
    Ms. Burmaster. It begins with early childhood to minimize 
the adverse effects of poverty, and then by the time a child is 
12 and they can vote with their feet by attending or not, it 
gets to student engagement. That requires professional 
development for teachers to know how to make sense for the 
young person as to what they are learning in the classroom, how 
it applies to the real world.
    Chairman Miller. Senator Isakson?
    Senator Isakson. Thank you, Chairman Miller.
    I want to commend Governor Barnes's response to that last 
question, and it is a reminder to all of us that we are talking 
about the reauthorization of No Child Left Behind. The kids 
that are in the fifth year of No Child Left Behind today, kids 
that started under kindergarten 5 years ago, are in the 4th 
grade. If we can get it reauthorized, do some of the tweaking 
and improvements, some of the things that are recognized, 4 
years from now we will have kids leaving middle school, going 
to high school, under 8 years of No Child Left Behind.
    I think that will have a remarkable impact on the dropout 
rate if they are competing at math and reading at grade level. 
I commend Governor Barnes in his testimony.
    Governor Barnes, you quoted Don Iglesias of San Jose who 
has a great quote, which I want to read: ``Experience in 
credentials do not always equate to a teacher that effectively 
delivers instruction, and the 'highly qualified' definition has 
been problematic in No Child Left Behind.''
    That quote begs alternative certification as some 
consideration for an effective teacher. What considerations to 
alternatively certify a teacher as effective would you 
recommend?
    Mr. Barnes. Well, there is no question that alternative 
certification has to be part of the production of teachers in 
the future.
    Our problem in teaching is more of a retention problem than 
it is of training. For example, we do have shortages, and we 
are going to have shortages, but 40 percent of the teachers 
leave in 3 years, 50 percent of them leave in 5 years. So you 
have to have a better retention, and that goes to work quality 
and some wages, even when you do the summaries and the studies, 
they say that it is working conditions more than anything else.
    Secondly, states like New Jersey, 40 percent of the 
teachers in New Jersey are alternatively qualified. I do think 
that we have to make sure that they are qualified as to subject 
matter, but we also have to--and the byproduct of growth models 
is being able to use and identify teachers that not should be 
labeled--and I agree with Mr. McElroy and Reg Weaver--not that 
should be labeled in any way, but should be helped with 
professional development. And that is part of the retention.
    We have had a very successful alternative. Of course, you 
were chair of the school board and you know we started it when 
you chaired the school board, and then we expanded it when I 
was governor. There are people that want to teach. The first 
group that we had, we had 4,000 people that applied for 1,500 
seats to be alternative certified. Two were physicians, three 
were engineers, one had a Ph.D. in child literature from Oxford 
University--not the one in Oxford, Georgia, but the one over in 
England. [Laughter.]
    And they wanted to be teachers, but they did not want to go 
through all the pedagogy.
    Now, should they be taught pedagogy? They should, but there 
are more ways to learn it than just simply having to sit in the 
classroom. So I think alternative certification is a thought 
whose time has come.
    Senator Isakson. Thank you for that answer.
    And just one other question, and I think you inferred it. 
When you were talking about the growth model--and I am very 
intrigued by that, because, as Ms. Burmaster said, right now, 
we have two alternatives and that is you are good or you are 
bad, and there is nowhere in between on the needs improvement 
assessment.
    Did I hear you say also that a properly calibrated growth 
model might also help us not to lose teachers who are leaving 
the system?
    Mr. Barnes. Yes. What happens is the natural byproduct of 
the data system. If you have a growth model, you have to have a 
data system that measures where children are where they start 
and where they end so that you can see if they have made more 
than a year's progress in a year. That is the whole definition 
of growth model.
    When you do that, one of the natural byproducts of it is 
that you see which teachers are having the greatest learning 
gains. And what we recommend is that you take the 25 percent 
that are having the least learning gains, we don't brand them 
and we don't say that the test is the sole test, but that you 
concentrate your professional development in the area. And the 
effectiveness, the growth learning, should not be more than 50 
percent in determining that.
    Let me say one other thing, too, about growth models, and 
this came up, too, about misidentification. We heard a lot 
about two groups in the disaggregated groups. If we could just 
do something with these two groups, we would make AYP, and all 
of you know what it is: English-language-learners and special-
needs kids.
    We looked at that, we examined it in great depth. What we 
said in English-language-learners is we kept the time period of 
3 years the same but we said that you could average over the 3 
years, so you didn't have a new group each year. So it gave 
some relief on AYP.
    On special-needs kids, we adopted basically what DOE has 
adopted: One percent of them could have alternative methods of 
assessment and another 1 percent could have supplemental 
assistance in the assessment.
    Now, the reason we did this--and, listen, we heard some 
horrifying stories from parents too about this, who they 
thought it was unfair to put their child to meeting the 
assessment--is the danger of forgetting these kids again. If we 
don't require them to be counted in the disaggregated, we don't 
have to worry about them. Then these special-needs kids and 
English-language-learners become invisible children.
    And so they have to remain in the--I suggest to you, and 
you are going to get a lot of pressure on this and a lot of 
discussion--they have to remain in the mix of what is being 
counted. Yes, give some flexibility on the growth, but don't 
make them invisible.
    Senator Isakson. Thank you, Governor.
    Chairman Miller. Thank you.
    Congressman Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    I have always believed that education is a local function, 
a state responsibility, but a very, very important federal 
concern. It is a federal concern for two reasons: where we live 
in a very mobile society, people move around the nation, and we 
are competing in a global economy, so it has to be a very 
important federal concern.
    But how can we prod the states and the local education 
agencies to do more? I ask that because I left teaching in 
Flint, Michigan, on January 1, 1965, when I was elected to the 
state legislature. That is the same year that ESEA was passed.
    The federal government has increased its involvement, its 
federal concern, has demonstrated its federal concern a great 
deal in those years. But the quality of education in Flint, 
Michigan--not the quality of teaching, the quality of 
education--in Flint, Michigan, has deteriorated since 1965.
    Along with the increased federal concern, what can we do to 
prod, encourage the LEAs, the local education agencies, and the 
state education agencies, or the state to do more to address 
what is happening? We have had some tragedies in Flint, 
Michigan, some real tragedies.
    Governor, I will start with you.
    Mr. Barnes. I should let somebody else talk.
    Well, first, you elect good leaders that understand that 
education is the building block of our future prosperity. I am 
going to speak in common parlance of something down my part of 
the country. Textile mills are never coming back to Georgia, 
they are gone. And the new product of America--leaders have to 
understand, the new product of America must be innovation and 
skills. The new currency is not dollars and cents; it is 
knowledge and learning. So, first, you have to have leaders 
that understand that.
    Secondly, you have to have accountability. North Carolina 
has made the greatest progress since 1990 in education of any 
state in the nation. Did they have all the money in the world? 
No. They have had more. They had great leaders like Jim Hunt 
and Terry Sanford and others that saw that education was the 
building blocks of that new economy. But what they did is, the 
leadership instilled the need and then they provided more 
funds, but they provided accountability--accountability for 
higher standards.
    Let me just say one last thing about the standards, because 
I think that is part of it too. When I was a kid growing up in 
Mableton, Georgia--I know you would never think I was from the 
South--but when I was a kid growing up in Mableton, Georgia, I 
saw that I was going to compete against kids in Marietta, 
Georgia, or Macon, Georgia. Children now that graduate compete 
against kids in Beijing and New Delhi and Berlin.
    And, yes, I do think that we have to take a look at some 
national standards. Now, they shouldn't be mandatory--goes back 
to the issue that you have--but in math and science we have 
gone on the international math and science test from 17th to 
22nd in the last few years. We can't do that and remain 
prosperous as a people.
    And what we recommend in the commission in regard to that 
is that NAEP, under the same framework, that we devise tests 
testing the major subjects of math, science and otherwise that 
NAEP devises. And then if a state adopts those tests that meets 
the national standards, then it is automatic approval at the 
DOE that they are married. They don't have to adopt the 
national standards, but there is truth in advertising.
    And I will use my own state as a good example. My own state 
says that on their test they administer, 80 percent of the 
children are proficient. You know what NAEP says at 4th grade 
in reading? Twenty-six percent. My own state says that 80 
percent of the children in the 4th grade math are proficient, 
but NAEP says 30 percent.
    That is not truth in advertising. It does not instill in 
those parents and voters the wherewithal to go out there and 
kick their public officials to raise the standards in Flint, 
Michigan, because they are being told everything is okay.
    And so what the new standards would do: If you don't adopt 
the new standards, you don't have to, but the DOE is going to 
print every year to 2 years how you compare on the national 
standards, so the parents can become involved and push their 
elected officials to raise the standards and do better. And it 
can happen.
    I will hush. I could go on, but I will hush.
    Mr. Kildee. Mr. Casserly, do you have any comments on that?
    Mr. Casserly. Well, my first comment is, I am sorry that 
Flint is not part of our group, because I think we might be 
able to help them a little bit.
    Mr. Kildee. Come visit us.
    Mr. Casserly. But one of the things that we are learning 
from other urban school districts about how it is that they are 
improving achievement is pretty consistent from district to 
district. Now, it doesn't mean we have reached the promised 
land in terms of student achievement; we haven't. It is still 
low, we still have gaps, but we are making headway.
    What these faster-improving urban school districts are 
doing is built around a clear, sustained agenda for student 
improvement, clear goals that everybody knows that they are 
supposed to meet, accountability systems, as the governor said, 
by which the adults are held responsible for the achievement of 
the kids, strong curriculum aligned to very good, high-level 
state standards or national standards, professional development 
systems on the curriculum and good instruction, ways in which 
instruction is monitored to make sure that good academic rigor 
is sustained in the classrooms, good data systems, regular 
assessments and a clear focus on some of your lowest-performing 
students.
    All of those things locked together systemically is what is 
really producing the achievement progress in a lot of these big 
city school districts, and Flint might want to take a look at 
some of those.
    Mr. Weaver. Mr. Chair, I think also safe and orderly 
schools, qualified and certified teachers, state-of-the-art 
technology, parental involvement, counselors, smaller class 
sizes, challenging curriculum--those are the things that we 
know work in schools. Wherever you find high degrees of 
success, you will find almost each and every one of those 
things existing.
    And so I would suggest that we look at the conditions that 
exist for 85 percent of the richest parents and their children, 
which is the public school, and implement those same kinds of 
conditions in Flint and every other system, whether it is 
rural, urban or suburban, and I think that you will have 
success.
    Mr. Kildee. Thank you, Reggie. You are always welcome back 
to Flint.
    Thank you, Mr. Chairman.
    Ms. Burmaster. Congressman, could I add also, I would be in 
full agreement with my colleagues, and I would also add quality 
early childhood education to the list.
    Mr. Rothkopf. If I might just add one factor that hasn't 
been talked about and that is, we think, a critical one, and 
that is the need for the K through 12 system--and it goes to 
the standards--to align itself with higher education and with 
the business community.
    I think there has been a disconnect between what K through 
12 is teaching and then what is needed to get a good job, a job 
in your community, as you start changing what is going on and 
the nature of your economy, and also focus on the business 
community as well as higher education.
    Those groups need to sit down, and part of our proposal is 
that there be incentives provided to align those interests. We 
think that is a critical nature and a critical element of what 
has to be done.
    Mr. Henderson. I have to add one last point, though, Mr. 
Kildee, which is that the system you have described----
    Chairman Miller. Do it quickly.
    Mr. Henderson [continuing]. 93 percent funding from the 
state, 7 percent from the federal government, moves too slowly 
to bring the kinds of changes that the system requires. And it 
will only happen once we redefine the nature of the problem.
    This has to be based on rational self-interest, rightly 
understood at the state level. This is about national security, 
it is about the global economy. And we are not going to be able 
to frame this issue exclusively around questions of equity and 
expect the states to do more than they have already done.
    So it has to involve much more of a recharacterization of 
the nature of the problem and it has got to be federalized in 
ways that thus far feds and states have been unwilling to do.
    Chairman Miller. Mr. Hoekstra?
    Mr. Hoekstra. Thank you, Mr. Chairman.
    We are heading down a path we are going to have a national 
curriculum. We have got math and reading. You are arguing for 
including science; my state is arguing for including history, 
geography, government, econ and civics. Some are talking about 
adding technology, talking about adding engineering.
    We are going to expand the level of tests. I think there is 
strong encouragement from this panel to add NAEP as well as 
science testing so that we can compare it. We will set the 
standards.
    I saw in some of the comments here that we have got to have 
national standards but not federal standards. Give me a break. 
How can you have national standards but not federal? And then 
we will put in accountability measures.
    It is amazing to me that we have people like the chamber 
here today talking about federal schools instead of public 
schools.
    Ms. Burmaster, you are the only one that I see up there 
that has any concept of freedom. If we define education where 
we are, I don't think anybody in their opening statements, 
unless I missed it, talked about parents.
    Now, we did ``Education at Crossroads,'' we went across the 
country, we talked to people at your level, we talked to state 
administrators, we talked to school administrators. But the 
person that had the most passion for the highest-quality 
education opportunity to their kids were parents.
    And in this whole discussion about reauthorizing No Child 
Left Behind, we have made all of you beggars to Washington for 
more rules, more regulation, fix this rule, add this in, tell 
us what to do, because without federal involvement we are not 
going to do it.
    Again, Ms. Burmaster, at least you were bold enough to say, 
``Give me some more flexibility, because I think I can do this 
better than what--''
    Ms. Burmaster. Give me some more flexibility, because I 
think I can do this better.
    Mr. Hoekstra. Absolutely.
    Ms. Burmaster. I am speaking for the chief state school 
officers.
    Mr. Hoekstra. Yes. And I think if we gave you more 
flexibility and we empowered parents and local school 
districts, it might be amazing what would happen.
    I can only find that if this is the model that our business 
community is articulating and advocating for federalizing our 
public schools, I can't wait to see their role for making us 
competitive in the world because they can only ask for more 
federal guidelines, rules to get where we need to go.
    Because, clearly, that is the way that it works for our 
most important asset in the country, which is our kids, and if 
we are going to delegate the role of educating our kids to the 
federal government, it would only make sense that we would 
delegate the role for our autonomy to the federal government as 
well.
    Ms. Burmaster, what do you see parental choice in this 
process? If you want more flexibility, does your organization 
or does the state of Wisconsin see empowering parents in this 
process at any place?
    Ms. Burmaster. Yes, the organization I want to speak for.
    Mr. Hoekstra. Right, okay.
    Ms. Burmaster. The organization saw an opportunity again 
for more parental involvement and the differentiation of 
consequences. In the state of Wisconsin, we held listening 
sessions throughout the state over the course of the years, 
thousands of citizens, parents, educators, business leaders 
from the state, and it was clear that people did understand 
that this is a local issue.
    We can test all we want, testing the disaggregation of the 
data, the intent of this law, the attention that has been 
brought to this very, very serious issue that our long-term 
economic security, as a state, as community, as a nation, the 
future of our democracy rests on closing this gap.
    People understand that, and this law has gone a long way in 
creating that sense of urgency. But the work has to be done at 
the local level, and parents must be involved. And parents do 
have to have the option to be determining what will contribute 
to the success of their children.
    So the chiefs saw that if there could perhaps be, when you 
are looking at a school, that a district might even have a 
parent advisory board that could be looking at making 
recommendations for what kind of interventions. They have to be 
involved in the interventions themselves.
    I understand the discussion that we are having here, but I 
appreciate that you have captured really what is the sense of 
urgency among those of us who are implementing this law and in 
the schools on a regular basis, and that is that you have to 
bring communities to get, and it takes more than the education 
system working to ensure that we are going to overcome some of 
the contributors to the achievement gap.
    And poverty is probably one of the main issues. And so we 
are going to have to work in collaboration, community agencies, 
social service agencies.
    Mr. Hoekstra. Thank you.
    Mr. Weaver. Mr. Chair, when he mentioned about not hearing 
in the opening statements any mention of parents, well, you 
know what I did, I started to look through my opening statement 
to see if in fact--and I saw McElroy do the same thing.
    But just because we didn't mention it doesn't mean that we 
don't believe that it is important. We absolutely believe that 
parental involvement is extremely important. And if you will 
take a look at our positive agenda, you will see that it is up 
there in terms of importance.
    What I hear from parents and what I see from parents when I 
talk with them, what they want is for their children to be 
successful. What they want is for their children to go to a 
school that is safe and orderly. What they want for their 
children is to have a qualified and certified teacher.
    And so anything that does not allow them to have those 
kinds of things is wrong. And I think that we should do 
everything we can to make sure that parents in all areas of 
this country, whether it is urban, rural or suburban, have what 
they need.
    Chairman Miller. Mr. Payne?
    Mr. Payne. Thank you very much.
    Let me thank the panel for your insights.
    You know, I sometimes get amused at this question about the 
country being concerned about what is happening throughout our 
nation. When World War II began, we found that, believe it or 
not, most of our young men going into the Army were 
malnourished, and so it started the lunch program in elementary 
and secondary schools. It was a national defense thing. If we 
left it up to every individual town and state, we probably 
would still have people who were malnourished, as we found out 
in World War II, and we couldn't put an army together.
    When we found out that the Russians had put the Sputnik on 
and they were way ahead in math and science, even though they 
were one of the poorest countries at that time, we turned 
around and started the national defense. We had to put in a 
war-sounding bill, because we said the National Education Act 
probably wouldn't pass. We called it the National Defense Bill, 
and we were able to get educational loans for kids, minority 
kids who couldn't get loans to go to college.
    When we looked at Title 1, we found that schools were just 
ignoring poor kids, and that is why Title 1 began in 1965.
    And so my point is, as my friend who has left has said, we 
should keep the federal government out. Government which 
governs least is best, stays the same. Evidently, we don't have 
the authority or the will on local levels. We wouldn't have to 
have had a Brown v. the Board of Education if we had the will 
throughout our country.
    And so I really get amused at people saying, ``Let's keep 
away from national involvement.''
    Also, the folks that are so interested in parental choice, 
I see a new bill is going to be introduced about vouchers 
again. The ones who are the main proponents, I have never heard 
them talk about vouchers in their districts. It seems like the 
voucher proposals are people who somehow feel that this is the 
only way we can do it. However, their public schools are great. 
But let's do it in the urban schools.
    I don't hear people talk about vouchers in my district, 
which is very diverse. The richest community in the United 
States is in my district, and, believe it or not, just about 
the lowest amount of homeownership, 22 percent, is in another 
part of the district where average homeownership in this 
country is about 75 percent. But the people up there in that 
richest community, they are not talking about school choice. 
They have school choice because they have it right there in 
their own community.
    So there is a lot of hypocrisy that is going on.
    As a former teacher, I decided to start in secondary school 
and taught at now Mount Shabazz High School in Newark; it was 
Southside High School then. Stayed there for 3 or 4 years, 
decided to go into junior high because I wasn't satisfied at 
what was coming to the high school. Taught in the so-called 
middle junior high school for 3 or 4 years and then went down 
to elementary, believe it or not, just to see about how it was.
    A few things were the same. One, the attitude of the 
teachers. We would go to a school where teachers felt the kids 
could learn, would put things together, and the kids had a 
better attitude. We would go to other schools where they didn't 
care, teachers that didn't care, and the kids didn't learn.
    Let me just say get quickly before my time runs out, I 
guess it is about out, we have a problem with qualified 
teachers, period, no question about it, substandard schools.
    I just would like--and I want to associate myself with Wade 
Henderson--to talk about a total program. You are not going to 
have a kid who died in Washington, D.C., because of a toothache 
and couldn't get a doctor to see him because he was on Medicaid 
and couldn't get a dentist to see the boy is dead. Here in 
Washington, D.C., in the view of the Capitol of the world's 
greatest democracy. Makes no sense.
    So my question is, how can we get--what do you think, maybe 
Reg and the president of AFT and Wade--qualified teachers in 
the hardest-to-handle schools? What can we do to try to get 
them, since we do find that in the toughest places to teach we 
have, generally speaking, teachers who leave to go to other 
districts when they get an opportunity?
    For anyone who would like a stab at that.
    Mr. McElroy. I will take a shot at that, if I may.
    Mr. Payne. Thank you.
    Mr. McElroy. Thank you for those comments.
    I think Governor Barnes said earlier, and it is important 
to remember, that we bring a lot of people into the profession. 
We lose them very quickly. Lose 50 percent of them in 5 years; 
actually, in large urban districts, we lose 50 percent of them 
in 3 years.
    So the issue is, how do you retain those people in urban 
centers, in hard-to-staff schools?
    And the question is, look, professional development, the 
kind of professional development you talk about was done in the 
1960s, frankly, under the National Science Foundation Act, and 
there were grants for teachers to work during the summer to go 
through those programs. We should reinstitute that, it would 
seem to me, or we should look at that.
    The second thing is, you have to provide incentives to 
people to work in those schools.
    The third thing is that you have to create the environment 
that we were talking about originally around the school. What 
happens when the kid comes there? Are there provisions for 
medical care? Are there provisions for a decent, not only 
medical care, but nutrition programs?
    And we are phonies in a lot of ways about what we think 
about school. We say to the kid, ``Look, it is the most 
important thing you do in your life,'' and then not too far 
from this building, there are some of the most decrepit schools 
in the country. You can't say to a kid that education is the 
most important thing you do and then have them walk into a 
building where he knows it isn't.
    So there are a lot of factors here.
    Mr. Weaver. In addition to what Ed said, mentoring and 
induction programs. You know, sometimes we are very cruel to 
new teachers coming into the system. We put them into a system 
with overcrowded classrooms, no help and then expect them to be 
successful. It is not going to work like that.
    Also, give them the respect, the support, make sure they 
have an atmosphere that is safe and orderly and give them some 
pay, and you will be able to get people coming into these areas 
that we typically don't have them coming into now.
    Chairman Miller. Mr. Castle?
    Mr. Castle. Let me thank you, Mr. Chairman.
    This is an excellent panel with a diversity of opinions and 
views but coming out, in my judgment, with the same conclusion, 
and that is that No Child Left Behind is fundamentally very 
good for education but may need some changes or shifts, and for 
that we are very appreciative.
    I think we, as Democrats and Republicans up here, feel the 
same way, that we do need to continue to move in this 
direction.
    Let me ask a question. I am not sure if any of you are 
really experts on this or not, but one of the areas that has 
been suggested that we are now trying, through the Department 
of Education, is this so-called growth model, that instead of 
having just adequate yearly progress, having a growth model for 
schools in which adequate yearly progress may be too much of a 
reach in 1 year.
    I would think it is very likely this may be included in 
whatever we end up doing in No Child Left Behind this year. But 
I wonder if any of you have any comments on the various pilots 
that are going on right now or any other thoughts about what 
should or should not be included in some sort of a growth model 
for measuring school improvement from the beginning of the year 
to the end of the year.
    Mr. Barnes. We do recommend a growth model. The DOE is, of 
course, doing the pilots, as you set forth, and, really, in 
talking to Secretary Spellings and how they chose the pilots, 
remember you have got to have a data system. Growth models 
don't work unless you have a data system. So what limited her 
from granting more waivers was lack of a data system.
    It is not inexpensive. We recommend $400 million over the 
next 4 years, $100 million a year, and of course that is only 
going to be a portion of it. In Georgia, it costs us about $70 
million to get the data system, because every child has to have 
a unique identifier. Now, the growth models shouldn't hide how 
you are really making progress.
    And what we recommend is that you have to be on grade level 
within 5 years. In other words, you have to be making--you just 
don't put a growth model out there and say, ``Well, they made a 
little progress over''--that you have to make more than a 
year's progress in a year and that within 3 years you have to 
be on grade level.
    We believe, and we talked much about it, and the two school 
officers were very much in favor of it also when we heard 
testimony from them. We think this will soften some of the AYP 
harshness that you have been hearing about, that it will not 
misclassify and demoralize a school that is making good 
progress and probably going to make it in a little while but 
didn't make it this year.
    So we are very much in favor of growth models.
    Mr. Henderson. The Leadership Conference on Civil Rights 
sees growth models as potentially having useful and important 
contribution to be made, but I think the pilots that are 
currently under way within the department we have not fully 
assessed. We do have some concerns.
    We think you can measure subgroups, cohorts in a way that 
can be very effective, but we are concerned, for example, about 
how you measure English language learners who make rapid 
progress over a short period of time and then have to be 
factored into a larger model.
    I guess what we are waiting to see is how the department 
conducts its pilot programs. We would like to evaluate them 
before we issue a definitive view.
    Mr. Rothkopf. Congressman, I think our view of growth 
models is, yes, they ought to be tried, they are being tried.
    Our concern would be that if there is an effort to move 
away from a rigorous group of standards and also to try and 
move away from that 2014 deadline. No one has mentioned that 
this morning. We think it is critical to stay with the 
requirements of 2014. As we know in the business communities 
and many parts of our economy, if you set a standard, you have 
got to stick with it and try and meet it and not slip from 
that.
    So growth models, if they are applied in a rigorous, 
systematic way, with the right kind of data, fine, but if they 
are a way to get around the statute and find ways to not meet 
the important goal that you all set 5 years ago, then we would 
not favor it.
    Mr. Casserly. Just one point very quickly: I suspect the 
Department of Education growth models aren't going to really 
tell this committee very much, in part, because they have only 
been approved on a couple of states, and they are growth models 
that are automatically tagged to the 2013-2014 deadline.
    So I would urge the committee to look a little more 
broadly, not necessarily to get rid of the 2013-2014 deadline, 
I agree with Mr. Rothkopf's point, but let's look a little more 
broadly at the various possibilities of models here and not 
lock ourselves in just to the ones that the U.S. Department of 
Education is testing.
    The Delaware model, by the way, I think is particularly 
promising.
    Mr. McElroy. I would agree with that. I also agree that it 
is principally data-driven, and so you need to have the data in 
order to do this.
    I would also say that the current pilot programs are not 
flexible enough. In other words, there has to be some 
understanding that there could be a variety of different ways 
to assess and measure growth.
    Mr. Weaver. We support the growth model as well. It is just 
a matter of coming together to determine what kind of growth 
model are you talking about, what it is going to take to have 
something incorporated as law that everybody can pass.
    Ms. Burmaster. The first recommendation of the chief state 
school officers is that they be able to submit status and 
growth models upon peer review, to be found statistically valid 
and reliable so that we could indeed address this very 
important area of really being able to look at individualized 
student growth over time, which is the key to closing the gap 
in achievement.
    Mr. Castle. Thank you, Mr. Chairman.
    Thank you, panel.
    Chairman Miller. Thank you.
    Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman.
    I thank the panel.
    Mr. Chairman, 6 years ago when we started discussing the 
first draft of No Child Left Behind, there was an argument 
about whether accountability standards should be linked to 
Title 1 money. I think it is a measure of progress that today's 
discussion is about how they should be linked to Title 1 money. 
I think that is more than just a rhetorical achievement.
    I want to ask a question about how AYP is calculated and 
invite any of the panel to answer it.
    Today, in my school district, the 8th graders are taking 
the New Jersey standardized test, the math section of it. And 
when the results come in, their performance will be measured 
against last year's 8th graders, this year's 9th graders.
    It is entirely conceivable that because this year's 8th 
graders are a very high-achievement class, my daughter is in 
the class, and last year's 8th graders may not have been as 
adept, but the school will be measured as going backwards in 
8th grade math.
    Wouldn't it make more sense to do longitudinal testing and 
measure this year's 8th grader against their performance last 
year in the 7th grade and the year before that in the 6th 
grade? And if not, why not?
    Mr. Barnes. Yes, it makes sense, and that is part of the 
growth model that you have. But what makes more sense is what 
should an 8th grade student know in math to be on track to be 
competitive as a worker, as a student elsewhere. And so that is 
the part of the NAEP.
    NAEP comes in and measures your state criterion test 
against that, and one of the things that we recommend here is 
that--and I am sorry that my distinguished brother left--we are 
all part of the United States, so there is a national standard. 
We tried that a few years ago, and it didn't work down south.
    Mr. Andrews. Well, Governor, if I may, because my time is 
limited, do you or do you not favor longitudinal testing? That 
is what I am asking.
    Mr. Barnes. I do in the context of a growth model but not 
as to take the place of NAEP.
    Mr. Andrews. Okay.
    And how about the other panelists?
    Dr. Rothkopf? President Rothkopf?
    Mr. Rothkopf. Yes, Congressman, I think the key goes back 
to a point about data, and I think your question really goes to 
what is the quality of the data, the longitudinal data.
    We did the report I referred to where we evaluated each 
state, and one of the subjects was data quality, and there is 
something called the data quality----
    Mr. Andrews. I don't mean to interrupt you but I am 
limited. Do you or do you not favor longitudinal testing?
    Mr. Rothkopf. What was that?
    Mr. Andrews. Do you or do you not favor longitudinal 
testing?
    Mr. Rothkopf. I think it is fine. I think it is good, but I 
think you have got to have the data, and I think it is very 
important that states, including New Jersey, which has not 
really gone as far as a----
    Mr. Andrews. But if I may, this really isn't a data 
problem. If you have a school with 50 8th graders and 90 
percent of them passed the test last year and only 80 percent 
of them pass the test this year, that school is going to be, as 
I understand it, categorized as not making adequate yearly 
progress for this year. And you are not measuring the same 
kids. You are measuring last year's kids against this year's.
    That is not a data problem; that is an interpretation 
problem.
    Who else has an opinion on that?
    Ms. Burmaster. That is one of the biggest complaints about 
AYP.
    Mr. Andrews. Do you favor longitudinal testing?
    Ms. Burmaster. Yes, or growth models. Longitudinal testing 
would be one form of growth models or part of a growth model.
    Mr. Andrews. Mr. Weaver, what do you think?
    Mr. Weaver. When you say longitudinal testing, are you 
using it synonymously with growth model?
    Mr. Andrews. Well, of course, growth model means a lot of 
different things. Here is what I mean. I mean that I don't 
believe that a school should be held accountable based upon a 
negative assessment that one group of children slipped back 
when it was a different group of children. Let me unpack that.
    I think that if this year's 8th graders don't do as well as 
last year's 8th graders, that doesn't necessarily say anything 
about the school; it may say more about last year's 8th 
graders. That is what I am talking about. So we are comparing 
the same children to the same children and their growth.
    So I guess, yes, I do mean the same as growth models in 
that respect.
    Mr. Weaver. Okay. Well, oftentimes, we get caught up in 
labels, and so that is the reason why I was asking were you 
using synonymously longitudinal and growth models. But rather 
than use a label, I just want to look at what the issue is and 
try to work to solve and resolve the issue without attaching a 
term to it.
    Mr. Andrews. Mr. McElroy, did you have anything?
    Mr. McElroy. I agree that that is one of the biggest 
problems with AYP currently, that you are measuring one cohort 
of kids against a different cohort of kids the next year. So I 
would agree with you. How you do that, whether you use one kind 
of growth model or another is the issue that is the jump ball.
    Mr. Andrews. Thank you, Mr. Chairman.
    Thank you, Mr. Casserly. You win the prize. [Laughter.]
    Chairman Miller. Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman.
    We hear, at least I have roundtables throughout my district 
to talk to business groups, to talk to the administrators, to 
talk to teachers, whoever wants to come in and talk about No 
Child Left Behind, and so many times it is said that there is 
so much pressure on meeting AYP that the focus of the 
curriculum is teaching to the test.
    And I know, Mr. Rothkopf, you talked about how we need to 
place emphasis on science, engineering in order to ensure that 
we are able to compete globally, and I think that that is 
really true. So are we limiting the curriculum too much?
    I just have a couple of things.
    The other thing is that the administration zeroed out the 
Perkins Fund and so we went back, I think, and put that back 
in. In talking to other groups, there are students who do not 
intend to go to college, and those are the ones that when they 
get to high school start to want to drop out.
    Going out to the vocational schools in my district, I met 
with some great success stories that kids had wanted to drop 
out, there happened to be a great teacher that got them 
interested. They wanted to work on cars. Well, they got to work 
on cars but they also then had to take those courses in math 
and reading to be able--or if they were going into 
construction, to have those skills. And the business community 
said, ``These are the kids that we need in our workforce that 
are not getting the training because they drop out of school.''
    So I think that how are we going to balance that type of 
student that is really necessary unless we can engage them and 
have the time to do that and not just think of it as teaching 
to the test?
    Mr. Rothkopf?
    Mr. Rothkopf. Yes. I think you have put your finger on what 
is, I think, one of the critical issues we face in this whole 
dropout issue.
    The difficulty is that--let's take the job of being what we 
used to call an auto mechanic. It was a pretty simple kind of 
thing. You change the oil, you fix the carburetor, do the 
plugs. That is not it anymore; you have got to be a technician. 
You go in and see what is wrong with your car. You need to be 
able to deal with computers and problem-solving and manuals. 
You have to have an awful lot of schools to take a job which 
used to be considered a semi-unskilled job, which now requires 
a fair number of skills.
    I think what we need to be looking at is a track, not one 
that sort of treats those youngsters who want to go into 
vocational fields as a lesser track, but one which really 
focuses on technical and career skills and gives them a reason 
to stay in school because there is an end game there, and it is 
not learning some things which are not relevant.
    The truth is, they need to have the knowledge, they need to 
have the skills, and we need to make sure they have them. But 
we need to clearly have an approach that keeps them in those 
schools by making things more attractive to them and showing 
them what is at the end of the day.
    Mrs. Biggert. And then just one other issue that has come 
up, and there has been some talk here about the need for 
physical education and perhaps bringing that in to NCLB. 
Illinois happens to be the only state that mandates physical 
education every day, and I know there has been some--whether it 
is called recess sometimes now--but there has also been some 
studies that without the physical education, the kids don't 
learn as well, don't learn fast.
    Has there been anybody who can say anything about that? Is 
physical education getting lost because of the pressure of the 
academia?
    This really is something that, to me, little boys, when 
they are in 3rd and 4th grade, if they had just that half an 
hour to run off that energy and then come back, that the 
learning takes place in a much greater way right after recess.
    Anybody have comments on that?
    Mr. Weaver. I think many parts of the curriculum have been 
cut back as a result of No Child Left Behind. And, in many 
instances, many children may not be receiving the well-rounded 
education that we would like to have, which is inclusive of 
phys ed, simply because many people are focusing on reading and 
math.
    So, hopefully, there should continue to be room for the 
inclusion of civics education, physical education, arts and 
other areas of the curriculum, if in fact we want our children 
to be well-rounded in terms of their education.
    Mr. Casserly. I don't have anything specifically on 
physical education, although I agree with your underlying 
point.
    But one of the things that might help correct some of the 
unintended side effects of the provisions in No Child Left 
Behind would be to reorient some of the law around instruction 
and some of these other areas that people are concerned about 
rather than quite so many procedural things that sometimes have 
us chasing our tails a little bit.
    Mrs. Biggert. Thank you.
    Chairman Miller. Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    I thank all of our witnesses.
    Mr. Henderson, you mentioned as one of your five standards 
the appropriate resources, and you talk about the promise of 
Brown. Is funding equity necessary to achieve the promise of 
Brown?
    Mr. Henderson. Mr. Scott, I think funding equity is a 
critical component in achieving the fulfillment of Brown.
    And as I pointed out in my remarks, first of all, Title 1 
of the Elementary and Secondary Education Act was not intended 
to equalize funding between rich and poor school districts 
within the same state. That was really intended to be a state 
function.
    I am sorry that Mr. Hoekstra left, because he talked about 
the willingness of states to carry out their mandates to their 
citizens. And I think there is ample evidence to suggest that 
states not only have ignored that responsibility but, in many 
instances, worked against it.
    So, truly, there does need to be a recognition of the 
reality we confront, and Title 1 is certainly there to 
supplement what states have failed to do in their equity 
efforts.
    But having said that, state equity initiatives have been 
woefully underfunded; they are not being funded fully now. I 
think we are still dealing with the effects of that.
    No Child Left Behind is certainly providing us with a new 
federal standard that is moving us in the right direction, but, 
again, the dichotomy between states that provide 93 percent of 
their resources for public education and only 7 percent coming 
from the federal government, it does seem to show the imbalance 
that can only be rectified by having the feds continue to prod 
in the direction.
    Mr. Scott. Thank you.
    Senator Kennedy mentioned the School of Newport News had 
done extremely well. Part of that is we put extra funding into 
that school, and it makes a difference.
    Ms. Burmaster, you mentioned--and several mentioned--
sanctions and what is appropriate. And some of the sanctions 
would be totally inappropriate. If a school isn't teaching, 
giving the students supplemental educational services seems a 
bizarre reaction. And if limited English proficiency students 
aren't learning, letting other students get out the backdoor 
and go to another school doesn't address the problem.
    Is there something in No Child Left Behind, or does there 
need to be, when a school fails to make AYP, an assessment of 
what the problem is?
    Ms. Burmaster. Yes, and in our proposal----
    Mr. Scott. Is that in the bill now or does it need to be in 
the bill?
    Ms. Burmaster. It needs to be in the bill. And our 
proposal, through our innovative models and then based on peer 
review, whether it was a valid model or not, could incorporate 
those very types of things.
    Mr. Scott. Okay. We talked around about the dropout rate. 
Dropouts are correlated with unemployment, underemployment, 
welfare and crime, and, obviously, if you let kids drop out, 
they are dropping out from the bottom, your testing average 
will go up if you let people drop out.
    We thought we had addressed this in the original No Child 
Left Behind by punishing systems with high dropout rates. I 
guess my question is, are we counting the number of dropouts 
accurately, and are we punishing schools sufficiently to 
discourage letting students drop out?
    Whoever?
    Ms. Burmaster. Do you want to go?
    Mr. Casserly. Mr. Scott, I don't know whether we are 
counting dropout rates exactly accurately. There are a number 
of different methodologies that one could use to make this 
calculation. I think by any of the methods that are currently 
being discussed, at least many urban schools and urban school 
districts and many poor rural ones have dropout rates that are 
way too high no matter what the methodology is.
    And I think we have got just a huge national problem that 
we need to address on this front and also involving the reform 
of our high schools.
    Mr. Scott. I wanted to get in another quick question before 
my time runs out, and that is the perverse incentive that may 
occur when you are focusing your attention just on those 
students right above and below the cutoff rate. If somebody 
goes from zero all the way up to 50, you get no credit because 
they still failed.
    Does the growth model address this problem where you would 
in fact get credit for bringing people almost up to passing but 
not quite?
    Ms. Burmaster. It is important that we don't just start 
using the term, ``the growth model,'' as though there is some 
sort of agreement as to what that is, but, certainly, a growth 
model could address that.
    And if I could add----
    Mr. Scott. Thank you.
    Mr. Chairman, could I get--Mr. Chairman? Mr. Chairman, 
could I get the witnesses to address that question in writing? 
Thank you.
    Chairman Miller. If you would, please.
    Mr. Ehlers. Thank you, Mr. Chairman.
    Chairman Miller. Only if they provide the correct answer to 
what that growth model will provide. [Laughter.]
    Mr. Ehlers?
    Mr. Ehlers. May I put the same restriction on my question? 
It is no secret that I have been a strong proponent of math and 
science education over the years, but it is not just because I 
think students should learn math and science and it is not just 
because I think since I know it everyone should know it.
    The main point is years ago I saw what was going to develop 
internationally if we didn't improve our math-science 
education, because I saw what China and India and other 
countries were doing. And now it has happened, and we are 
losing ground competitively. And so it is all, at this point, a 
good deal that is about competitiveness.
    In spite of that, we have actually gone backward on math-
science education and teacher training with No Child Left 
Behind. Originally, as it left this House, it was a good bill. 
It did provide for adequate funding for that, but before we 
passed No Child Left Behind, we provided $485 million per year 
in funding for the Eisenhower Professional Development Program.
    What passed this House was a program, which I put in, that 
would require states to set aside at least 15 and up to 20 
percent of their Title 2 teacher quality grants for the Math/
Science Partnership program. Unfortunately, that was dropped 
during conference.
    Since then, we have spent considerably less than we did 
before on the Eisenhower Program, and I certainly hope in this 
version of No Child Left Behind we will go back to the higher 
level, because we are not doing our nation any good and not 
doing our kids any good if we don't provide teacher development 
funding in math and science. It is the one area they probably 
need it the most.
    Many science teachers, for example, have reported they have 
little, if any, funds available for professional development 
activities at this point, and I think having properly trained 
teachers in math and science is the best way to tackle the 
problem. It is not new textbooks, not new curricula but 
properly trained teachers.
    I would appreciate if the witnesses would comment in the 
time available on the level of development they have seen 
available for math and science teacher professional development 
and any other thoughts you might have on the appropriate way to 
create a set-aside for that.
    And I would like to start with Ms. Burmaster, since she is 
right on the front lines there.
    Ms. Burmaster. I am in absolute agreement with you. And I 
believe that the recruitment of math-and science-trained 
individuals are--the governor had spoken about alternative 
certification. Being able to recruit from industry and commerce 
is an important component of this as well. But there is not 
currently enough done on professional development around math 
and science or recruitment.
    Mr. Ehlers. Let's just go down the line.
    Mr. Weaver. I would agree, but I also would certainly like 
to see more opportunities presented to minority students who 
have not typically had the opportunity to participate in such 
programs, such that they can become part of America's future in 
terms of science and math.
    Mr. Ehlers. That is crucial.
    Thank you.
    Mr. McElroy. I agree with your contention and your premise. 
There are several opportunities for professional development, 
and one of them a teacher sent us. As a matter of fact, 
Chairman Miller and Chairman Kennedy introduced a bill on that, 
and we would be very supportive of that concept.
    Another one of these summer institutes that I mentioned 
four teachers, which we used to do many years ago, congressman, 
and we have dropped back and don't do. And then in an 
organization like mine, we have our own professional 
development program called, Educational Research and 
Dissemination where we go out and actually train people, and 
math is included in that program.
    Mr. Ehlers. Let me just comment. Twice I taught NSF 
professional development summer institutes, and they were 
invaluable to the teachers.
    Mr. Casserly. Mr. Ehlers, I am in accord with your general 
emphasis on math and science and professional development.
    First of all, let me just congratulate you on your national 
standards bill.
    One of the things that we have learned from the data that 
we have been collecting on our urban school districts is that 
the area where we have got the fewest highly qualified teachers 
are in the area of math and science. So in addition to 
professional development, we need a much greater emphasis not 
only recruiting but retaining and supporting math and science 
teachers, as well as the professional development.
    Mr. Rothkopf. If I might, we, in the business community, 
believe that innovation is the key to American competitiveness. 
Math and science is critical, so I commend you on your 
approach.
    A couple things I would note----
    Chairman Miller. No, no, no, you don't get a couple things.
    Mr. Rothkopf. No, one thing. Can I give you one thing? And 
I would just make one point, and that is in the time to train 
these new teachers, I think we need to consider the possibility 
of bringing in teachers from, for example, industry to support, 
to teach the math and science and have qualified teachers.
    Chairman Miller. Mr. Henderson and Mr. Barnes, quickly.
    Mr. Henderson. We completely agree with your analysis and 
support it wholeheartedly.
    Mr. Barnes. I agree, and I think that math and science 
teachers deserve to earn more than others that are in shortage 
areas.
    Mr. Ehlers. I agree, but I have had a little trouble 
selling that.
    Mr. Barnes. I can imagine.
    Chairman Miller. Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    If the panel would be so kind as to, on a scale of one to 
five, with one being the most urgent and five being not very 
urgent, tell me what you think about a universal preschool 
program and its impact on the K through 12 population and 
whether that is something we ought to be starting with and 
focusing on.
    Governor?
    Mr. Barnes. Georgia is the only state in the nation that 
has a 4-year universal pre-K program. It is very important. It 
has helped us close the achievement gap.
    If I had it to do--this is speaking beyond No Child Left 
Behind Commission--if I had it to do over again, if I were 
redoing public education, I would do away with the 12th grade 
and make it optional if you don't need the extra time and take 
all the money from the 12th grade and put it into early 
childhood. Now, you will never do that because of football, but 
that is what ought to happen. [Laughter.]
    Mr. Tierney. Well-said.
    Mr. Henderson?
    Mr. Henderson. I think clearly childhood development is 
critically important.
    Mr. Tierney. I am sorry, sir. Is your microphone on?
    Mr. Henderson. I am sorry. I think that early childhood 
development is critically important. On a scale of one to five, 
I would, sort of, put it somewhere around a 1.5 or 2 at the 
very latest.
    I do think, however, that it has to be augmented with the 
other things that children need that would not be a part of 
early childhood education. So, again, health care, food 
programs----
    Mr. Tierney. So you are thinking of, sort of, an early Head 
Start.
    Mr. Henderson. Yes, early Head Start but much more broadly, 
and I think you are on the right track, so we completely agree 
with that.
    Mr. Rothkopf. We think it is important. I am not sure I can 
put it on a numerical scale. It is an important feature to have 
the kids go to school qualify to really start learning.
    Mr. Tierney. If I could just stay with you for a second, 
Mr. Rothkopf. So you don't think it is that important that you 
can't put it on the scale and you wouldn't say it is one end of 
the scale or the other, sort of in the middle about it?
    Mr. Rothkopf. We think it is important. We haven't really--
I would have to say we are focusing more on some of these other 
issues and, frankly, haven't really addressed pre-school as a 
subject.
    So I think it is important. I can't say it is as important 
as some of the other subjects that we talk about.
    Mr. Tierney. That is interesting.
    Mr. Casserly. As long as this isn't an either/or, I give 
this one a one.
    Mr. McElroy. I would give it a one as well.
    Mr. Weaver. One.
    Ms. Burmaster. Research confirms, and every parent agrees, 
the first years of life lay the foundation for all future 
learning. I would give it a one.
    Mr. Tierney. Thank you.
    I yield back, Mr. Chairman.
    Chairman Miller. Thank you.
    Our last questioner will be Mr. Keller. Mr. Keller is 
recognized.
    Mr. Keller. Thank you, Mr. Chairman. I will try to be quick 
here since we have limited time.
    A somewhat controversial issue under No Child Left Behind 
is President Bush's proposal to expand testing to each and 
every year in high school.
    Starting with Ms. Burmaster, do you support or oppose this 
proposed expansion of testing?
    Ms. Burmaster. Our organization does not support that.
    Mr. Keller. Okay.
    Mr. Weaver?
    Mr. Weaver. We do not support it.
    Mr. Keller. Mr. McElroy?
    Mr. McElroy. Not until we get what we are doing now right.
    Mr. Keller. Mr. Casserly?
    Mr. Casserly. Oppose.
    Mr. Keller. Mr. Rothkopf?
    Mr. Rothkopf. Not every year, but we ought to have some 
expansion of No Child Left Behind to high school.
    Mr. Keller. Mr. Henderson?
    Mr. Henderson. We don't support it.
    Mr. Keller. Governor?
    Mr. Barnes. No. The administration does not count that 
toward accountability. We do recommend that you have a 12th 
grade test in addition to the 10th grade that is linked to 
accountability.
    Mr. Keller. Okay.
    My final question: The single biggest complaint I get about 
No Child Left Behind is the inconsistency between the state and 
federal accounting systems.
    To give you an example, in my state, we use one single 
test, called the FCAT, in Florida, for both the state's A-plus 
program and the federal government's No Child Left Behind Act. 
Approximately, 90 percent of schools get a passing grade from 
the state's A-plus plan, and approximately 90 percent of 
schools fail to meet the federal AYP standard. It sends a 
pretty confusing message to parents who are moving into 
neighborhoods and ask, ``Is this a good school?''
    I understand the reason for the confusion, but it is not 
easily articulated to parents. You have seven different 
subgroups, under each subgroup you ask two questions: Did you 
test 95 percent of the students, and did they make a passing 
score?
    So you could have an excellent school, which receives an A-
plus on the state level, and they pass 13 out of the 14 
subcategories, but because they only tested 94 percent of the 
Down's Syndrome students in a special-needs class, they are 
considered a failing school under the federal government.
    My question is, should the states and the federal 
government better align these dual accountability systems to 
ensure that parents are given clear and consistent information 
on their children's schools? And if so, how?
    Let me start with Mr. McElroy.
    Mr. McElroy. My answer would be, yes, to the question, and 
I want you to know it isn't only in Florida that that is a 
problem. We hear about that throughout the country.
    If you modify the AYP measuring system or accountability 
system with several of the other kinds of growth models, you 
could clear that problem up.
    Mr. Keller. Ms. Burmaster, let me go to you.
    Ms. Burmaster. I think that we hear of that problem as well 
in our organization, and I think you could do it through the 
innovative model proposal that we have submitted.
    Mr. Keller. What if you have something, instead of just 
saying yes or no, let's say that you meet 90 percent of the 
criteria, that is excellent, and if you meet 80 percent, that 
is good, and if you meet 70 percent, that is average, something 
where you have a sliding scale of evaluation.
    Mr. Weaver, what do you think of that approach?
    Mr. Weaver. I don't know. I don't know. But in response to 
the question that you just asked previously----
    Mr. Keller. Yes, sir.
    Mr. Weaver [continuing]. Multiple measures is something 
that I do believe would aid and assist what you have suggested 
as a problem.
    Mr. Keller. Okay.
    Mr. Casserly, what do you think about should we do a better 
job of bringing these dual accountability systems into line? 
And if so, do you have some ideas about that?
    Mr. Casserly. Yes, I think we should do a better job, and I 
agree with you, it does cause a lot of confusion in the public.
    We don't have a set of proposals about how to do that, but 
I am happy to think some of those through and see if can get 
some for you.
    Mr. Keller. Thank you.
    Mr. Rothkopf, your thoughts?
    Mr. Rothkopf. Absolutely ought to be more alignment between 
the two systems. Too much confusion and that weakens the sense 
of commitment on the public side for accountability.
    Mr. Keller. Mr. Henderson?
    Mr. Henderson. And I think greater alignment certainly 
makes sense, although with respect to your proposal about 
categories of excellence, I am not sure that I could really 
speak to that. It sounds as if you are weakening standards 
inadvertently by creating these general categories of 
accountability, which seem to be weaker than the current 
standard.
    So while I think there needs to be alignment, I am not sure 
that I could go----
    Mr. Keller. Governor, I want to close by you addressing 
those questions, and as your chief competitor, University of 
Florida being the reigning national champions of football and 
basketball, if you want to comment on----
    Mr. Barnes. So we have heard 6,000 times. [Laughter.]
    Mr. Keller. Go ahead, Governor.
    Mr. Barnes. Yes, they should be better aligned. And this 
goes back to this issue--I wish Mr. Ehlers was here. Don't we 
know what an 8th grader should be learning in math? We do 
because the National Foundation of Science tells us.
    So we tell NAEP, ``Devise a test.'' All right. We test the 
child and either they pass or they don't or they rank in the 
proficiency basic or whatever, and then if your state standard 
does not comply with that, tell the parent and tell the policy-
makers, ``You have got a bunch of weak standards, and they are 
not meeting the national test.''
    Thank you.
    Chairman Miller. On that coalescing note----
    [Laughter.]
    Let me certainly thank the panel for your time this 
morning, for your answers to the questions and for your 
contributions.
    And, again, I want to recognize that it wasn't just about 
appearing at this panel. You have all been working and your 
organizations have been working very hard over the last several 
years to improve No Child Left Behind.
    I would like to recognize also that we received written 
testimony from the PTA, the American Association of School 
Administrators, National Association of State School Boards, 
the National Association of Secondary School Principals and 
other organizations will be submitting testimony for this 
hearing.
    Again, thank you.
    And I want to thank all of my colleagues in both the House 
and the Senate committees for their attendance this morning. 
Thank you very much.
    And with that, the committee will stand adjourned.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this important hearing today 
on the reauthorization of No Child Left Behind. It is a privilege to be 
joined by our colleagues from the Senate as we begin to discuss how to 
improve elementary and secondary education in the United States, and 
ensure our children are provided with the skills necessary to be 
successful and productive in the global economy.
    I would like to extend a warm welcome to today's witnesses. I 
appreciate all of you for taking the time to be here and look forward 
to hearing from you.
    No one can disagree with the goals of NCLB. We must ensure that all 
children can read and perform math at grade level by the 2013--2014 
school year. However, what means are used to achieve this goal and how 
this goal is measured are critically important.
    While there has been some success since NCLB became law in 2002, 
there are clearly areas where reform is needed. Some problems with NCLB 
can be attributed to insufficient federal funding for mandates the law 
placed on states. However, it is important we do not use the lack of 
funding as an excuse to overlook other shortcomings in the law.
    Among other issues, we must examine whether current tests 
accurately gauge student knowledge, if the results of these tests are 
being used to fairly judge which schools are making adequate yearly 
progress, and whether the interventions for failing schools in NCLB are 
effective and what other interventions may be more effective.
    I am anxious to hear the ideas of the witnesses here today. I 
believe that working together we can dramatically improve NCLB and, as 
a result, greatly improve the education of millions of children.
                                 ______
                                 
    [The prepared statement of Mr. Ehlers follows:]

   Prepared Statement of Hon. Vernon J. Ehlers, a Representative in 
                  Congress From the State of Michigan

    Chairman Miller, Senior Republican Member McKeon, Chairman Kennedy, 
Ranking Member Enzi, I thank you for holding this very important 
bicameral hearing on the reauthorization of the No Child Left Behind 
Act today.
    I support the No Child Left Behind Act, but recognize that we need 
to fix some things. In particular, we need to strengthen NCLB's focus 
on math and science education and create equity among states.
    High quality math and science education at the K-12 levels is 
extremely important to ensure that our future workforce is ready to 
compete in the global economy.
    I have been so concerned about the quality of math and science 
education in this country, and the limited number of young people who 
are pursuing math and science-related degrees, that I founded the House 
STEM Education Caucus with my Democratic colleague Mark Udall of 
Colorado in 2004. As you probably know, STEM stands for ``Science, 
Technology, Engineering, and Mathematics.'' The STEM Education Caucus 
has helped to inform our colleagues about the growing demand for 
science and math training in the workforce and the needs of our future 
economy, and more than 100 Members of Congress have joined this caucus.
    To improve our math and science education content standards, 
Senator Chris Dodd and I introduced the Standards to Provide 
Educational Achievement for All Kids (SPEAK) Act (H.R. 325), which 
creates, adopts and recommends rigorous voluntary American education 
content standards in math and science in grades K-12. NCLB has made 
important strides toward strengthening standards-based education and 
holding states and schools accountable for ensuring that our students 
are learning. However, with more than 50 different sets of academic 
standards, state assessments and definitions of proficiency, there is 
tremendous variability across our nation in the subject matter our 
students are learning. The bill tasks the National Assessment Governing 
Board, in consultation with relevant organizations, to review existing 
standards and to review the issue of course sequencing as it relates to 
student achievement.
    I might add that there is considerable variation across states and 
even school districts in the sequencing of math and science courses, 
which is problematic for our increasingly mobile student population. 
Our students could lack instruction in certain basic science or math 
concepts if they transfer between schools with completely different 
sequences of courses.
    The SPEAK Act authorizes the American Standards Incentive Fund to 
incentivize states to adopt excellent math and science standards. It 
offers an ``If You Build It, They Will Come Approach.'' Let me 
emphasize that this bill does not establish a national curriculum or 
required national standards. Participation by states is strictly 
voluntary. I have always felt that the ``carrot'' is more effective 
than the ``stick'' in leading reform. It is my hope that all states 
will feel the overwhelming responsibility to bolster their state 
standards in science and math and will step up to the plate.
    I also introduced another bill, the Science Accountability Act 
(H.R. 35), which holds states and schools accountable for ensuring that 
K-12 students learn science. It amends the federal NCLB to require that 
the science assessments, which will begin in the 2007-08 school year, 
be included in the state's accountability system beginning in the 2008-
09 school year. It also gradually phases in annual assessments in 
science in grades 3-8, matching the existing requirements for reading 
and math assessments.
    I applaud President Bush and the Aspen Institute's Commission on No 
Child Left Behind for recommending that student performance in science 
become part of the school's adequate yearly progress calculation. 
Science, technology, engineering and math (STEM) subjects are directly 
tied to our national economy and we must do all we can to ensure that 
all our students are equipped with at least a basic understanding of 
STEM subjects. If you question this, just look at the evidence. 
Business owners, particularly manufacturers, have noticed a disturbing 
trend: They are unable to find qualified skilled workers in our nation. 
Of the 800 U.S. manufacturers surveyed in the 2005 Skills Gap report, 
80 percent reported a shortage of qualified workers overall, with 65 
percent reporting a shortage of engineers and scientists. To prepare 
the workers of the future, we need to give our kids a chance by 
providing them teachers who are trained to teach math and science 
properly and understandably. It is critical for our children's and our 
nation's future.
    Funding levels are another key issue to address in the NCLB 
reauthorization. I would like to comment specifically on funding for 
math and science professional development. In fiscal year 2001, before 
the passage of NCLB, Congress provided $485 million in funding for the 
Eisenhower Professional Development program, which focused on math and 
science. When we wrote the NCLB Act, I fought to set aside dedicated 
funding for math and science professional development. You may recall 
that the House bill required states to set aside at least 15 and up to 
20 percent of their Title II Teacher Quality grants for the Math and 
Science Partnership program. Unfortunately, this dedicated funding was 
dropped during conference. The law provided an authorization of $450 
million for the Math and Science Partnerships, but, to date, the most 
we have appropriated is $182 million. While Title II A funds may be 
used for professional development as well, a GAO report found that the 
majority of districts use these funds for class size reduction. Many 
science teachers report, little, if any, funds available for 
professional development activities.
    A resounding bipartisan chorus of business leaders, educators, 
Nobel laureates and other luminaries has called for improvements in 
teacher professional development. Most recently, on March 7, Microsoft 
Chairman Bill Gates testified in the Senate regarding the importance of 
math and science education, and stated, ``If we are going to demand 
more from our students and teachers, then it is our obligation to 
provide them with the support they need to meet the challenge. All 
students--regardless of age, grade level, gender, or race--do better 
when they are supported by a good teacher.'' The Math and Science 
Partnerships provide necessary professional development enabling 
effective math and science teaching and strengthening our students' 
math and science skills. We must set aside dedicated funding for math 
and science professional development in the reauthorization bill.
    There have been some implementation problems and other issues with 
the NCLB Act. For example, schools with large numbers of English 
language learners or students with disabilities have been identified as 
``needing improvement'' when the majority of the students at the school 
are showing progress academically. Additionally, the U.S. Department of 
Education appears to hold some states to a higher standard than other 
states. Clearly, both of these issues have led to concerns in Michigan, 
and should be addressed in the reauthorization legislation.
    I look forward to working with Members on both sides of the aisle 
and Capitol on improving the No Child Left Behind Act. It is imperative 
that we hold our schools and states to high standards so that our 
children are prepared for their future and our nation's future.
                                 ______
                                 
    [The prepared statement of Mr. Hare follows:]

Prepared Statement of Hon. Phil Hare, a Representative in Congress From 
                         the State of Illinois

    Thank you Mr. Chairman for calling up this important hearing. 
Thanks also to our friends from the Senate for joining us today to 
discuss No Child Left Behind (NCLB) and how it relates to the 
achievement gap. It is critical at this time, now 6 years after the 
enactment of the law, that we review its successes, failures and 
effectiveness. I appreciate all the witnesses for sharing their 
testimony and for playing a critical role in this discussion.
    Honoring NCLB's goals and being realistic. The ultimate question in 
every discussion about NCLB is how do we honor the goals of the law 
while reforming it in a way we can realistically implement it? I think 
we can all agree that the goals of the law are good and we have seen 
some promising strides since it was first enacted in 2001, especially 
in increasing state accountability for and involvement in k-12 
education. However, the law's strict and punitive nature has 
discouraged new teachers from entering the field and has made it 
difficult to retain quality teachers with advanced degrees. 
Additionally, the focus on testing has been a great disservice to our 
children and populations of students are being left behind.
    Growth Models. One idea is to look at how we measure progress. We 
are seeing instances where entire subgroups are not even tested out of 
fear that they will bring down the district's AYP score. Is the law so 
strict that we are willing to leave groups of students behind in order 
to comply with it? It is important to look at where student subgroups 
are starting from and where they end up at the end of the year. In 
situations of tremendous progress, schools should be rewarded, or at 
least permitted to factor this measurable progress in the school's 
overall score even if they still fall short of their annual measurable 
objective. The important point here is that progress is being made. 
Another idea is to fully fund NCLB.
    Challenges regarding low-income schools. Arthur Rothkopf, our 
witness from the US Chamber of Commerce, states in his written 
testimony that the problems we have with our education system cannot be 
solved by increasing funding. However, he does not address low-income 
communities. In Illinois, our public schools are funded by property 
taxes. This works well in Chicago and other bustling cities where 
employment is strong and incomes high. However, down state in the rural 
parts of my district, there is extreme poverty and drastically lower 
incomes. The cost of property in these areas is much lower than in 
Chicago and the schools reflect that, yet many of the schools serve 
large geographical areas and therefore have decent sized populations.
    Schools like Lewiston Community High School in Canton have leaky 
roofs, equipment in their shop class from the pre-World War II ear, and 
a hand-drawn Periodic Table of Elements in the science lab. There is 
not even funding for a chart of the elements! How can children be 
expected to learn, yet improve in an environment like that? Funding is 
not the entire answer but it is part of it, especially when a 
community's industry base is manufacturing and subject to offshoring/
outsourcing like in Galesburg, another town in my district that lost 
its Maytag plant to Senora Mexico. When the jobs leave, so do the 
residents, resulting in fewer property taxes and little support for the 
schools. We must establish a more equitable system.
    Additionally, since Congress has not fully funded the NCLB mandate, 
states' resources have been solely devoted to K-12 education at the 
expense of the states' institutions of higher education, social 
programs and basic infrastructure. If we expect schools to meet 
stringent requirements and high standards, while not bankrupting the 
states, Congress must provide adequate funding.
Questions for the Panel
    Edward McElroy, American Federation of Teachers; Governor Roy 
Barnes, Aspen Institute: From your hearings and discussions with 
teachers, officials, superintendents, and parents across the country, 
have you found that schools, especially ones struggling to meet 
benchmarks after year 1 or 2, have had the resources they needed to 
provide extra help to students who required it, such as tutors or 
after-hours instruction? Did you find that teachers, especially first-
year teachers, had the mentoring and support they needed? What can 
Congress do to guarantee schools, instructors, and students have the 
necessary resources, tools, and support?
    Governor Roy Barnes, Aspen Institute: I have heard from many of my 
constituents--teachers, parents, administrators--who have concerns 
regarding your Highly Qualified and Effective Teacher proposal (HQET). 
Do you think that teachers that are evaluated as highly effective in 
higher income schools would get the same rating if they were teaching 
in low-income schools? And if not, is it fair to make these teachers 
compete against each other for the highly qualified rating? Could this 
serve as a disincentive for teachers to teach in high poverty schools?
    Wade Henderson, Leadership Conference on Civil Rights: Do you have 
any suggestions on how to more equitably direct resources to schools 
with high poverty rates to achieve the goals of NCLB?
    Arthur Rothkopf, US Chamber of Commerce:
    <bullet> Would you please speak further about the particular skills 
in which American students have fallen behind in terms of college and 
workplace readiness, in particular at the k-12 level? My district has 
lost many of its manufacturing base but we are on the verge of a huge 
breakthrough in the emerging biofuel industry. How can business and 
education leaders come together to ensure high standards of basic 
education while also educating a workforce for evolving industry?
    <bullet> You state in your written testimony that our problems with 
our public education system cannot be solved by increased funding. Yet, 
low-income and rural communities cannot afford to update their 
equipment and materials, or to fix leaky roofs and dilapidated 
buildings. In these communities there are not the jobs or industry to 
support adequate funding for the schools. Can you address this further 
in terms of your written testimony?
    Mike Casserly, Council of Great City Schools: What do you consider 
to be key elements of any growth model? Can you comment on the 
Administration's implementation of the growth model pilot project and 
do you have ideas for alternative growth models?
    Edward J. McElroy, American Federation of Teachers:
    <bullet> What do you think are the most effective school 
improvement interventions and how should they be incorporated in the 
law? How can we wane away from basing our entire education system on 
tests, that are expensive and take funding away from key educational 
programs like PE, music and art?
    <bullet> How do you recommend teachers play a greater role in 
developing school and district reforms?
    <bullet> How do you respond to the Aspen Commission's highly 
qualified and effective teacher proposal and what do you think are the 
most important steps we can take in order to attract well qualified 
teachers to high-poverty or rural schools?
    Elizabeth Burmaster, Council of Chief State School Officers:
    <bullet> Can you elaborate on what sorts of innovations you would 
like to implement that have been prohibited under current law, and can 
you explain how such innovations would help in our shared goal of 
closing the achievement gap for all of NCLB's subgroups?
    I would again like to thank all the witnesses for their testimony 
and participation in today's discussion with us. I believe many key 
issues were presented which will continue to come up as we move forward 
in the reauthorization process. I look forward to working with you and 
my colleagues to address the problems with the 2001 bill and hopefully 
come up with something that will keep standards high but also set our 
schools and teachers on the track for success. Thank you.
                                 ______
                                 
    [The American Federation of Teachers report, ``Building 
Minds, Minding Buildings,'' can be accessed at the following 
Internet URL:]

    http://www.aft.org/topics/building-conditions/downloads/minding-
                               bldgs.pdf

                                 ______
                                 
    [The Health Report to the American People as included in 
the Working Group's Final Recommendations, released September 
29, 2006, ``Health Care That Works for All Americans,'' can be 
accessed at the following Internet URL:]

  http://www.citizenshealthcare.gov/recommendations/healthreport3.pdf

    [Recommendations from the Business Coalition for Student 
Achievement (BCSA) follows:]

   Framework for Reauthorizing the No Child Left Behind (NCLB) Act: 
           Recommendations to Improve and Strengthen the Law

    The Business Coalition for Student Achievement--representing 
business leaders from every sector of the economy--believes that 
improving the performance of the K-12 education system in the United 
States is necessary to provide a strong foundation for both U.S. 
competitiveness and for individuals to succeed in our rapidly changing 
world. We are committed to working with all stakeholders on this 
essential task.
    The coalition views the No Child Left Behind Act as one of the 
critical tools needed to transform U.S. education so that all students 
graduate academically prepared for college, citizenship and the 21st 
century workplace. NCLB and related federal, state and local policies 
and resources must be aligned to ensure that all students are 
challenged by a rigorous, well-rounded core curriculum in safe and 
engaging learning environments. It also must be supported by policies 
that bolster U.S. scientific and technological leadership.
    We call on Congress to strengthen and improve NCLB provisions and 
funding, while respecting the fundamental features of this historic 
education law that are designed to raise student achievement and close 
achievement gaps:
    <bullet> All students proficient in reading and math by 2014;
    <bullet> Accountability for all groups of students reaching 
proficiency on annual assessments;
    <bullet> Public report cards that include data on the performance 
of each student group;
    <bullet> Highly qualified teachers in every classroom;
    <bullet> Options for students in persistently low-performing 
schools; and
    <bullet> Identification and intervention in schools that need 
improvement.
Focus on college and workplace readiness
    <bullet> Provide incentives for states to raise academic standards 
and improve assessments to align them with college and workplace 
expectations. These incentives should enable states to:
    <bullet> Improve state standards and assessments regularly, with 
input from business and higher education, so that students graduate 
from high school having demonstrated proficiency on assessments of the 
core knowledge, advanced problem-solving skills and critical thinking 
capacities needed to succeed in both postsecondary education and the 
workplace.
    <bullet> Develop state consortia to collaborate on the development 
of standards and assessments benchmarked to the best in the world.
    <bullet> Reform secondary schools and hold them accountable for 
increasing the graduation rate, using the common definition adopted by 
the nation's governors, and graduating students who are ready for 
college and work.
    <bullet> Increase opportunities for high school students to 
participate in Advanced Placement, International Baccalaureate, honors 
and appropriate industry-recognized certification courses.
Emphasize science, technology, engineering and math (STEM)
    <bullet> Increase and align STEM funding with the goals of NCLB and 
require rigorous program evaluation.
    <bullet> Focus funding on scaling up programs to improve teaching 
and learning, such as Math Now and Math and Science Partnerships.
    <bullet> Add science to the adequate yearly progress (AYP) 
accountability system and support state participation in National 
Assessment of Educational Progress (NAEP) science assessments.
Enhance data-driven decision making
    <bullet> Based on commitments from states, provide resources to 
develop statewide data systems that offer timely and accurate 
collection, analysis and use of high quality longitudinal data that 
align to district systems to inform decision making and ultimately to 
improve teacher effectiveness and student achievement.
    <bullet> Provide educator training on the use of data to 
differentiate instruction for students, especially for those who are 
not yet proficient and those who are more advanced.
Increase teacher and principal effectiveness
    <bullet> Shift current definition of ``highly qualified teachers'' 
to a focus on ``highly effective teachers.''
    <bullet> Focus resources on supporting and rewarding both teacher 
and principal effectiveness at improving student achievement by funding 
programs that:
    <bullet> Align preparation, recruitment, induction, retention and 
professional development with the knowledge and skills needed to 
improve student performance and to enable all students to graduate from 
high school ready for postsecondary education and the workplace.
    <bullet> Require the institutions and other entities that receive 
funding for these purposes to evaluate their impact on increased 
educator effectiveness.
    <bullet> Institute performance- and market-based pay programs that: 
reward educators whose performance contributes to substantial growth in 
student achievement, attract and retain effective math and science 
teachers and adjunct faculty, and draw effective teachers and leaders 
to high-need schools.
    <bullet> Develop evaluation systems based principally on improved 
student performance.
    <bullet> Implement policies and practices to quickly and fairly 
remove ineffective educators.
Strengthen and refine accountability
    <bullet> Amend the NCLB accountability system to:
    <bullet> Provide guidance on ways that States can differentiate 
among districts and schools that are close to or far from making 
adequate yearly progress, and ensure that resources for improvement 
focus on those with the highest concentrations of underperforming 
students.
    <bullet> Permit states to use rigorous measures of year-to-year 
growth in student academic achievement and other methods verified by 
the Secretary that are consistent with the goal of all students 
reaching proficiency in reading, math and science.
    <bullet> Close loopholes that allow states to use statistical means 
to ``game'' the accountability system and undermine the intent of 
school restructuring.
    <bullet> Require districts to provide parents with timely and 
easily understood information on their options and allow them to choose 
either supplemental education services or moving to a higher performing 
public school.
    <bullet> Fund development of better assessments for special 
education students and English language learners.
Invest in school improvement and encourage innovation
    <bullet> Increase capacity of states and other entities to better 
assist schools that need help making AYP and that are facing corrective 
action and/or restructuring.
    <bullet> Target funding, assistance and distribution of effective 
educators to high-need schools.
    <bullet> Continue support for innovation, such as charter schools, 
diverse provider models and techniques that effectively integrate 
technology into appropriate aspects of teaching, learning and 
management.
    <bullet> Fund R&D on promising ways to improve school and student 
performance.
                                 ______
                                 
    [Endorsements from the Business Coalition for Student 
Achievement (BCSA) follows:]

                 Coalition Members as of March 2, 2007

Accenture
AeA
A.O. Smith Corporation
Eli Broad, Philanthropist/Businessman
Business Coalition for Education Excellence (NJ)
The Business-Higher Education Forum
Business Roundtable
California Business for Education Excellence
Chamber of Commerce of Fargo Moorhead
The Connecticut Business and Industry Association
Con-Way
Corporate Voices for Working Families
Eastman Chemical Company
EDS
Education Industry Association
Educational Options, Inc.
EMC
Ernst & Young
GlaxoSmithKline
Greater Dallas Chamber of Commerce
The Greater El Paso Chamber of Commerce
Hewlett-Packard
IBM
Illinois Business Roundtable
Indiana Chamber of Commerce
Intel
Jefferson Parish Workforce Business Center
Kalispell Area Chamber of Commerce
Kaplan K-12 Learning Services
The McGraw Hill Companies
MetroWest Chamber of Commerce
Micron Technology, Inc.
Microsoft
Minnesota Business Partnership
Minority Business RoundTable
Montana Chamber of Commerce
Motorola
Naperville Area Chamber of Commerce
National Association of Manufacturers
National Center for Educational Accountability
National Defense Industrial Association
National Roofing Contractors Association
Nationwide
Nevada Manufacturers Association
New Jersey Chamber of Commerce
New Mexico Business Roundtable
Ohio Business Roundtable
Oklahoma Business Education Coalition
Pilgrim's Pride Corporation
Prudential Financial, Inc.
Rhode Island Education Partnership
SAS
ScienceCompanion
Semiconductor Industry Association
Siemens Foundation
Software & Information Industry Association
State Farm
TechNet
Texas Instruments
Union Pacific
Unisys Corporation
U.S. Chamber of Commerce
                                 ______
                                 
    [The prepared statement of Dr. Blumberg follows:]

  Prepared Statement of Linda J. Blumberg, Ph.D., Principal Research 
                     Associate, the Urban Institute

    Mr. Chairman, Mr. Kline, and distinguished Members of the 
Subcommittee, thank you for the opportunity to talk with you today 
about the problems faced by those without health insurance, and to 
share my thoughts on strategies for expanding coverage to them. I 
appreciate the fact that this Committee is considering this important 
issue. While I am an employee of the Urban Institute, this testimony 
reflects my views alone, and does not necessarily reflect those of the 
Urban Institute, its funders, or its Board of Trustees.
    The problems associated with being uninsured are now widely known. 
There is a substantial body of literature showing that the uninsured 
have reduced access to medical care, with many researchers concluding 
that the uninsured often have inferior medical outcomes when an injury 
or illness occurs. Urban Institute researcher Jack Hadley reviewed 25 
years of research and found strong evidence that the uninsured receive 
fewer preventive and diagnostic services, tend to be more severely ill 
when diagnosed, and receive less therapeutic care.\1\ Studies found 
that mortality rates for the uninsured within given time periods were 
from 4 to 25 percent higher than would have been the case had the 
individuals been insured. Other research also indicated that improving 
health status from ``fair'' or ``poor'' to ``very good'' or 
``excellent'' would increase an individual's work effort and annual 
earnings by as much as 20 percent.
    But while the negative ramifications of being without health 
insurance are clear, the number of uninsured continues to grow. 
According to an analysis by my colleagues John Holahan and Allison 
Cook, the number of nonelderly people without health insurance climbed 
by 1.3 million between 2004 and 2005, bringing the rate of uninsurance 
to just under 18 percent of this population.\2\ The vast majority of 
this increase, 85 percent, was among those with incomes below 200 
percent of the federal poverty level. About 77 percent of the increase 
in the uninsured was attributable to adults. In recent years, the share 
of the population with employer-sponsored insurance has fallen, while 
the share of those with public insurance coverage has risen, but by 
smaller amounts. This pattern has persisted since 2000.
    Why is the rate of employer-sponsored insurance falling, causing 
the number of uninsured to climb in recent years? First and foremost is 
increasing premium costs that have outstripped wage and income 
growth.\3\ But additionally, overall employment has been shifting away 
from firms with traditionally high rates of employer-based insurance 
coverage, moving workers into the types of firms that are significantly 
less likely to offer coverage to their workers.\4\ For example, 
employment in medium size and large firms has fallen, and growth has 
occurred among the self-employed and small firms. Employment has 
shifted from manufacturing, finance, and government to services, 
construction, and agriculture. There also has been a population shift 
toward the South and the West, regions with lower rates of employer-
based coverage and higher uninsurance.
    The good news is that policymakers at both the federal and state 
levels are talking about the need to expand health insurance coverage 
again, and some states are already taking action. While proposals are 
being developed in a number of states and at the federal level as well, 
I will focus my attention here on two of the most notable state 
designs, that of Massachusetts and California. I chose both states as 
they delineate potential avenues for bipartisan compromise on this 
issue. In addition, Massachusetts is the only state that has already 
passed legislation, enacting far-reaching health care reform, and 
California is, of course, the largest state, and hence what it can 
accomplish has significant implications for the country as a whole. I 
treat these two approaches as case studies in policy design and use 
them to highlight the types of features required to achieve significant 
coverage expansions as well as the policy challenges faced by such an 
undertaking.
Massachusetts
    There are four main components to the landmark health care reform 
legislation enacted in Massachusetts in April 2006: \5\
    <bullet> A mandate that all adults in the state have health 
insurance if affordable coverage is available (an individual mandate);
    <bullet> A small assessment on employers that do not provide 
coverage to their workers;
    <bullet> A purchasing arrangement--the Commonwealth Health 
Insurance Connector (the Connector)--designed to make affordable 
insurance available to individuals and small businesses and to provide 
subsidized insurance coverage to qualifying individuals/families; and
    <bullet> Premium subsidies to make coverage affordable.
    Theoretically, these components of reform could move the state to 
near-universal coverage; however, many practical issues remain to be 
resolved.
    For example, the individual mandate to purchase health insurance 
will not be enforced unless affordable products are available. The 
definition of ``affordability'' and how it will vary with family 
economic circumstance was not provided in the legislation, and is left 
up to the board of the Connector. This definitional issue is clearly 
critical to the success of the Massachusetts reform and any other 
policy approach to expanding health insurance coverage. Ideally, each 
family would be subsidized to an extent that would allow them to 
purchase coverage within the standard set. Setting the affordability 
standard at a high level (for example, individuals being expected to 
spend up to 15 percent of income on medical care) would mean that the 
individual mandate would have a broad reach and thus increase coverage 
a great deal. This would be true because individuals and families would 
be expected to pay a considerable amount toward their insurance 
coverage, more insurance policies would be considered ``affordable'' by 
this standard, and thus the individual mandate would apply to more 
people. But setting the standard at such a level would also place a 
heavy financial burden on some families and might be considered 
unreasonable. Setting a low affordability standard (for example, 
expecting individuals to spend only up to 6 percent of their income on 
health care) would ease the financial burden of the mandate on 
families, but would increase the per capita government subsidy required 
to ensure that individuals could meet such a standard. To the extent 
the revenues dedicated to the program were not sufficient as a 
consequence, either further revenue sources would be required or 
enrollment in the subsidized plans would have to be capped, and some 
would have to be excluded from the requirement to purchase coverage.
    Under the Massachusetts plan compromise, each employer of more than 
10 workers that does not make a ``fair and reasonable'' contribution to 
their workers' insurance coverage (with ``fair and reasonable'' yet to 
be defined) will be required to pay a per worker, per year assessment 
not to exceed $295 (this amount would be prorated for part-time and 
seasonal workers). This very modest employer payment requirement was 
the product of a compromise between those concerned about a potential 
decline in employer involvement in the financing of health care and 
strong resistance from the business community (especially small 
businesses) to potentially burdensome employer payroll tax assessments. 
The assessment decided upon had widespread support in the business 
community and was acceptable to consumer advocates as well. This broad-
based support was critical for passage of the legislation and continues 
to prove pivotal in garnering continued support through various 
implementation challenges.
    All employers are also required to set up Section 125 plans for 
their workers, so that workers can pay their health insurance premiums 
with pretax dollars, even if their employers do not contribute toward 
their coverage. Those employers who do not establish Section 125 plans 
may be required to pay a portion of the care their employees receive 
through the state's Uncompensated Care Pool, which provides hospital 
care to low-income uninsured persons.
    Ideally, the reform would not cause significant disruption to 
existing insurance arrangements between employers and their workers. As 
currently designed, most employers, particularly large employers 
already offering group coverage, likely will continue to offer 
coverage. The benefits of risk pooling, control over benefit design, 
and lower administrative costs associated with purchasing through a 
large employer will not change under this reform. The situation for 
small employers is likely to be somewhat different, however.
    By allowing workers to purchase coverage on a pre-tax basis through 
Section 125 plans, the Massachusetts reform reduces the incentive for 
small employers to offer coverage to their workers independently. The 
current law tax exemption for employer-sponsored insurance is an 
important motivator for small employers to offer insurance coverage 
today, and the Connector combined with Section 125 plans would level 
the tax playing field between employer provision and individual 
purchase. This is a more important issue for small firms than for large 
firms because small firms face significantly higher administrative 
costs, do not receive the risk pooling benefits of large firms, and are 
more frequently on the cusp between offering and not offering coverage. 
Decisions small firms make under the reform will, however, be quite 
dependent upon the particular plan offerings in the Connector, how 
attractive they are, and whether negotiating power in the Connector 
will be sufficient to generate true premium savings.
    The attractiveness of the benefits offered in the Connector, and 
its size as a consequence, will have important implications for its 
negotiating power--the higher the enrollment, the greater the 
Connector's ability to be a tough price negotiator and to create 
savings in the system. This economic reality of purchasing pools may be 
somewhat at odds with those who would like to see organized public 
purchasers playing a small role in relation to private insurance 
providers. Thus, there is a tension for those that would like to have 
plans that are offered in such a purchasing pool be low cost/high cost 
sharing/limited provider network plans, as such plans have not proved 
popular with most purchasers. Therefore, if a purchasing pool limits 
its offerings to such plans, it may be unable to reach a critical mass 
for negotiating purposes.
    At this time, the Connector will require each insurer to offer four 
different benefit packages of defined levels of actuarial value. In 
another context, offering such variety in benefit generosity could lead 
to adverse selection, with the healthy attracted to the high cost 
sharing/limited benefit plans and premiums in the comprehensive plans 
spiraling upwards. However, in order to protect the viability of more 
comprehensive plans and thus to better meet the needs of those with 
serious medical care needs, the Connector board has instituted a policy 
designed to counteract such a harmful dynamic. Premiums for each 
benefit plan will be set as if the enrollees in all of the insurer's 
plan options were enrolled in that plan. In this way, the premium for a 
particular plan is not a function of the actual health care risks of 
those people who voluntarily enroll in it. This is clearly an important 
first step to ensuring broader sharing of high health care risks. It 
may also be necessary for further risk adjustment across insurers, but 
that remains to be seen, and modifications within the Connector can be 
made if appropriate.
    In addition to selling unsubsidized health insurance to individual 
and small employer purchasers, the Connector will also operate the 
Commonwealth Care Health Insurance Plan (CCHIP), which will provide 
subsidized coverage for those with household incomes up to 300 percent 
of the federal poverty level (FPL). CCHIP has no deductibles, has cost-
sharing requirements that increase with income, and does not charge 
premiums for those individuals with incomes below 100 percent of FPL. 
Premiums on a sliding scale are charged for those between 100 and 300 
percent of FPL.
    It is widely accepted that those with incomes below 100 percent of 
FPL have virtually no ability to finance their own health care needs, 
and that those of modest incomes require significant assistance as 
well. Deductibles and substantial cost-sharing responsibilities are 
likely to prevent the low-income population from accessing medical care 
when necessary; hence, the benefit package offered through CCHIP is 
considerably more comprehensive than that typically offered in the 
private insurance market. These policies are available only to those 
who have not had access to employer-based insurance in the past six 
months, with the hope of reducing the displacement of private employer 
spending by public spending.
California
    The health care reform proposal Governor Schwarzenegger developed 
is an ambitious one. Many of its general components are similar to 
those implemented in Massachusetts, but the details are quite different 
and illustrate the types of choices that policymakers can make, and the 
very significant implications that these details can have. The 
components of the California proposal are the following:
    <bullet> an individual mandate that all Californians have at least 
a minimum level of health insurance coverage;
    <bullet> a ``pay or play'' employer mandate requiring that all 
firms with 10 or more workers pay a 4 percent payroll tax, a liability 
which can be offset by employers' contributions to health insurance for 
their workers and their dependents;
    <bullet> a purchasing arrangement that would provide a guaranteed 
source of insurance coverage for individuals to purchase the minimum 
level of benefits required to satisfy the mandate and that also would 
provide subsidized insurance to eligible individuals;
    <bullet> income-related subsidies to make premiums affordable for 
those with incomes up to 250 percent of FPL.
    The minimum health insurance coverage required to satisfy the 
individual mandate under the California proposal is a $5,000 deductible 
plan with a maximum out-of-pocket limit of $7,500 per person and 
$10,000 per family. This is a package that would require substantially 
more cost sharing than is typical of private insurance today, and thus 
can be expected to be made available at premium levels significantly 
below typical employer-sponsored insurance premiums.
    This minimum plan would be made available on a guaranteed issue 
basis through a new purchasing pool that the Managed Risk Medical 
Insurance Board (MRMIB) would run. MRMIB is a government agency and 
currently runs the Healthy Family's Program (California's SCHIP 
program) and the state's high-risk pool. In the past, the agency also 
ran a small employer health insurance purchasing pool. It is an agency 
experienced in health insurance purchasing, contracting, enrollment, 
and eligibility determination and has a structure for all the 
administrative tasks necessary for these roles; thus, it is an 
excellent choice for basing a new purchasing pool under a broad reform.
    However, the policy that would be offered is likely to be 
unattractive to workers with modest incomes, in particular to those 
over 250 percent of FPL who would be ineligible for subsidized coverage 
and often could not afford to pay such a high deductible. Such a family 
would still be severely limited in their financial access to medical 
services, even with the guaranteed issue policy. Those that do not buy 
policies in the new pool, do not have employer insurance offers, and 
are not eligible for subsidized coverage would be required to purchase 
a policy in the existing private non-group market, and would face all 
the shortcomings inherent in that market. This would be a particularly 
difficult option for older workers and workers with significant health 
care needs, many of whom may not be able to obtain a policy at all in 
that market. Even those lucky enough to be offered a policy would 
likely be unable to obtain an affordable policy with more comprehensive 
benefits and effective access to needed medical care.
    The ``pay or play'' mechanism is a tool for financing the new low-
income subsidies proposed under the plan. This 4 percent payroll tax 
liability creates a significantly higher employer financial 
responsibility than does Massachusetts's employer assessment. Employers 
with fewer than 10 workers are exempt from the tax. Consequently, the 
reform should not impact the smallest employers at all but will provide 
new subsidies and a source for buying coverage for their low-income 
workers.\6\ And because the vast majority of large firms already 
provide health insurance coverage to their workers (98 percent of firms 
with 100 or more workers offered health insurance nationally, as of 
2004 \7\), the biggest impact of this reform would be on the employers 
and workers in firms of 10 to 100 workers.
    The proposal provides some competing incentives that make it 
uncertain whether workers in currently non-offering small firms (of 10 
or more workers) would prefer to have their employers begin to offer 
coverage or would prefer to purchase coverage on their own and have 
their employers pay the payroll tax. First, small firms do not tend to 
be efficient purchasers of health insurance. The administrative loads 
associated with small group insurance can be quite high and might be 
significantly higher than those in the new purchasing pool. This 
imbalance, combined with the inability of small groups to spread their 
health care risks broadly, implies a significant incentive for workers 
to prefer enrolling in pool-based coverage. This incentive would be 
particularly strong for lower-wage workers in small firms, who could 
enroll in a subsidized comprehensive health insurance product through 
the purchasing pool.
    However, the payroll tax assessment works in the reverse direction 
of these incentives. Economists believe that the burden of employer-
paid payroll taxes made on behalf of workers are effectively passed 
back to workers through lower wages paid over time. In the case of the 
California proposal, this would mean that workers whose employers opt 
to pay the tax would experience declines in their incomes relative to 
what their incomes would have been without the reform, and would then 
be required to purchase health insurance directly. In essence, they 
would be paying twice--once for the payroll tax and once for the 
insurance policy; they would get no credit toward the purchase of 
health insurance to account for the fact that their employers (and 
indirectly the employees themselves) were paying the payroll tax.
    While workers eligible for generous subsidies on a comprehensive 
health insurance package might still be better off this way than having 
their employer offer insurance, the same is unlikely to be true for 
unsubsidized workers. The only unsubsidized product available in the 
new purchasing pool would be the very high deductible policies. As 
noted, these policies may be very unattractive to modest-income workers 
with incomes over 250 percent of FPL, who would be ineligible for 
subsidized coverage. Given also the substantial shortcomings of the 
current nongroup market, these issues taken together might create 
significant incentives for workers to ask their employers to begin 
offering health insurance in exchange for wage reductions commensurate 
with their employers' contributions.
    The proposal also would make all children (including undocumented 
residents) in families with incomes up to 300 percent of FPL eligible 
for state subsidized health insurance, all legal adult residents with 
incomes up to 100 percent of FPL eligible for Medicaid at no cost, and 
those between 100 and 250 percent of FPL eligible for subsidized 
coverage through the new state purchasing pool. These expansions would 
cover quite comprehensive health insurance plans and would, on their 
own, lead to significant expansions of coverage in the state. These 
policies also would have important implications for employees of small 
firms in California, since over half of California's uninsured workers 
are employed by firms with fewer than 25 workers, and approximately 
two-thirds of the uninsured workers employed in these small firms have 
incomes that would make them eligible for subsidized insurance.\8\ The 
lower-income workers in these small firms therefore account for over a 
third of all uninsured workers in California.
Conclusions
    A number of states are already developing comprehensive health 
insurance reform plans. However, many more states will not be able to 
accomplish significant reforms on their own due to financial and 
political constraints. Indeed, it is not feasible for any state to 
finance any of the plans and proposals currently on the table without 
accessing at least some federal matching funds. As a consequence, 
federal legislators are now engaged in discussions and policy 
development of their own. Federal involvement will be necessary to 
spread further the early successes some states are seeing.
    Therefore, I would like to take this opportunity to delineate what 
I consider to be the most critical components for the effective 
development of universal or near universal health insurance coverage 
within a private insurance-based system.
    The first component is a comprehensive, subsidized set of insurance 
benefits for the low- and modest-income population. Subsidies should be 
directed to individuals (as opposed to employers), should increase with 
increasing need, and should be sufficient to ensure that adequate 
benefits are made available to meet health care needs at an affordable 
price. While a high deductible plan may be perfectly adequate coverage 
for a high-income person, it will not be adequate to meet the needs of 
someone with more modest means, and meaningful reform must take that 
into account.
    The second component is a guaranteed source of insurance coverage 
for all potential purchasers. The current nongroup insurance markets 
are simply inadequate to do the job. The guaranteed source of coverage 
will most likely need to take the form of an organized purchasing 
entity, such as newly established health insurance purchasing pools, or 
it may also be developed using existing organized purchasers, such as 
government employee benefits plans, state high risk pools, or State 
Children's Health Insurance Programs.
    The third component is a mechanism for broadly spreading the costs 
associated with those who have the greatest need for health care 
services. Importantly, the health care risks of those that enroll in a 
guaranteed accessible insurance plan should not determine the premiums 
charged to individuals in that plan. Instead, the premiums should be 
based on what the premiums would be if a broader population enrolled. 
In this way, choice of varied benefit packages can be maintained, and 
the needs of the most vulnerable Americans can be met.
    The fourth component is either an individual mandate or an 
individual mandate combined with a ``light'' employer mandate. Absent 
automatic enrollment in a fully government-funded insurance system, an 
individual mandate is necessary to achieve universal coverage. Many 
advocate combining an employer mandate of some type with an individual 
mandate to ensure continued employer responsibility in health care. 
Such employer mandates raise a number of difficult political, 
distributional, and legal issues. But Massachusetts, for example, was 
able to enact a non-burdensome employer mandate that should be 
considered a model of political compromise.
    Designing such a reform, complex as it may sound at first, is 
actually the easy part. The most difficult truth is that financial 
resources are necessary for ensuring accessible, affordable, and 
adequate insurance for all Americans. If the political and public will 
strengthens sufficiently in this regard, there are many options for 
identifying the necessary funding. If asked for my personal favorite, I 
would suggest we turn to a redistribution of the existing tax exemption 
for employer-sponsored insurance, providing those with the greatest 
needs the greatest assistance, as opposed to the opposite, which is 
true today. The current level of this tax expenditure is sufficient to 
finance comprehensive health care reform and is already dedicated to 
subsidizing health care insurance. The current spending is not 
particularly effective in expanding coverage, however, since it 
subsidizes most those who are most likely to purchase coverage even in 
the absence of any subsidy. And while the notion of restructure the 
current tax subsidy has been somewhat politically taboo in the past, 
the president himself has recently opened the political conversation 
regarding how best to spend that that money.
    Thank you very much for the opportunity to share my thoughts on 
these important issues.
                                endnotes
    \1\ J. Hadley. 2003. ``Sicker and Poorer--The Consequences of Being 
Uninsured: A Review of the Research on the Relationship between Health 
Insurance, Medical Care Use, Health, Work, and Income,'' Medical Care 
Research and Review 60(2): 3S-75S.
    \2\ J. Holahan and A. Cook. 2006. ``Why Did the Number of Uninsured 
Continue to Increase in 2005?'' Kaiser Commission on Medicaid and the 
Uninsured Issue Paper. http://www.kff.org.
    \3\ M. Chernew, D. Cutler, and P. Kennan. 2005. ``Increasing Health 
Insurance Costs and the Decline in Insurance Coverage,'' Health 
Services Research 40(4): 1021-39; T. Gilmer and R. Kronick. 2005. 
``It's the Premiums, Stupid: Projections of the Uninsured through 
2013,'' Health Affairs Web Exclusive (April 5): w5-143-w5-151; J. 
Hadley. 2006. ``The Effects of Recent Employment Changes and Premium 
Increases on Adults' Insurance Coverage,'' Medical Care Research and 
Review 63(4): 447-76.
    \4\ J. Holahan and A. Cook. 2006. ``Why Did the Number of Uninsured 
Continue to Increase in 2005?'' Kaiser Commission on Medicaid and the 
Uninsured Issue Paper. http://www.kff.org.
    \5\ J. Holahan and L. Blumberg. 2006. ``Massachusetts Health Care 
Reform: A Look at the Issues,'' Health Affairs Web Exclusive, September 
14: w432-43.
    \6\ It should be noted that this ``carve-out'' of employers with 
fewer than 10 workers may provide incentives for the smallest employers 
to stay small and may also create incentives for somewhat larger 
employers to break up into smaller pieces.
    \7\ Agency for Healthcare Research and Quality, Medical Expenditure 
Panel Survey--Insurance Component 2004, calculations based on published 
tables, tables available at http://www.meps.ahcpr.gov/.
    \8\ Author's estimates from the 2004/2005 March Current Population 
Survey.
                                 ______
                                 
    [Letter submitted by Dr. McBride follows:]
                           Wyoming Department of Education,
                                       Cheyenne, WY, March 2, 2007.
Hon. Michael Enzi,
U.S. Senate, Russell Senate Building, Washington, DC.
    Dear Senator Enzi: I appreciate this opportunity to provide you 
with Wyoming's collective inputs for the reauthorization of public law 
107-10 (NCLB). This is a vital piece of legislation that greatly 
affects Wyoming's schools and students, and we appreciate the occasion 
to comment.
    The Wyoming Department of Education has worked for over six months 
with educators, parents, and community members to identify areas of 
improvement for the reauthorization.
    You and I have discussed the reauthorization of NCLB on several 
occasions. In early December 2006, I asked all Wyoming districts to 
provide their recommendations on what changes or adjustments should be 
made to NCLB.
    We have discussed the unique nature of some of our western states 
and, in particular, Wyoming. The key to many of our western state's 
success will be the allowance for maximum financial and academic 
flexibility. As you know, one-third of our districts have 300 or less 
students and these ``frontier schools'' are generally located in small, 
isolated communities.
    Choice is often difficult, if not an impossible option for these 
schools to offer. In addition, Wyoming has three approved supplemental 
service providers, each of which provides its services online. None of 
these have shown real promise in addressing the needs of our struggling 
districts. The solution in these areas will likely come from aggressive 
staff development activities, community support and technical 
assistance visits from my office.
    The Wyoming Department of Education has structured its comments in 
the following six areas and has included, where appropriate, what our 
staff considers a ``proposed solution'' for each concern:
    1. SEA Capacity Building
    2. Highly Qualified Teachers
    3. Assessment
    4. Accountability Systems
    5. Subgroup Issues
    6. Funding
    I appreciate your support on these issues and look forward to 
having an opportunity to discuss the future of No Child Left Behind 
with you.
            Sincerely,
                                        Jim McBride, Ed.D.,
                      Wyoming Superintendent of Public Instruction.

    Wyoming is a rural state that serves 48 districts and 362 schools. 
The issue of adequate state capacity to serve districts and schools is 
limited due to small population and the lack of federal and state 
resources. The lack of resources to provide technical assistance in 
rural states impacts the following areas:
    a) Hiring and retaining highly qualified department staff,
    b) Availability of research based products and services,
    c) Implementing quality data systems in all districts and
    d) Adequate technical assistance budget.
    The escalating nature of the costs of technical assistance provided 
by the state is increasing as schools and districts work toward 
achieving the rigorous requirements of NCLB.
    Proposed Solution: In order to overcome the resource problems, we 
recommend that the NCLB reauthorization include an increase in federal 
administration and technical assistance funds. We also recommend that 
these funds have greater flexibility so that they can be combined in 
support of state and district improvement initiatives.
Highly Qualified Teachers (HQT)
    The following concerns address specific teaching disciplines. While 
these concerns present the greatest operational obstacles posed by NCLB 
regarding HQT, the conceptual framework of NCLB and HQT recognizes that 
``knowledge in a specific content'' (quality instruction) is the 
greatest, single indication of student achievement. The federal 
guideline for HQT limits our ability to develop and teach integrated 
and diverse classes.
    For example, teachers in Wyoming's small rural schools are often 
assigned to teach in more than one endorsement area; this is especially 
true for Social Studies, Middle School, and Special Education. NCLB 
requires that a certified Social Studies teacher be highly qualified in 
Geography, History, Economics, Civics and Government. In many cases, 
this requirement is extraordinarily difficult to meet in Wyoming.
    Additionally, most middle and secondary Social Studies classes are 
offered via an integrated standards-based curriculum which includes all 
four areas; subsequently, a teacher prep program that trains teachers 
to instruct integrated content, such as a Social Studies Composite 
major, is much more supportive of small, rural ``frontier'' schools. 
These majors could be developed by our university, but must be 
recognized as highly qualified by PTSB, NCLB and the U.S. Department of 
Education.
    Proposed Solution: Recognize teachers with a content major in 
Social Studies as highly qualified in History, Geography, Economics, 
and Civics and Government.
    Integrated, cooperative teaching, the mainstay of the middle school 
concept, is hindered by the HQT requirements of NCLB. If we could 
overcome this issue, integrated instruction would probably expand to 
our high schools. Without relief, it will continue to be difficult for 
Wyoming districts to recruit teachers who have all of the required NCLB 
endorsements.
    Proposed Solution: Recognize the importance of integrated, 
cooperative teaching at all levels.
    In rural high schools, one special education teacher is assigned to 
work with students in all content areas--and depending on the academic 
needs of the student(s)--the least restrictive placement may be one in 
which the SPED teacher is the teacher of record. The needs and number 
of students in special education change throughout the school year; 
consequently, the role of the special education teacher needs to be 
flexible enough to serve students as needed.
    Special educators, more than any other teaching major, are 
specifically trained to provide instruction to meet the individual 
learning needs and styles of each student.
    Proposed Solution: Special education (SPED) teachers need to be 
acknowledged as highly qualified if they are the teacher of record, 
consult, or co-teach based upon the needs of the students they serve. 
(Recognizing the teacher of record concept would also support 
integrated instruction)
    Wyoming's rural small schools do not fit into the ``one size fits 
all'' plan mandated by NCLB. In addition, Wyoming's teaching 
certification requirements occasionally do not match the HQT mandate; 
consequently, at times, we may have teachers who are highly qualified 
but do not meet the requirements for Wyoming certification.
    Proposed Solution: On the surface, this seems like a problem unique 
to Wyoming since the Professional Teaching Standards Board (PTSB) is a 
separate organization from the Wyoming Department of Education. 
However, if Wyoming's PTSB and Department of Education agree on HQT 
standard, we would ask that the U.S. Department of Education and NCLB 
recognize and grant HQT approval to our definitions
Assessment
    Testing must reflect multiple measures, aggregated by highest score 
and stability. Individual student learning will be obtained by:
    a) Measures over time,
    b) Focus upon growth and learning; and
    c) Provision of accuracy in the system to measure growth and 
learning.
    By demonstrating proficiency through a growth model assessment 
design, a school can better track a student's needs, strengths and 
weaknesses from year-to-year. By developing a growth model format for 
assessment, all student sub-groups receive the focus they need and 
teachers are better prepared for grade transitions of students. Wyoming 
is in its second year of a new, state assessment. After the 2006-07 
academic year, growth model development would be possible.
    We could continue to require proficiency of state standards, but 
track a student's positive progress based on his/her skills. This would 
also allow gifted and remedial students to receive differentiated 
instruction, guidance and attention for growth although their skills 
are at different levels.
    The reporting of data must be available in a timely manner to 
impact learning and be readily understandable for educators and 
parents.
    Proposed Solution: Develop a growth model format for assessment 
that tracks student achievement based on skills yet uses state 
standards to demonstrate proficiency.
Accountability Systems
    Currently, Adequate Yearly Progress (AYP) requires accountability 
systems throughout the country to look at a single snapshot to 
determine the achievement level of groups of students. This does not 
offer schools/LEAs the opportunity to show how they reach individual 
students.
    Student achievement should reflect the gains in achievement of 
individual students over time (growth models). Growth models would give 
schools credit for student improvement over time by tracking individual 
student achievement year to year.
    Proposed Solution: Accountability systems need to move beyond a 
status model of achievement and look at how ``individual student 
achievement'' grows over time.
    Schools and LEAs are each unique--with different students, staffs, 
and cultures. Therefore, schools/LEAs must take the time and effort to 
identify true needs while implementing required sanctions.
    For instance, a school missing Adequate Yearly Progress (AYP) in 
several subgroups tends to have very different needs from a school 
missing AYP in only one subgroup. Under these circumstances, it may be 
better for the students to have teachers receive high quality 
professional development to meet the needs of their student population 
rather than offering additional tutoring services from outside 
provider.
    It is absolutely imperative that schools and LEAs show:
    a) Documentation of their needs
    b) Why their selected corrective strategy will increase their 
capacity to meet those needs
    c) Continuous documentation of the progress toward meeting the 
defined goals
    d) Evaluation of the success the school
    e) How it met the need and building capacity
    f) That it included intense levels of technical assistance from LEA 
and SEA to address true needs.
    Also, the sanctions on a school/LEA must focus on the students who 
missed AYP. Sanctions of Supplemental Education Services (SES) for 
schools in Year Two of School Improvement make it possible for the 
students eligible for the service to be completely different than the 
subgroup that missed AYP. The primary benefactors of SES should be 
students who did not achieve proficiency, not just any student in a 
school that did not meet AYP.
    Proposed Solution: The needs of schools/local education agencies 
(LEA) vary. Sanctions need ``flexibility and staff capacity building'' 
to ensure that the needs of students are met.
Subgroup Issues
    Subgroup progress should be included as part of an accountability 
system.
    English Language Learners: The ELL subgroup continues to be a 
complex issue because of the length of time it takes for students to 
achieve English proficiency in the use of academic language.
    The scores of students in this subgroup should not be included in 
AYP calculations until the students have reached proficiency as 
established by our state English Language Proficiency assessment 
(WELLA).
    We should exempt ELL students from taking the Language Arts content 
sections of PAWS and have them take the WELLA as a substitute to show 
growth for their first three years in the country or until they have 
reached English Proficiency, whichever comes first. Currently the 
exemption is for one year in the country.
    Students with Disabilities: All materials support retaining the 
100% proficiency goal for Students with Disabilities, (SWD subgroup), 
but focus on individual student growth (growth model). The student's 
IEP academic focus should be considered to determine student growth in 
this model.
    Proposed Solution: The federal government should invest in research 
and funding of NCLB considering the high level of data (student level 
data), subgroup tracking, and costs of assessments such as the ELP 
assessment and modified or alternate assessments.
Funding
    Wyoming believes funding of NCLB, a guaranteed, stable, dedicated 
threshold should be granted to all states with a significant degree of 
flexibility within the state for disbursement to LEAs.
    One area of concern is schools in ``improvement year 4 or 5.'' The 
required development and implementation of a ``restructuring plan'' 
will probably be prohibitively expensive and may meet the definition of 
an ``unfunded mandate.'' We would strongly suggest special funding to 
address ``restructuring implementation.''
    Additionally, some districts may require more funding for English 
Language Learners (ELL) and others may have little or no need for 
funding in that particular area. Furthermore, when funding has been 
appropriately disbursed at the local and state levels, unspent funds 
could be re-directed in ways that would seem to improve student 
success, i.e., technical assistance. With the exception of 
restructuring, the Wyoming Department of Education does not subscribe 
to the belief of some that NCLB is an unfunded mandate. Rather, funding 
is perceived to be adequate, especially if funding and transfer options 
were less restrictive but remain accountable.
    Proposed Solution: A flexible, yet defensible accounting of state 
funding would allow for the diverse circumstances found within Wyoming. 
Additional funds will likely be needed for restructuring 
implementation.
                                 ______
                                 
    [The prepared statement of Mr. Griffith follows:]

  Prepared Statement of David Griffith, National Association of State 
                          Boards of Education

Minding the Gaps
    Thank you Chairman Kennedy, Chairman Miller, Senator Enzi, 
Congressman McKeon, and distinguished members of the Senate and House 
Education Committees for the opportunity to provide testimony to the 
bicameral hearing on how to improve the No Child Left Behind Act to 
close the achievement gap.
    As you know, the core components of the No Child Left Behind Act--
standards, assessments, accountability, and teacher quality--are 
fundamental to the work and authority of state boards of education. As 
their professional membership organization, the National Association of 
State Boards of Education (NASBE) is pleased to provide you with the 
perspective of our members, their first-hand experiences in developing 
state policies and implementing NCLB, and our organizational research 
about the most effective strategies to close the achievement gap.
    Today, as states, districts, and schools move forward in fulfilling 
the requirements and the vision of the No Child Left Behind Act (NCLB), 
this nation is being confronted more explicitly than ever by the wide 
gaps in academic achievement that exist between successful students 
(preponderantly middle and upper income whites and Asians) and those 
students who are far from achieving to their potential (generally low-
income students of every race and ethnic group, students in special 
education, and students attending low-performing schools). And while 
large numbers of students from all backgrounds can be found in the 
under-achieving groups, the situation for minorities, particularly 
African-Americans, Latinos, and Native Americans, is especially 
alarming. All too frequently these students carry multiple burdens, as 
they are stuck in poverty, stuck in special education, and stuck in 
low-performing schools.
    But performance gaps don't just exist in terms of test scores. 
There are also significant gaps among groups of students in terms of 
dropout rates, placement in advanced classes, who gets good teachers, 
and who goes to college.
    At the same time, other gaps appear when it comes to system 
performance. In this case, states themselves can differ markedly not 
only in terms of student achievement, but in terms of the financial and 
other support they offer their neediest districts. And significant gaps 
in performance exist between school districts and between individual 
schools, even when they are provided with equal resources and serve 
families and students with roughly the same characteristics.
    It is frequently noted that achievement gaps among different racial 
and ethnic groups, as measured by results from the National Assessment 
of Education Progress (NAEP), narrowed somewhat in the 1970s and 1980s, 
only to stagnate or even widen during the 1990s. Into the 21st Century, 
the most recent NAEP exams and other indicators portray a stark picture 
of education gaps in America today.
    What is perhaps most notable about this data is that the gap 
between poor and not poor students (using eligibility for free or 
reduced lunch as the qualifier for being ``poor '') is nearly identical 
to the gaps between other groups.
    The same is true in terms of the percentage of poor students 
scoring below basic. For example, nationally 54 percent of poor 
students scored below basic on the 2005 4th grade reading exam and 43 
percent of poor students scored below basic on the 2005 8th grade math 
exam, compared with 23 percent and 19 percent respectively for students 
who are not poor.
    Poor students comprise every racial and ethnic group, but the 
majority of poor students are white. Indeed, in a number of states that 
have small minority populations, the vast majority of poor students are 
white--and yet the poor versus non-poor achievement gaps are still very 
large. So while African-Americans, Latinos, and Native Americans are 
disproportionately affected by poverty, policymakers seeking to improve 
the achievement of all students should not think only in terms of 
minorities
    There is no doubt that gaps, both in terms of opportunity to learn 
and achievement, show up very early, well before children get to 
school. As demographer Harold Hodgkinson concludes in his 2003 report, 
Leaving Too Many Children Behind:
    Long before children knock on the kindergarten door--during the 
crucial period from birth to age five when humans learn more than 
during any other five-year period--forces have already been put in 
place that encourage some children to ``shine'' and fulfill their 
potential in school and life while other forces stunt the growth and 
development of children who have just as much potential. The cost to 
the nation in terms of talent unfulfilled and lives of promise wasted 
is enormous.
    It is also clear that most of the negative ``forces'' on children 
are related to poverty and the educational attainment of parents. 
Census and achievement data highlight these early gaps:
    <bullet> In 2000, about 17 percent of all children in the United 
States lived in poverty (up from 15 percent in 1971), a figure higher 
than for any other industrialized country.
    <bullet> In 1999, about one-third of all births were to single 
mothers. Statistically, children raised by single parents are two to 
three times more likely to live in poverty than those raised by both 
parents.
    <bullet> Math and reading achievement data show that even at the 
beginning of kindergarten, children from the lowest socio-economic 
status (SES) quintile are already substantially behind their better-off 
peers
    <bullet> A study of California children found that almost percent 
of the white--Latino mathematics gap observed on the 2003 NAEP 8th 
grade test is already apparent at entry to kindergarten.
    Some educators are concerned that when confronted with higher 
expectations and high-stakes exit exams, many struggling students will 
simply choose to drop out, especially if there is a lack of support. 
Evidence of an increase in dropout rates in the face of higher 
standards is mixed, but without question school systems already face a 
huge problem with dropout and lack-of-completion rates--and again it 
mirrors the achievement data in terms of which students are most 
affected.
    Finally, we should acknowledge that there are also serious gaps 
among states. On the 2003 NAEP 4th grade reading exam, for example, the 
top eight states in the nation had an average score of 226, while the 
lowest-scoring eight states had average scores below 210. Looking at 
the data in another way, for the lowest 12 performing states, this 
meant that nearly half of all students scored below basic, while for 
the highest 12 performing states, on average 29 percent of students 
scored below basic.
    On the 2003 8th grade math test, there were even greater gaps, with 
the highest state average at 291 and the lowest at 261. Discouragingly, 
this meant that for the poorest performing state, the average state 
score was below the Basic level.
    And yet, despite the litany of achievement and other gaps with 
which the committee members are surely familiar, there is an abundance 
of the positive research on teaching, learning, and school leaders, the 
emergence of data and evaluation systems that can help educators 
pinpoint problems and improve practice, and the number of success 
stories that can be found at the state, district, and school levels.
    At the state level, Latinos in Virginia regularly score higher than 
Latinos in other states on the NAEP 8th grade reading exam, and on the 
2003 exam outscored white 8th graders in eight other states. All this 
despite an influx of immigrants that more than doubled the state's 
Latino population since 1990.
    At the school level, there are literally hundreds of schools that 
have made great gains in achievement levels in recent years despite 
having many students from challenging backgrounds. A typical example of 
such schools is Samuel Tucker Elementary in Alexandria, Virginia, which 
has a student population that is 25 percent Latino, 43 percent African-
American, and 17 percent white, with 56 percent receiving free or 
reduced-price lunch. Students in every subgroup beat the state average 
in terms of percentage passing state math and language arts tests, but 
even more impressively, the subgroup passing rates at the school nearly 
equal or exceed the passing rates for whites statewide.
    Despite the uneven record, state board of education members are 
optimistic and convinced that there are many actions national and state 
policymakers can take to close achievement gaps. But the first task for 
education leaders is to do an inventory of what has been done to raise 
achievement and close gaps. Simply put, we must ask ourselves a series 
of tough questions about the steps that should be taken, answer them 
forthrightly, and then be willing to take action where needed.
    Nevertheless, there are a lot of questions, many with far-ranging 
implications--and we don't presume that our recommendations are 
inclusive. No one should fool themselves that the task ahead is not 
enormous. There are many different but coordinated, focused, and 
sustained steps and actions to be taken.
    There are four key areas federal and state leaders must address if 
they are to bring isolated examples of success to scale statewide. The 
critical steps we have identified are areas in which a reauthorized No 
Child Left Behind Act can help states systemically raise achievement 
levels for all and close gap.
    1. Bolster the States' technical infrastructure needed to collect, 
disaggregate, and report data at the school, district, and state levels 
to understand achievement patterns. States need to collect and analyze 
this information in order to target low student achievement and the 
corollary factors that may contribute to poor performance. In addition, 
the data should enable states to identify those districts and schools 
that have successfully produced high performance (particularly in areas 
where low-income and diverse ethnic and racial student groups 
predominate).
    In short, NCLB must go beyond using data merely to identify 
problems or schools ``in need of improvement.'' NCLB's exclusive focus 
on state assessments and failure to make ``adequate yearly progress'' 
(AYP) fails to take account of the fundamental systemic and capacity 
issues within schools, districts, and states that perpetuate low 
achievement. This narrow view also misses out on valuable information 
that could and should be used to help improve the design and 
implementation of academic and support programs.
    2. Ensure that States' pre-service and professional development 
programs provide educators with the knowledge and skills to continually 
monitor students' achievement and to intervene quickly when students 
are not progressing sufficiently. Policies on certification, 
professional development, school improvement planning, and intervention 
must go beyond the simplistic determination of whether a teacher is 
``highly-qualified'' or not and have the power to make a meaningful 
difference in student performance. It is not a mystery. A substantial 
body of research supports particular practices in teaching, assessment, 
classroom organization, and curriculum.
    3. Maintain the sharp focus on student achievement but apply 
research-proven strategies and monitor their implementation and impact. 
The research literature is replete with practices and strategies that 
can significantly accelerate students' rates of progress. 
Unfortunately, these strategies and practices remain under-utilized. 
One result, for example, is that despite extensive research on early 
reading development, scores from the 2005 NAEP 4th grade reading 
assessment show that more than one out of every three students reads 
below basic (36 percent). Students who reach 3rd or 4th grade 
significantly below grade level will never catch up with their peers 
because of the lack of systematic interventions to accelerate their 
progress rate.
    The importance of implementing strategies that focus on small but 
immediate improvements and monitoring their impact cannot be 
overstated. For example, utilizing goal setting, teamwork, and 
monitoring of performance data, Colorado's Weld County School District 
6 successfully raised overall student achievement while at the same 
time reducing disparities between high- and low-income students. 
Teachers introduced multiple interventions in reading, mathematics, and 
writing and monitored student performance monthly and quarterly.
    New flexibility needs to be incorporated into NCLB so that States 
can use successful local districts and schools as laboratories for 
experimenting with alternate solutions and institute computerized 
feedback systems to examine not only data on outcomes, but on those 
elements that may or may not correlate with outcomes (e.g., resource 
allocations and staffing patterns).
    4. Implement evaluation strategies to determine impact and 
unintended consequences. Because closing achievement gaps and raising 
performance levels for all students is such a complex undertaking, 
policymakers at every level must steadfastly ask about the 
effectiveness of their policies and constantly be aware that well-
intentioned initiatives or directives in one area can have unfortunate 
consequences in another. This, as experience has shown, has been 
especially true of the No Child Left Behind Act.
Opportunities to Learn
    More broadly, there is a close relationship between closing 
achievement gaps and providing all students with a real opportunity to 
learn. Below are a number of recommendations to ensure an opportunity 
to learn for all students for lawmakers to consider as they develop 
NCLB reauthorization priorities.
    1. Establish a process to assess disparities in the degree to which 
different groups have access to educational opportunities. Many 
minority and low-income students are disproportionately excluded from 
schools, college preparatory programs, and various school activities. 
It is essential to collect disaggregated data on the numbers of 
students by subgroup on suspensions and expulsions, dropouts, special 
education placements, as well as the numbers assigned to gifted 
programs, advanced placement courses, and those who cannot participate 
in school activities due to social/economic barriers (i.e., finances, 
transportation). For instance, the North Carolina Advisory Commission 
on Raising Achievement and Closing Gaps found that during a three-year 
period, more than half of the long-term suspended students were 
African-American or multi-racial, even though the African-American 
student population was only 33 percent of the public school population.
    2. Align clear standards and curricular frameworks to ensure that 
every school uses a rigorous curriculum. The research is clear--
students who complete a strong college preparatory sequence perform 
much higher on NAEP and are more likely to graduate from college. 
School-based factors are those largely under the school's control, and 
hence responsive to formal and informal policy decisions (e.g., 
accreditation, certification, school improvement planning, state 
intervention). Based on hundreds of studies, the noted education 
research Robert Marzano identified implementation of a guaranteed and 
viable curriculum as the most important factor in student success.
    One key aspect of delivering a rigorous curriculum is ``time.'' As 
David Berliner notes, academic learning time is a complex measure of 
``that part of allocated time in a subject-matter area in which a 
student is engaged successfully in the activities or with the materials 
to which he or she is exposed, and in which those activities and 
materials are related to educational outcomes that are valued.'' 
Researchers have found that extensive academic engagement is a primary 
factor in high-performing classrooms and schools. For example, eight 
out of 10 high-poverty, high-performing schools included in the 
Education Trust's Dispelling the Myth study increased instructional 
time in reading and math to improve student achievement.
    3. Resolve the conflicting imperatives that ask schools both to 
sort students according to ability and to develop high achievement 
among all students. States must provide clear and public standards of 
what all students should learn at benchmark grade levels. 
Unfortunately, too many States' standards lack clarity, alignment, and 
consistency. In addition, longstanding policies maintain the sorting 
mechanisms that work at cross-purposes with state efforts to bring 
every student to high standards. In particular, low-income and minority 
students who fall behind their peers during the early years often 
continue to be sorted into slower-paced remedial classes that compound 
their low achievement over time.
    Students in high-poverty areas generally report on the lack of 
educational rigor in their schools. Young people talk about teachers 
who often do not know the subjects that they are teaching, counselors 
who consistently underestimate their potential and place them in lower-
level courses, and a curriculum and set of expectations so miserably 
low that they bore the students right out the school door.
    Unfortunately, engaging curricula that ask students to think and 
discuss their ideas are implemented in schools in inequitable ways; 
while only 15 percent of white 12th graders are exposed to a curriculum 
that asks them to complete daily ditto worksheets, nearly one-quarter 
of Latino and African-American 12th graders are.
    4. Facilitate equitable distribution of academic and other 
resources such as quality staffing, facilities, and instructional 
materials. In areas of high poverty, schools are often operating at two 
and three times their intended student capacity, which reduces the 
availability of important academic resources such as libraries and 
computer labs. African-American students are four times as likely as 
white eighth-grade students to have science classes with no access to 
running water. Such basic inadequacies are coupled with less emphasis 
on developing hands-on lab skills and minimal requirements for 
synthesizing data and writing lab reports. Districts and schools vary 
widely in how much support they provide teachers (i.e., curriculum 
frameworks, bridge documents, diagnostic instruments, instructional 
technology, and support personnel). The lack of resources leads to 
reduction in the amount of active student engagement in learning course 
content.
    5. Encourage States to design policies consistent with the research 
on instruction that promotes high levels of academic engagement in 
order to improve student achievement. Researchers have identified an 
extensive number of successful instructional strategies, and have even 
demonstrated their relative effectiveness with highly diverse student 
populations--yet these findings remain consistently underutilized, 
particularly with students in high-need areas.
    States must ensure that all policies are designed to capitalize on 
the rich knowledge base on effective teaching practices. There is much 
room for improvement in this area. According to one set of researchers, 
``Of the 20 or more most powerful teaching strategies that cross 
subject areas and have a historical track record of high payoff in 
terms of student effects, we speculate that fewer than 10 percent of 
us--kindergarten through university level--regularly employ more than 
one of these strategies.''
    6. Standards and curriculum frameworks should emphasize literacy 
and writing skills at all levels and across all curricula. Reading is 
the basis on which all academic successes are built, more than income, 
age, ethnicity, or level of parental education.
    Decades of research tell us that reading readiness is the best 
predictor of 4th grade performance in both reading and math and that 
students are less likely to graduate from high school if they do not 
read moderately well by the end of grade 3. It is now widely accepted 
that through carefully planned instruction and extended opportunities 
to read and write, children can achieve success despite differences in 
their home environment. During the early years, teachers must provide 
the instructional scaffolding that systematically builds children's 
phonological awareness, phonics, vocabulary, comprehension, reading 
fluency, and writing.
    In fact, when students and teachers increase the frequency of their 
informative writing assessments, student scores increase not only on 
state and district writing assessments, but also in mathematics, 
science, social studies, and reading. Moreover, school improvement 
goals that emphasize core areas--reading, writing, and math--do not 
implicitly preclude substantial attention to science, social studies, 
music, art, and physical education. Rather, there is a clarion call to 
integrate core areas across all domains and avoid the curriculum 
fragmentation that prevails, particularly in middle and high schools.
Funding
    Volumes have been written about school finance, and we cannot hope 
to do full justice to the topic here. However, education funding--both 
the amount of money and how that money is distributed and used--is such 
a key element of creating an opportunity to learn for all students and 
for closing achievement gaps that we feel compelled to make several 
points in this area.
    First, it is important to understand that education funding is in a 
watershed era. For much of the last 30 years, finance equity, and the 
lawsuits on the part of poorer school districts claiming that they do 
not receive their fair share of state funding, have dominated discourse 
in state capitols and courtrooms.
    Over the last decade, however, policymakers, educators, and judges 
have been more likely to talk about adequacy: that is, what level of 
funding is needed to ensure that every student receives an adequate 
education. It is no accident that adequacy has emerged at roughly the 
same time as the standards-based reform movement. And now that the No 
Child Left Behind Act demands that students meet certain proficiency 
goals, the question has naturally arisen as to whether schools and 
districts have the resources necessary to bring students to these 
levels. This is precisely what judges across the country have been--and 
are likely to continue to be--asking. As the national Committee on 
Education Finance said in its 1999 report, Making Money Matter, the 
concept of adequacy is particularly useful ``because it shifts the 
focus of finance policy from revenue inputs to spending and educational 
outcomes and forces discussion of how much money is needed to achieve 
what ends.''
    For closing achievement gaps, the difference between equal and 
adequate is critical, which can clearly be seen in New York City's 
lawsuit against the state's funding system. As a Standard and Poor's 
report points out, while the City receives a share of state aid roughly 
equal to its share of the state's student population, this is ``not 
necessarily an * * * adequate share, because the City enrolls a 
disproportionate percentage of educationally disadvantaged students who 
typically cost more to educate.'' Indeed, the S&P study found that 
while the City ``enrolls 37.7 percent of the State's students, it 
enrolls 62.6 percent of the State's economically disadvantaged 
students, and 73.9 percent of its limited English proficient students. 
* * * Both groups of students typically need additional educational 
resources.''
    Just how much more money disadvantaged students cost remains an 
open question, but estimates commonly range from 20 percent to 40 
percent more per student. But it should also be noted that such 
``adequacy'' court decisions are not always just about money, but how 
the money is used and distributed. Indeed, in what is widely regarded 
as the first of the adequacy decisions, the Kentucky Supreme Court in 
the 1989 Rose case found the entire system of school governance and 
finance to be unconstitutional and essentially said that equal outcomes 
for students are as important as equitable funding.
    In short, adequacy, especially when applied to disadvantaged 
students, is likely to involve both more funding and strategically 
thought-out targeting of the money. And even the best achievement gap 
strategies must be accompanied by the resources to turn effective 
policies into successful practice. We appreciate the ambitious 
authorization levels included in the No Child Left Behind Act. But we 
hope during this reauthorization that lawmakers appreciate the funding 
requirements for what they are demanding and that actual appropriations 
more closely match authorized levels.
    Thank you for the opportunity to offer our views on ways in which 
the No Child Left Behind Act can be improved upon to better close the 
achievement gap.
                                 ______
                                 
    [The prepared statement of the National Association of 
Secondary School Principals (NASSP) follows:]

  Prepared Statement of the National Association of Secondary School 
                           Principals (NASSP)

    In existence since 1916, the National Association of Secondary 
School Principals (NASSP) is the preeminent organization of and 
national voice for middle level and high school principals, assistant 
principals, and aspiring school leaders from across the United States 
and more than 45 countries around the world. The mission of NASSP is to 
promote excellence in middle level and high school leadership.
No Child Left Behind Act (NCLB)
    In October 2004, NASSP formed a 12-member practitioner-based task 
force made up of principals and post-secondary educators representing 
all parts of the country to study the effects of the No Child Left 
Behind Act (NCLB) as they applied to school leaders and the nation's 
diverse education structure. Principals can no longer just speak to 
narrowing the achievement gap. They must be able to make decisions that 
will improve teaching and learning for all students. Closing the 
achievement gaps and increasing student achievement are certainly among 
the highest educational priorities of secondary school principals, and 
our members accept accountability for results. We have seen gains in 
student achievement that can be directly related to the law and to the 
emerging conversations about improved student achievement.
    Concerns remain with the fairness, consistency and flexibility with 
which the law has been implemented as well as the law's provisions to 
help schools build or enhance capacity among teachers and leaders to 
meet student achievement mandates. The recommendations released by the 
task force in June 2005 address the disconnect that exists between 
policy created in Washington, D.C. and the realities that affect 
teaching and learning at the school building level. NASSP strongly 
believes that these recommendations reflect the real world, common 
sense perspective that will help to bridge that gap and clear some of 
the obstacles that affect principals and teachers as they work toward 
improving student achievement and overall school quality.
Fairness--Growth Models
    NASSP recommends that states be allowed to measure adequate yearly 
progress (AYP) for each student subgroup on the basis of state-
developed growth formulas that calculate growth in individual student 
achievement from year to year. Not only would an accountability system 
based on growth models be fairer to schools, but it makes more sense 
for measuring student achievement for all subgroups.
    Using a single score to measure whether a student is making 
progress ignores many issues, but primarily the academic growth of each 
student. Any student may be proficient from year to year. However, 
proficiency does not necessarily translate into individual progress. 
Our members have reported variances in their students' progress as they 
have moved from elementary to middle to high school. A lot of this can 
be correlated to both developmental and curriculum changes, and though 
these students may continue to be proficient year after year, the law 
requires that principals focus on individual grade-level growth as 
opposed to individual student growth.
    Achievement, or improvement, models allow schools and districts to 
chart performance for different groups of students each year. For 
example, we compare this year's seventh-grade scores to last year's 
seventh-grade scores. Such systems do not take into account the 
differences in the groups of students and do not tell us whether we 
really made any improvement in our instruction or in the yearly 
outcomes for individual students.
    In addition, focusing on that cut score encourages schools to focus 
only on those students who are close to meeting that goal and not on 
the educational needs of those students who may have the greatest need. 
Individual student growth, reported over time from year to year, gives 
teachers and administrators the best possible information about whether 
the instructional needs of every student are being met.
    NASSP was encouraged when the U.S. Department of Education (ED) 
announced a pilot program in December 2005 that would allow up to ten 
states to develop and implement growth model accountability systems. 
North Carolina and Tennessee were the only states approved to implement 
their systems during the 2005-2006 school year, but we believe this 
breakthrough will show that schools need this information to provide 
the best possible opportunity for the improvement of student academic 
achievement for every child.
    The growth model appropriately recognizes achievement gains of 
students with disabilities and those who are English language learners. 
We would like to see additional flexibility granted in the law for 
growth models beyond the current safe harbor provision, which does not 
track individual student growth.
Consistency--Multiple Assessments
    The NASSP NCLB Legislative Recommendations also state that AYP 
should not be based on the results of one test, but should be based on 
the results of multiple assessments and multiple opportunities to take 
the test. We strongly recommend that students be tested on a regular, 
consistent basis to analyze what they have or have not learned, and 
that schools be measured based on these multiple assessments. Teachers 
can use the data from these assessments to develop effective strategies 
to address individual student academic weaknesses and to build upon 
student strengths diagnosed by the assessments.
    Assessment practices that use diagnostic data, and not the 
``score,'' give educators an impetus to prepare, plan, and focus on 
student success--individually, student by student. To view testing 
narrowly, as simply a measurement of a school's success or failure, 
misses the broader point. Simply stated, the purpose of testing is to 
inform instruction and improve learning. High-quality assessments that 
are diagnostic in nature are the key to improving instruction and thus 
student achievement. Hold educators accountable, but ensure that they 
have the resources, the preparation, the training, a strong curriculum, 
and useful assessment data to get the job done. If we can do that, then 
our students will achieve, and our schools will have truly passed the 
test.
    Many of our members have also expressed concern regarding the 
requirement that 95% of a school's students must be in attendance for 
testing. Depending on the subgroup size designated in a particular 
state and a school's average daily attendance, that single requirement 
could mean not making AYP. Other factors such as mobility rates during 
certain times of the year, migrant movement between states and outside 
the country, and student delinquency may also play a role in school 
participation rates.
    For schools with astounding mobility rates--as much as a third of 
the student population--participation rates pose an even greater 
concern. While every effort is being made to reach the 95% 
participation rate, individual schools with improving attendance rates 
should not be penalized in AYP calculation.
Flexibility--Graduation Definition
    NASSP advocates that the graduation rate be extended to at least 
five years of entering high school. Currently, NCLB requires states to 
graduate students within the ``regular'' time. Most often, this has 
been determined to mean within four years; although, the U.S. 
Department of Education has allowed some states to extend beyond this 
traditional timeline.
    NASSP wholeheartedly believes that designating a four-year 
timeframe within which students must exit and graduate from high school 
goes against what we know about student learning and timelines 
designated by the Individuals with Disabilities Education Act. In fact, 
we should be moving in the opposite direction, allowing students 
additional time to graduate if they require it, or less time if they 
have reached proficiency without penalizing the school.
    Students that graduate in fewer than four years should be rewarded. 
This would be an area in the law to actually encourage excellence. The 
recognition of high-performing students could help schools that are 
nearing the target of 100% proficiency. Student performance should be 
measured by mastery of subject competency rather than by seat time 
currently imposed by NCLB. States that have implemented end-of-course 
assessments are on the right track and should be encouraged to continue 
these efforts. This feature would promote moving beyond the minimum 
requirements mandated by the law.
    Ultimately, individualized and personalized instruction for each 
student should be our goal. NASSP has been a leader in advocating for 
such positive reform strategies through its practitioner-focused 
publications Breaking Ranks II: Strategies for Leading High School 
Reform(tm) and Breaking Ranks in the Middle: Strategies for Leading 
Middle School Reform.
Capacity Building--Funding
    NASSP believes that full funding of the law is critical to provide 
the capacity required for success. We recommend that funding not be 
taken away as a sanction for Title I schools that are not meeting 
proficiency. One of our task force members, Brent Walker from New 
Hampshire, offers a compelling story concerning this issue.
    Brent's rural middle school was one of the first identified as a 
``school in need of improvement'' in his state. As a Title I targeted-
assistance school, he was fortunate to have access to a sizable portion 
of grant money that was distributed by the state to the identified 
schools to fund their respective school improvement plans. As a result, 
the school's staff members were able to conduct a needs assessment and 
pursue an aggressive professional development program that included two 
years of school-wide one-to-one consulting. Thanks to this intensive 
professional development, Brent's school has made AYP each year since 
being identified for improvement. However, other schools in his state 
have not had access to the same professional development funds. This is 
an even greater issue when considering low-income schools that have not 
achieved Title I status.
    To their credit, many states are beginning to recognize the 
importance of adequate funding for high standards, but that recognition 
needs to trickle up to the federal level. A March 2006 report issued by 
the Center on Education Policy found that in 2004 and 2005, nearly two-
thirds of the states did not have sufficient funds to provide technical 
assistance to schools in need of improvement.
    In addition, many school districts said that some NCLB 
administrative costs were not covered by federal funds, or that federal 
dollars were not sufficient to cover the costs of NCLB-required 
interventions such as implementing public school choice or providing 
remediation services for students performing below grade level. In 
addition, in districts where they were not needed, transportation funds 
could not be reprogrammed to defray these costs. We request that the 
federal government increase administrative funds associated with this 
law. Increased costs for schools include items such as Title I site 
administrators; training and professional development; and assessment 
and evaluation.
    NCLB funding is being reduced at a time when schools are poised to 
implement the new teacher quality and science standards, required by 
NCLB law, and Title I funding for high schools is a paltry 5%--or 
less--and around 15% when middle schools are included. If we are truly 
serious about improving our schools, we must provide the resources that 
address the problems and challenges of school reform in a comprehensive 
manner from pre-kindergarten and elementary through high school and 
beyond.
Closing
    A few final thoughts: Principals, teachers, and other staff members 
in the vast majority of schools are working hard to improve and meet 
the standards of NCLB. They are implementing new strategies, improving 
teaching methods, and working with parents to achieve higher student 
learning. Many schools are actively seeking to accomplish what has been 
asked of them.
    According to the Southeast Center for Teaching Quality, high-
quality leadership was the single greatest predictor of whether or not 
a high school makes AYP as defined by NCLB--greater than school size or 
teacher retention. Principals should be given sufficient resources to 
implement effective school reform because they are responsible for 
encouraging the continuation of school reform programs that are working 
and for discouraging practices that disrupt good reform programs 
already underway.
    NASSP promotes the improvement of secondary education and the role 
of principals, assistant principals, and other school leaders by 
advocating high professional and academic standards, addressing 
problems school leaders face, providing a ``national voice,'' building 
public confidence in education, and strengthening the role of the 
principal as instructional leader. NASSP promotes the intellectual 
growth, academic achievement, character development, leadership 
development, and physical well-being of youth through its programs and 
student leadership services, including the National Honor Society(tm), 
the National Association of Student Councils(tm), and the National 
Association of Student Activity Advisers(tm).
                                 ______
                                 
    [Internet address to National Association of Secondary 
School Principals (NASSP), ``NASSP Legislative Recommendations 
for High School Reform,'' dated 2005, follows:]

                  http://www.principals.org/s--nassp/
                bin.asp?CID=1238&DID=49743&DOC=FILE.PDF

                                 ______
                                 
    [Internet address to NASSP Policy Recommendations for 
Middle Level Reform, dated 2006, follows:]

                  http://www.principals.org/s--nassp/
      bin.asp?TrackID=&SID=1&DID=54017&CID=937&VID=2&DOC=FILE.PDF

                                 ______
                                 
    [The NASSP NCLB recommendations follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from the National School Boards Association (NSBA) 
follows:]

       Letter from the National School Boards Association (NSBA)

    The National School Boards Association (NSBA), representing over 
95,000 local school board members across the nation, commends you for 
your strong support to reauthorize the Elementary and Secondary 
Education Act (ESEA)/No Child Left Behind (NCLB) Act during the 110th 
Congress, and for establishing an aggressive schedule for congressional 
hearings over the coming weeks. NSBA looks forward to participating in 
future hearings and very much appreciates the opportunity to submit 
written testimony for the record.
    NSBA strongly supports the goals of the Elementary and Secondary 
Education Act and its subsequent reauthorizations, including the No 
Child Left Behind Act of 2001. Now that local school districts have had 
five years of implementation, we urge you to fully incorporate our 
recommendations for improvements to the law. Many school boards believe 
that some of the current provisions in the law do not recognize the 
complex factors that influence student performance. Additionally, local 
school boards are concerned that the law has resulted in may unintended 
consequences that must be addressed. Of utmost importance is our belief 
that the current accountability framework does not accurately or fairly 
assess student, school, or school district performance. NSBA believes 
that the law can be amended to address key barriers to full 
implementation while maintaining the core principles of the law to 
improve achievement for all students.
    In January 2005, NSBA officially unveiled its bill, the No Child 
Left Behind Improvements Act of 2005. The bill contains over 40 
provisions that would improve the implementation of the current federal 
law. In June, 2006, Representative Don Young (R-AK) introduced H.R. 
5709, the No Child Left Behind Improvements Act of 2006, which 
incorporated all of the NSBA recommendations. Co-sponsors of H.R. 5709 
included Representatives Steven R. Rothman (D-NJ-9), Rob Bishop (R-UT-
1), Todd Platts (R-PA-19), and Jo Bonner (R-AL-1). In January 2007, 
Rep. Young re-introduced his bill as the No Child Left Behind Act of 
2007, H.R. 648. The bill's co-sponsors to date include Representatives 
Charlie Melancon (D-LA-3), Steven Rothman (D-NJ-9), Jo Bonner (R-AL-1), 
Thaddeus McCotter (R-MI-11), and Todd Platts (R-PA-19), verifying 
strong bi-partisan support for these important improvements to the 
current law. The bill addresses the key concerns of local school boards 
and would:
    <bullet> Increase the flexibility for states to use additional 
types of assessments for measuring AYP, including growth models.
    <bullet> Grant more flexibility in assessing students with 
disabilities and students not proficient in English for AYP purposes.
    <bullet> Create a student testing participation range, providing 
flexibility for uncontrollable variations in student attendance.
    <bullet> Allow schools to target resources to those student 
populations who need the most attention by applying sanctions only when 
the same student group fails to make adequate yearly progress (AYP) in 
the same subject for two consecutive years.
    <bullet> Ensure that students are counted properly in assessment 
and reporting systems.
    <bullet> Allow supplemental services to be offered in the first 
year of ``improvement''.
    <bullet> Strengthen federal responsibility for funding.
    <bullet> Require NCLB testing and reporting for non-public schools 
for students receiving Title I services.
    NSBA encourages you to review the No Child Left Behind Improvements 
Act of 2007, H.R. 648 in its entirety. However, for your convenience we 
have enclosed a copy of our Quick Reference Guide to the bill that 
provides a summary of the recommended provisions along with the 
rationale. We will also provide you with recommended legislative 
language which should be helpful to your staff in drafting the new 
bill.
    Although the No Child Left Behind Act of 2001 established a 
rigorous but theoretical accountability system for the nation's public 
schools, what has evolved in the name of accountability is a 
measurement framework that bases its assessment of school quality on a 
student's performance on a single assessment; and mandates a series of 
overbroad sanctions not always targeted to the students needing 
services; and to date not yet proven to have significant impact on 
improving student performance and school performance.
    We believe that by adopting our over 40 recommendations--that have 
bipartisan congressional support--the goals of the Elementary and 
Secondary Education Act and its subsequent reauthorizations to 
significantly improve the academic performance of all students would be 
achieved.
    NSBA very much appreciates the opportunity to submit written 
testimony for the record, and we look forward to working closely with 
you and your staffs to complete the reauthorization process during this 
First Session of the 110th Congress.
            Sincerely,
                                        Michael A. Resnick,
                                      Associate Executive Director.
                                 ______
                                 
    [The National School Boards Association Quick Reference 
Guide follows:]

        National School Boards Association Quick Reference Guide

Measuring Adequate Yearly Progress: Group Size/Measuring AYP of Groups
    1. The ``N'' size may be larger for school districts than for 
schools.
    Rationale: Larger school districts are negatively impacted by the 
``N'' number designed for an individual school. If larger school 
districts are to be identified as ``in need of improvement,'' a larger 
``N'' number is more appropriate--of course, subject to the approval of 
the state.
    2. The ``N'' size for a group within a school may be increased to a 
number or percentage of that school's total school enrollment to better 
align with schools with large enrollments.
    Rationale: The number of students within a specific subgroup may 
vary, so very large subgroups should be able to have a different ``N'' 
number than subgroups with a very small number of students.
    3. The ``safe harbor'' requirement is reduced from 10% to 5%.
    Rationale: This flexibility would permit subgroups to demonstrate 
progress and such recognition would provide an incentive for the 
students in the subgroup as well as their families.
    4. In calculating AYP, students identified in more than one group 
may be represented in the count for each group as an equal fraction 
totaling one student.
    Rationale: This change creates a fairer approach in determining AYP 
for schools with students belonging to more than one group than over 
representing their count and would not adversely affect schools with 
greater diversity.
Goals for Adequate Yearly Progress
    5. A state may permit a school to be identified as meeting AYP when 
one or more subgroups fail to meet AYP targets as long as the total 
number of students in the subgroups failing to meet their AYP targets 
does not exceed 10% of the total number of students counted for the 
specific assessment or indicator. (This alternate method could not be 
applied to the same groups for the same subject in two consecutive 
years.)
    Rationale: This option permits a one year deferral of a school 
being identified for improvement when small numbers of students prevent 
a group from making AYP.
    6. Intermediate goals do not have to increase in equal increments.
    Rationale: This option would give school districts flexibility in 
addressing the unique needs of specific subgroups that may already be 
positioned at different points to achieve full proficiency.
    7. Different groups can have different rates of increase to 
ultimately reach 100% proficiency.
    Rationale: This option would provide school districts flexibility 
in addressing the unique needs of specific groups.
Gain Scores and Other Measures of AYP Developed by the State
    8. The basic AYP measurement system may be expanded to include: 1) 
gain score approaches (like value added) and 2) partial credit for 
meeting basic proficiency targets.
    Rationale: The current accountability system, focused on ``cut 
scores,'' is flawed and does not address the need to measure 
performance via more than one method.
    9. Alternate methods of measuring AYP for schools and/or school 
districts may be substituted for the existing methodology, provided the 
system is based on attaining proficiency in the 2013-14 school year and 
using intermediate goals.
    Rationale: States would have greater flexibility to design their 
accountability systems while continuing to support the broader goals of 
NCLB.
Participation Rate
    10. The specific requirement for 95% test participation may be 
adjusted to a range of 90% to 95% (based on criteria established in the 
state plan).
    Rationale: With ``N'' numbers being relatively small, meeting the 
current participation requirements could be impacted by the absence of 
only one or two students.
    11. Students may be exempted from the participation rate 
requirements on a case-by-case basis due to medical conditions, current 
state laws that grant parents final decisions regarding participation 
on standardized assessments and uncontrollable circumstances (e.g. 
natural disaster).
    Rationale: This option would recognize that there may be unique 
circumstances facing students that would warrant exceptions to 
participation, and such absence should not adversely impact the 
performance of the entire school or school district.
    12. Students determined to have ``unusual patterns of attendance'' 
as defined by the state education agency may be exempt from the 
calculation to determine participation rate and referenced in the local 
school district accountability plan. (This category of students may 
include chronic truants as well as students who fail to attend school 
on a regular basis because of life circumstances but continue to 
maintain their official enrollment status.)
    Rationale: In some communities there are students with very poor 
attendance but who continue to be encouraged to remain in school rather 
than drop-out. By having this option, schools would continue to 
encourage such students to remain in school without the worry of the 
impact on this student's performance on the school's ability to make 
AYP.
    13. Students not participating in the assessment and determined not 
to be eligible for exemptions may be assigned a ``below basic'' score 
by the school. In such cases, the school may not be identified as 
failing to meet the participation rate for AYP on the basis that those 
same students did not take the assessment.
    Rationale: Currently a school could be labeled as ``in need of 
improvement'' on the basis of performance and participation. When 
calculating AYP, this option would permit a school to make AYP as long 
as the AYP targets were met since the absent students are given a 
``below basic'' score as part of the final AYP determination.
Students With Disabilities
    14. As determined by the state, students with disabilities may be 
offered an alternate assessment for the purpose of determining AYP, 
provided that any such assessment is reflected by the student's IEP and 
is based on the IEP team's evaluation and the services to be provided 
for that student--and meets parent consent requirements for IEP's.
    Rationale: The IEP team has the authority to determine the academic 
requirements for the students and NCLB should not override its 
authority.
    15. The percentage of students statewide who may have their score 
counted under this provision as meeting AYP may not exceed 3% of the 
total number of students assessed.
    Rationale: This percentage is consistent with the research.
    16. Consistent with the student's IEP, alternate assessments may 
include out of level assessments. Likewise, a student's test results 
for the purpose of determining AYP may be based on gain scores toward 
meeting the state standard for proficient or on an adjusted ``cut'' 
score for determining proficient.
    Rationale: The IEP team has the authority to determine the academic 
requirements for the students and NCLB should not override its 
authority.
Limited English Proficient Students
    17. The current regulation is codified relating to 1) first year 
students in the United States, and 2) counting students as LEP for 
determining AYP once they leave the group except that such count may be 
extended to a third year.
    Rationale: The law would be consistent with the regulatory changes 
that have already been issued by the U.S. Department of Education.
    18. Students may be provided an alternate assessment that is based 
on making specific gains individually determined for that student 
toward meeting state standards for up to three years, as determined by 
the local school district.
    Rationale: Such flexibility is necessary to meet the needs of 
individual students who enroll in schools with wide variations in 
English fluency.
    19. The higher score achieved by a student who is assessed more 
than once prior to the beginning of the next school year may be used as 
the sole score for that student for the purposes of determining AYP.
    Rationale: Students should be evaluated on their best scores 
similar to SAT participation.
First Assessments
    20. If a student scores proficient or above on an assessment taken 
prior to the academic year in which that assessment is normally 
offered, that student's score can be counted for the purpose of 
determining whether AYP was met. However, if that student fails to 
score at the proficient level, that student's score will not be counted 
for determining AYP.
    Rationale: Schools that offer such assessments more than once 
should have flexibility in calculating performance using the best 
possible scores.
State Flexibility by the U.S. Department of Education
    21. In approving a state's NCLB accountability plan the Secretary 
shall grant states flexibility to alter the federal framework to align 
with the state's own accountability system.
    Rationale: States have the responsibility for educating their 
students and should have the authority to use state systems subject to 
approval by the Secretary.
    22. The Secretary may provide statutory and regulatory waivers--
including waiving requirements that are unnecessarily burdensome or 
duplicative of state requirements.
    Rationale: States should not have to implement federal mandates 
that are inconsistent, duplicative, or add no value to state 
requirements as long as those state requirements support the broader 
objectives of NCLB.
    23. When the Secretary approves an amendment to a state plan or 
grants a waiver, that information must be published on the U.S. 
Department of Education website in clear and complete language within 
30 days.
    Rationale: Information regarding adjustments approved by the 
Secretary is not readily available. This change would ensure that all 
states are informed regarding adjustments and accommodations granted by 
the Secretary.
    24. A waiver or state plan revision approved by the Secretary shall 
be available to any other state on a case-by-case determination.
    Rationale: This change would encourage equitable treatment by the 
U.S. Department of Education.
Public School Choice
    25. A transfer option need only be offered to those low achieving 
students within the group who failed to meet their AYP targets in the 
same subject for two or more years--not to all students in the school.
    Rationale: Although an unintended consequence from the current law, 
higher performing, more affluent students opt for the transfer, leaving 
the school less likely to improve its performance in subsequent years.
    26. Financial obligations for a school district to provide 
transportation for a student ends when the group to which the student 
belongs no longer is identified as not meeting AYP target within the 
student's former school even if that school continues to be identified 
as not making AYP for other reasons.
    Rationale: Title I funds are already limited. Continuing such 
financial obligations without the need adversely impact already limited 
resources.
    27. A student need only be offered the option to transfer to one 
other school rather than the current interpretation of at least two 
schools.
    Rationale: This change would make the regulations consistent with 
the intent of the law, and acknowledge the often very limited choice 
options available in many small school districts.
    28. The current regulation exempting students from being offered 
the transfer option when health and safety are involved is codified and 
the following conditions for exemption are added: 1) class-size laws, 
2) overcrowding, 3) the need for mobile classrooms, construction, or 
other significant capital outlays, and 4) such travel burdens as time, 
safety, and unusually high per pupil costs.
    Rationale: This would make the law consistent with the regulations 
already issued.
Supplemental Services
    29. Supplemental services may be offered in the first year that a 
school is in improvement status--rather than only offering the transfer 
option for that year.
    Rationale: Research supports the change, and the Secretary has 
already granted such an option to many states.
    30. Supplemental services need only be offered to low achieving 
students within the specific group that fails to make AYP in the same 
subject for two or more years.
    Rationale: Given the limited Title I funds available, such 
resources should be targeted only to those students who have 
demonstrated a need, not all Title I eligible students.
    31. The state is required to consult with school districts in 
developing criteria for supplemental service providers.
    Rationale: Currently, providers are placed on the list with little, 
if any, input from local school districts that often have relevant 
information concerning their performance.
    32. The state may establish a date, not later than December 15, to 
permit school districts to spend portions of the 20% set-aside from 
Title I not needed for such services with appropriate parent 
notification.
    Rationale: This would allow school districts to reallocate funds to 
support other Title I initiatives for eligible students within the 
district. Currently such funds cannot be released to support much 
needed programs during the remainder of the school year.
    33. The state is required to develop--and make available to the 
public--procedures to enable local school districts to bring complaints 
regarding the selection and performance of the provider, and number of 
schools served by the provider if such scope of service adversely 
affects the quality of service.
    Rationale: Currently, local school districts have little recourse 
regarding substantive complaints against the providers, forcing 
unnecessary political/partisan engagements.
    34. School districts may not be denied the opportunity to provide 
supplemental services solely because they did not make AYP or they are 
in improvement, corrective action, or restructuring status.
    Rationale: Under current regulations, local school districts 
identified as ``in need of improvement'' are not permitted to offer 
supplemental services. This is an unnecessary restriction resulting in 
costlier programs using the same teachers and facilities that would be 
available with the school district as a provider. Secondly, Secretary 
Spellings has already granted such exceptions to some districts.
Sanctions in General
    35. Sanctions for schools and school districts will apply only when 
AYP is not met by the ``same group `` for two or more consecutive years 
in a subject or the ``same indicator ``--rather than applying sanctions 
when different groups and/or different indicators are involved from 
year to year in that subject.
    Rationale: This provides a more reasonable approach in the 
identification of schools. Under current law, even if a subgroup 
previously not making AYP subsequently makes AYP, the school is forced 
to be identified and subject for sanctions. By requiring at least a 
two-year pattern of low performance, limited school resources can be 
strategically targeted, and the number of schools identified would be 
reduced.
    36. The application of corrective action sanctions to restructure a 
school district will occur when it fails to make AYP in each grade.
    Rationale: This change provides a more reasonable approach and has 
been approved for some states by the U.S. Department of Education.
    37. Provisions of federal law requiring the restructuring of a 
school or a school district shall not be implemented unless the total 
number of students in the groups not scoring proficient or above 
exceeds 35% of that school or school district's enrollment.
    Rationale: Under current law, an entire school district could be 
identified for restructuring based on as few as 50 students if that 
were the ``N'' number, regardless of how large the enrollment is in the 
school district. This change would acknowledge that before an entire 
school district is identified for costly restructuring, the percentage 
of students not meeting AYP must represent at least 35% of the total 
enrollment.
    38. In addition to deferring implementation of sanctions for one 
year for schools and school districts that face hardships such as 
natural disasters or financial difficulties, implementation may also be 
deferred due to a sudden change in the enrollment of particular groups 
of students in the school or within identified groups.
    Rationale: This change would acknowledge that there could be very 
unique circumstances facing a school district such as those school 
districts receiving displaced students from the Gulf Coast hurricanes.
    39. Sanctions relating to corrective action and restructuring will 
be deferred in any year that appropriations for Title I is not 
increased by at least $2.5 billion over the previous year until Title I 
is fully funded.
    Rationale: Federal funding should bear some relationship to 
requirements to implement costly sanctions. Therefore, Congress should 
be held accountable for its fiscal commitment.
    40. Sanctions relating to corrective action and restructuring will 
be deferred in any year that appropriations are not increased by at 
least $2 billion over the previous year for students with disabilities.
    Rationale: Federal funding should bear some relationship to 
requirements to implement costly sanctions. Therefore, Congress should 
be held accountable for its fiscal commitment.
Non-Public Schools
    41. Students receiving Title I benefits in non-public schools shall 
be given the same assessments, as public school students, with 
appropriate accountability and test reporting requirements to parents 
and school districts that are required by NCLB to provide consultative 
services to those non-public schools.
    Rationale: Non-public schools receiving federal support should be 
subject to the same measures of performance and accountability as 
public schools.
    42. States may authorize a cessation of Title I support to a non-
public school whose Title I students as a whole do not make AYP and 
perform at lower levels than the area public school(s) for three years 
or more.
    Rationale: Non-public schools receiving federal support should be 
subject to the same measures of performance and accountability as 
public schools.
                                 ______
                                 
    [Letter from the National Parents and Teachers Association 
(PTA) follows:]
                                                    March 13, 2007.
Hon. Edward Kennedy, Chair,
Hon. Michael B. Enzi, Ranking Member,
Senate Committee on Health Education, Labor and Pensions, U.S. Senate, 
        Dirksen Senate Office Building, Washington, DC.
Hon. George Miller, Chair,
Hon. Howard P. ``Buck'' McKeon, Ranking Member,
House Committee on Education and Labor, U.S. House of Representatives, 
        Rayburn House Office Building, Washington, DC.
    Dear Chairman Kennedy, Chairman Miller, Ranking Member Enzi and 
Ranking Member McKeon: Thank you for convening this bicameral hearing 
on the reauthorization of the Elementary and Secondary Education Act 
and for allowing me this opportunity to submit testimony on behalf of 
the National PTA. As national president of PTA, I represent nearly 6 
million parents, teachers, students and other child advocates devoted 
to the educational success of children and the promotion of parent 
involvement in schools. We are greatly encouraged by the cooperation 
between both sides of the Capitol, evidenced by this hearing, and we 
hope it will lead to the development of a more comprehensive bill that 
will be accepted widely.
    PTA is a registered 501 (c)(3) nonprofit organization that prides 
itself on being a powerful voice for children, a relevant resource for 
parents, and a strong advocate for public education. Membership in PTA 
is open to anyone who is concerned with the education, health, and 
welfare of children and youth. Since its founding in 1897, PTA has 
reminded our country of its obligations to children and provided 
parents and families with a powerful voice to speak on behalf of every 
child. PTA strives to provide parents with the best tools to help their 
children succeed in school and in life. With more than 25,000 local, 
council, district, and state PTAs in the 50 states, the District of 
Columbia, the U.S. Virgin Islands, and Department of Defense Dependents 
Schools overseas, membership in PTA is open to anyone who supports the 
Mission and Purposes of PTA.
    The reauthorization of the Elementary and Secondary Education Act 
(ESEA) in 2001 as the No Child Left Behind Act (NCLB) took great 
strides towards providing accountability for schools to ensure that 
every student becomes proficient in math and reading. PTA is looking 
forward to science being included in the equation, and, we hope this 
will help to create more jobs and opportunities for students in 
cutting-edge fields of study. Keeping the United States competitive in 
a global market was a major priority during the last reauthorization; 
PTA hopes this priority will continue as Congress looks to reauthorize 
the law. In addition, PTA continues to support the original intent of 
ESEA in helping children of low-income families receive a high-quality 
education equal to their economically-advantaged peers.
    The No Child Left Behind Act of 2001 provided an excellent outline 
of accountability. It is PTA's hope that reauthorization of the law 
will shore up some of the items that were overlooked during the last 
reauthorization, or found to be flawed during implementation. Congress 
has an excellent opportunity to fine-tune this law to make it more 
effective in reaching the goal of 100 percent proficiency by the 2013-
2014 school year.
    The PTA believes it is imperative that parents know exactly why 
their child's school is failing, what the state is doing about it, and 
the options available to parents--all in a very clear and 
understandable manner. In its current form, NCLB does not give explicit 
instructions to the state or local education agency (SEA and LEA, 
respectively) regarding how and when they should involve parents. 
Moreover, there is no unified, consistent method for an LEA to keep 
their parents notified of how their child's school is doing and what 
actions the school is taking to become proficient under NCLB.
    The PTA believes that including parental involvement specifically 
within the Committee's objectives will enhance substantially 
opportunities for parents to become and remain involved in their 
child's education. In addition, expansion of Parental Information and 
Resource Centers (PIRCs) will improve parental involvement in Title I 
schools. A PIRC can be extremely useful in not only helping parents 
with their questions and concerns, but also in providing ``technical 
assistance'' to those schools not achieving Adequate Yearly Progress 
(AYP) for two years. By supporting this provision, PIRCs can continue 
to be a vital tool for parents, teachers, and the LEA.
    PTA's interests are not limited to parent involvement. The 
Committee needs to take a critical look at how to ensure schools 
include as many students as possible in their accountability standards. 
ESEA was established to provide a helping hand to those students who 
need to help the most. More attention needs to be paid to these 
students and not the overall school. Finding a way for individual 
students to be tracked will greatly enhance our ability to identify 
their strengths, weaknesses, and specific assistance they need to 
improve their academic skills.
    Supplemental Education Services should be better publicized and the 
process to become one of these services needs to encourage 
participation rather than serve as an obstacle. The reauthorization 
must provide states the flexibility to offer unique services that will 
enhance a student's education.
    The Committee should also explore ways in which a more 
comprehensive view of student progress can be assessed and measured. 
Reading, math, and science are extremely important to student academic 
success, but do not overlook the importance of art, music, civics, 
history and other core subjects that are critical to the development of 
the whole child.
    It is imperative to ensure the resources that help schools, 
districts and states meet the goals of this important legislation. As 
states continue to implement the provisions of NCLB, schools across 
America are working hard to improve academic results for all children. 
Having the necessary resources is crucial to its success.
    Through all of the changes the Committee may contemplate in the 
reauthorization of ESEA, PTA urges you to consider how it will affect 
parents and how you can provide a way for them to become more involved. 
There is little incentive and even less accountability in the current 
law for SEAs and the LEAs to include parents in critical decisions that 
affect their child's learning. While no state can force a parent to be 
involved, the more opportunities that exist, the better chance a parent 
will become and remain active. By mandating what a state MUST do and by 
having some part of the state and federal departments of education 
ensuring all parent involvement sections are being followed, more 
parents will find opportunities to take a much larger role in their 
child's education.
    The PTA thanks you for your tireless work on behalf of our nation's 
children. We look forward to working with you throughout the 
reauthorization. Our members stand ready to assist you in any way they 
can.
            Sincerely,
                                              Anna Weselak,
                                            PTA National President.
                                 ______
                                 
    [Whereupon, at 12:09 p.m., the committees were adjourned.]

                                 <all>

</pre></body></html>
